No. 20In The

Supreme Court of the United States
Google, Inc., Alphabet, Inc.,
and A decco Usa, Inc.,
Petitioners,
v.

John Doe, David Gudeman,
and Paola Correa,
Respondents.
On Petition for a Writ of Certiorari to the
Court of A ppeal of the State of California
(First A ppellate District)

PETITION FOR A WRIT OF CERTIORARI
Mia Farber
A dam Y. Siegel
Jackson Lewis P.C.
725 South Figueroa Street,
Suite 2500
Los Angeles, CA 90017
(213) 689-0404
Scott P. Jang
Dylan B. Carp
Jackson Lewis P.C.
50 California Street, 9th Floor
San Francisco, CA 94111
(415) 394-9400
Counsel for Petitioner
Adecco USA, Inc.
302628

Paul W. Cane, Jr.
Counsel of Record
J. A l Latham, Jr.
Cameron W. Fox
A nkush Dhupar
Paul Hastings LLP
515 South Flower Street,
25th Floor
Los Angeles, CA 90071
(213) 683-6000
paulcane@paulhastings.com
Counsel for Petitioners
Google LLC and Alphabet Inc.

i
QUESTION PRESENTED
Where plaintiff has sought and obtained relief under
the National Labor Relations Act, does the Act preempt
plaintiff’s state-law claim for penalties for the same
conduct?

ii
PARTIES TO THE PROCEEDING
Google LLC (formerly Google Inc.), Alphabet Inc.,
and Adecco USA, Inc. are the defendants in the trial
court and the petitioners here. John Doe, David Gudeman,
and Paola Correa are the plaintiffs in the trial court and
the respondents here. John Doe, who is using a fictitious
name in this case, is presently employed by Google; David
Gudeman was formerly employed by Google; and Paola
Correa alleged that she was formerly employed jointly by
Adecco and Google. Google LLC and Alphabet Inc. are
collectively referenced herein as “Google.”

iii
STATEMENT PURSUANT TO RULE 29.6
Google LLC (formerly Google Inc.) is a limited liability
company that is wholly owned by Alphabet Inc., which
issues shares to the public.
ADO Staffing, Inc. and Adecco, S.A. have an ownership
interest of 10 percent or more in Adecco USA, Inc.

iv
STATEMENT PURSUANT TO RULE 14.1(b)(iii)
The following proceedings are the subject of the
present petition for certiorari:
• John Doe et al. v. Google, Inc., et al., No. S265288
(Cal.) (order denying discretionary review; entered
Jan. 13, 2021);
• John Doe et al. v. Google, Inc., et al., No. A157097
(Cal. Ct. App.) (order reversing trial court’s orders
sustaining Google’s and Adecco’s demurrers;
entered Sept. 21, 2020); and
• John Doe et al. v. Google, Inc., et al., No. CGC16-556034 (Cal. Super. Ct.) (orders sustaining
Google’s and Adecco’s demurrers; entered June
27, 2017 and Nov. 7, 2017, respectively).
The following proceedings are also related to this
case:
• John Doe et al. v. Superior Court of California,
San Francisco County; Google, Inc., et al., No.
S268568 (Cal.) (Plaintiffs’ petition seeking review
of trial court’s order denying their peremptory
challenge to trial court judge; pending);
• John Doe et al. v. Superior Court of California,
San Francisco County; Google, Inc., et al., No.
A162337 (Cal. Ct. App.) (order denying Plaintiffs’
petition seeking review of trial court’s order
denying their peremptory challenge to trial court
judge; entered Apr. 21, 2021);

v
• John Doe et al. v. Google, Inc., et al., No. A158826
(Cal. Ct. App.) (order dismissing Plaintiffs’ petition
seeking review of trial court’s order denying their
catalyst fees and costs motion; entered June 4,
2021); and
• John Doe et al. v. Superior Court of California,
San Francisco County; Google, Inc., et al., No.
A153726 (Cal. Ct. App.) (order denying Plaintiffs’
petition seeking interlocutory review of trial
court’s orders sustaining Google’s and Adecco’s
demurrers; entered Mar. 29, 2018).

vi
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
STATEMENT PURSUANT TO RULE 29.6  . . . . . . .  iii
STATEMENT PURSUANT TO RULE 14.1(b)(iii) . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . .  ix
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  xi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE WRIT . . . . . . . . . . 6
I.

By P ermitting St a te - L aw
Penalties To Be Piled On Top
Of The NLRB’s Remedies, The
Deci sion Below C onflict s
With This Court’s Teaching In
Gould. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

vii
Table of Contents
Page
A. This Cour t In Gould Held That
T he NLR A P reempt ed St at e
Penalties Imposed On Top Of NLRA
Remedies.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. The Decision Below Squarely Conflicts
With Gould. . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
II. THE CALIFORNIA COURT’S RADICAL
E X PA N S I O N O F T H E “ L O C A L
INTEREST” EXCEPTION CONFLICTS
WITH SETTLED PRINCIPLES OF
GARMON PREEMPTION. . . . . . . . . . . . . . . . . 10
A. T he M ajor it y ’s A s ser t ion T hat
An NLRB Settlement Clears The
Way For St at e - Cou r t Action Is
Contrary to Garmon And Multiple
Circuit Court Decisions. . . . . . . . . . . . . . . . 11
B. Contrary To The Decision Below,
Employees’ Right To Discuss Wages
And Working Conditions Is Central
To The NLRA, Not “Peripheral.”  . . . . . . . 14
C. The California Court’s Disparagement
Of The NLRB Settlement Process
Cannot Sustain The Local Interest
Exception. . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

viii
Table of Contents
Page
III. I F A L L OW ED T O S TA N D, T H E
DECISION BELOW RISKS
SU BSTA NTI A L INTERFERENCE
WITH THE NLRB’S JURISDICTION. . . . . . 19
IV. THIS CASE IS APPROPRIATE FOR
	SUMMARY REVERSAL. . . . . . . . . . . . . . . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

ix
TABLE OF APPENDICES
Page
APPENDIX A — ORDER DENYING REVIEW IN
THE SUPREME COURT OF CALIFORNIA,
F I R S T A P PEL L A T E DI S T R IC T,
DIVISION FOUR, FILED JANUARY 13,
2021  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION IN THE COURT
OF APPEAL OF CALIFORNIA, FIRST
APPELLATE DISTRICT, DIVISION FOUR,
FILED SEPTEMBER 21, 2020  . . . . . . . . . . . . . . . . 2a
Appendix C — OPINION of the superior
court of california, county of
san francisco, filed june 27, 2017  . . . . 61a
APPENDIX D — OPINION OF THE SUPERIOR
COURT OF CALIFORNIA, COUNTY OF
SAN FRANCISCO, FILED NOVEMBER 7,
2017  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83a
Appendix E — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91a
29 U.S.C. § 157  . . . . . . . . . . . . . . . . . . . . . . . . . . 91a
29 U.S.C. § 158 . . . . . . . . . . . . . . . . . . . . . . . . . . 92a
Cal. Lab. Code § 2698 et seq. . . . . . . . . . . . . . 106a
Cal. Lab. Code § 432.5  . . . . . . . . . . . . . . . . . . 124a
Cal. Lab. Code § 1102.5  . . . . . . . . . . . . . . . . . 125a
Cal. Lab. Code § 232.5  . . . . . . . . . . . . . . . . . . 128a
Cal. Lab. Code § 232 . . . . . . . . . . . . . . . . . . . . 129a
Cal. Lab. Code § 1197.5 . . . . . . . . . . . . . . . . . . 130a

x
Table of Appendices
Page
Cal. Lab. Code § 98.6  . . . . . . . . . . . . . . . . . . .  137a
Cal. Lab. Code § 96 . . . . . . . . . . . . . . . . . . . . .  141a
Cal. Bus. & Prof. Code § 17200 et seq. . . . . . 143a
Appendix F — NLRB Notice of Approval
	of Settlement Agreement . . . . . . . . . . 164a

xi
TABLE OF CITED AUTHORITIES
Page
Cases
Belknap, Inc. v. Hale,
463 U.S. 491 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Boeing Co.,
365 NLRB No. 154, 2017 NLRB LEXIS 634
(2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Casumpang v. Hawaiian Commercial
& Sugar Co.,
712 F. App’x 709 (9th Cir. 2018) . . . . . . . . . . . . . . . . . 13
Chaulk Services, Inc. v. Massachusetts
Commission Against Discrimination,
70 F.3d 1361 (1st Cir. 1995)  . . . . . . . . . . . . . . . . . . . . 12
Cintas Corp. v. NLRB,
482 F.3d 463 (D.C. Cir. 2007) . . . . . . . . . . . . . . . . . . . 15
Clark County Sch. Dist. v. Breeden,
532 U.S. 268 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
CNH Indus. N.V. v. Reese,
U.S.
, 138 S. Ct. 761 (2018)  . . . . . . . . . . . . . . 20
Construction Laborers v. Curry,
371 U.S. 542 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

xii
Cited Authorities
Page
Doe v. Google, Inc.,
54 Cal. App. 5th 948 (2020), review denied,
No. S265288, 2021 Cal. LEXIS 227
(Jan. 13, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Garner v. Teamsters,
346 U.S. 485 (1953) . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 8
Handicabs, Inc. v. NLRB,
95 F.3d 681 (8th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 15
International Longshoremen’s Ass’n v. Davis,
476 U.S. 380 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Jeannette Corp. v. NLRB,
532 F.2d 916 (3d Cir. 1976) . . . . . . . . . . . . . . . . . . . . . 15
Kaufman v. Allied Pilots Ass’n,
274 F.3d 197 (5th Cir. 2001)  . . . . . . . . . . . . . . . . . . . . . 8
Kinder-Care Learning Ctrs., Inc.,
299 NLRB 1171 (1990) . . . . . . . . . . . . . . . . . . . . . . . . 15
Linn v. United Plant Guard Workers of Am.,
383 U.S. 53 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Major League Baseball Players Ass’n v. Garvey,
532 U.S. 504 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Motor Coach Employees v. Lockridge,
403 U.S. 274 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8

xiii
Cited Authorities
Page
NLRB v. UFCW, Local 23,
484 U.S. 112 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Ohio v. Reiner,
532 U.S. 17 (2001)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Operating Engineers Local 926 v. Jones,
460 U.S. 669 (1983) . . . . . . . . . . . . . . . . . . . 9, 13, 21, 22
Parker v. Connors Steel Co.,
855 F.2d 1510 (11th Cir. 1988)  . . . . . . . . . . . . . . . . . . 13
Platt v. Jack Cooper Transport Co., Inc.,
959 F.2d 91 (8th Cir. 1992) . . . . . . . . . . . . . . . . . . . . . 13
Presley v. Georgia,
558 U.S. 209 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
San Diego Building Trades Council v. Garmon,
359 U.S. 236 (1959)  . . . . . . . . . . . . . . . . . . . . . . . passim
Sears, Roebuck & Co. v. Carpenters,
436 U.S. 180 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Sharp ex rel. NLRB v. Koronis Parts, Inc.,
927 F. Supp. 1208 (D. Minn. 1996) . . . . . . . . . . . . . . . 15
St. Margaret Mercy Healthcare Ctrs.,
350 NLRB 203 (2007), enf’d, 519 F.3d 373
(7th Cir. 2008)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

xiv
Cited Authorities
Page
Union Tank Car Co.,
369 NLRB No. 120, 2020 NLRB LEXIS 373
(2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Wisconsin Dep’t of Indus. v. Gould,
475 U.S. 282 (1986)  . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes
5 U.S.C. § 551 (Administrative Procedure Act
(APA)) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 
28 U.S.C. § 1257  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
29 U.S.C. § 151 et seq. (National Labor Relations
	Act (NLRA)) . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
29 U.S.C. § 157  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 14
29 U.S.C. § 158  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Cal. Bus. & Prof. Code § 17200 et seq. . . . . . . . . . . . . 2, 4
Cal. Lab. Code § 96(k) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Lab. Code § 98.6  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Lab. Code § 232 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

xv
Cited Authorities
Page
Cal. Lab. Code § 232.5  . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Lab. Code § 432.5  . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Lab. Code § 1102.5(a)  . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Lab. Code § 1197.5(j) . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Lab. Code § 1197.5(k)  . . . . . . . . . . . . . . . . . . . . . . . . 2
C a l . L a b . C ode § 2698 et seq. (C a lifornia
L a bor C ode P rivate A ttorneys G eneral
	Act (PAGA)) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Cal. Lab. Code § 2699.5  . . . . . . . . . . . . . . . . . . . . . . . . . 20
Rules
Sup. Ct. R. 13.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Sup. Ct. R. 16.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Other Authorities
NLRB Casehandling Manual, § 10146.3 . . . . . . . . . . . 18

1
PETITION FOR A WRIT OF CERTIORARI
Google and Adecco respectfully petition this Court for
a writ of certiorari to review a decision of the California
Court of Appeal, following the California Supreme Court’s
denial of discretionary review.
OPINIONS BELOW
The decision of the California Court of Appeal,
reversing the trial court’s judgment for Google and
Adecco, is reported at 54 Cal. App. 5th 948 (2020). It is
reproduced in the Appendix at Pet. App. 2a-60a.
The decision of the California Supreme Court denying
discretionary review is not officially reported. It is
reproduced in the Appendix at Pet. App. 1a and reported
unofficially at 2021 Cal. LEXIS 227 (Jan. 13, 2021).
The decisions of the trial court sustaining Google’s
and Adecco’s demurrers are not officially or unofficially
reported. They are reproduced in the Appendix at Pet.
App. 61a-82a and 83a-90a, respectively.
STATEMENT OF JURISDICTION
Google and Adecco timely petition this Court within
150 days of the California Supreme Court’s order denying
discretionary review. Sup. Ct. R. 13.1, as modified by this
Court’s March 19, 2020, Order.
This Court has jurisdiction under 28 U.S.C. section
1257(a) to resolve whether the National Labor Relations
Act (“NLRA” or “Act”) preempts the state-court action.

2
The state-court judgment “is final within the meaning of
28 U.S.C. [section] 1257: it finally disposed of the federal
preemption issue; a reversal here would terminate
the state court action; and to permit the proceedings
to go forward in the state court without resolving the
preemption issue would involve a serious risk of eroding
the federal statutory policy of ‘requiring the subject
matter of respondents’ cause to be heard by the . . . Board,
not by the state courts.’” Belknap, Inc. v. Hale, 463 U.S.
491, 497 n.5 (1983) (citations omitted, second alteration
in original); accord International Longshoremen’s
Ass’n v. Davis, 476 U.S. 380, 390-91 (1986) (explicating
Construction Laborers v. Curry, 371 U.S. 542 (1963),
which had held that state-court assertion of jurisdiction
over NLRA-preempted claim, even to the extent of
granting a temporary injunction only, is final for purposes
of Supreme Court review).
STATUTORY PROVISIONS INVOLVED
The NLRA, as amended, is codified at 29 U.S.C.
sections 151-169. The relevant provisions of the Act,
Sections 7 and 8, are reproduced at Pet. App. 91a-105a.
The California Labor Code Private Attorneys
General Act (“PAGA”), Labor Code section 2698 et seq.,
provides civil penalties for violations of other Labor Code
provisions. The statutory predicates upon which Plaintiffs
base their PAGA claims against Google and Adecco are
Labor Code sections 432.5, 1102.5(a), 232.5, 232, 1197.5(j)
and (k), 98.6, and 96(k). Plaintiffs also alleged one claim
against Adecco under California Business & Professions
Code section 17200 et seq. (“Section 17200”). The relevant
provisions of these California statutes are reproduced at
Pet. App. 106a-163a.

3
STATEMENT OF THE CASE
1. On May 17, 2016, Respondent John Doe filed an
unfair labor practice charge against Google with the
National Labor Relations Board (“NLRB” or “Board”).
Pet. App. 9a. In his charge, Doe alleged, inter alia, that
Google’s confidentiality policies unlawfully prevented
Google’s workforce from discussing their wages and
working conditions outside the company. Id.
After investigating Doe’s charge, the NLRB’s Regional
Director issued a complaint on Doe’s allegations. Id. 10a.
The NLRB complaint, as amended, alleged that Google’s
policies prohibited employees from discussing and sharing
information related to their performance, compensation,
benefits, and records of training, misconduct, and discipline.
Id. It also alleged that Google’s policies violated the Act by
prohibiting employees from speaking with the press. Id.
On or around September 9, 2019, Google and the
NLRB’s Regional Director settled all claims alleged in the
NLRB complaint. Id. As part of the settlement remedies,
Google notified its employees that the confidentiality
policies at issue had been rescinded and informed them
that they had the right to discuss their wages and working
conditions among themselves and with others, including
the media. Id.; see also NLRB Notice of Approval of
Settlement Agreement, Pet. App. 164a-180a.
2. While Doe’s charge was pending before the NLRB,
Doe sued Google for penalties under PAGA. Pet. App. 4a7a. Doe’s Second Amended Complaint added Plaintiffs
Paola Correa and David Gudeman to the action and
alleged certain confidentiality claims against newly added
Defendant Adecco USA, Inc. Id. 4a. The Third Amended

4
Complaint, which became the operative complaint, alleged
fifteen PAGA claims against Google, based on the same
policies the NLRB was considering.1 Id. 4a-7a.
3. Google demurred, demonstrating that the NLRA
preempted the policy-based claims under San Diego
Building Trades Council v. Garmon, 359 U.S. 236
(1959). Pet. App. 2a-3a. The trial court sustained Google’s
demurrer without leave to amend. Id. The trial court
reasoned that “the NLRB is actively pursuing a case on
the policies [that are] the subject of this suit” and “here we
have an NLRB complaint which attacks the same policies
at issue in the state case.” Id. 77a, 80a.
4. After the trial court sustained Adecco’s demurrer
to the Third Amended Complaint on the ground of
Garmon preemption with leave to amend, Plaintiffs filed
a Fourth Amended Complaint asserting eight claims
against Adecco, 2 including allegations that Google and
Adecco were joint employers and that Adecco required
its employees to comply with Google’s challenged policies.
Id. 8a-9a, 86a-89a. The trial court sustained Adecco’s
demurrer on the ground of Garmon preemption without
leave to amend, reasoning that Plaintiffs’ claims “are
the same issues that the NLRB will address on Google’s
alleged policies” in connection with the then-pending
NLRB Complaint. Id. 83a-90a.3
1. The Third Amended Complaint also added an unrelated
cause of action that the parties later settled. Pet. App. 7a.
2. The eight claims against Adecco comprised seven PAGA
claims and one Section 17200 claim. Id. 8a-9a, 86a-89a.
3. Plaintiffs’ Fifth Amended Complaint alleged against Adecco
the same unrelated cause of action that the Third Amended Complaint
had alleged against Google, which all parties later settled. Id. 7a-8a.

5
5. The California Court of Appeal reversed the trial
court’s orders sustaining Google’s and Adecco’s demurrers
in a 2-1 decision. Pet. App. 2a-60a. Addressing “[t]he
first step of a Garmon analysis”—which is “whether the
conduct at issue is arguably protected or prohibited by
the NLRA”—the panel majority said, “We do not doubt
that some of the conduct at issue at least arguably falls
within the NLRA.” Id. 15a-16a. The court proceeded
to hold, however, that none of the PAGA claims was
preempted, because the “local interest exception” to
Garmon preemption applied. Id. 3a, 17a-32a.
6. Justice Tracie L. Brown dissented. She called the
majority to task for “fashioning [its] own test” rather
than “follow[ing] the analytical path the Supreme Court
has set forth for the local interest exception[.]” Id. 43a.
“By defining the local interest exception so broadly,” said
Justice Brown, “the majority opinion allows it to swallow
the intentionally wide rule of Garmon preemption and
defeat its purpose.” Id. 49a. Justice Brown particularly
stressed that the majority opinion conflicts with this
Court’s teaching that “states may not impose additional
penalties for conduct the NLRA prohibits.” Id. 59a (citing
Wisconsin Dep’t of Indus. v. Gould, Inc., 475 U.S. 282,
287 (1986)).
7. The California Supreme Court denied Google’s and
Adecco’s petition for discretionary review on January
13, 2021. Justice Goodwin H. Liu stated that the petition
should have been granted. Pet. App. 1a.

6
REASONS FOR GRANTING THE WRIT
Google and Adecco respectfully suggest that this
Court should grant certiorari and summarily reverse, or,
in the alternative, set the case for plenary briefing and
argument.
I.	By Permitting State-Law Penalties To
Be Piled On Top Of The NLRB’s Remedies,
The Decision Below Conflicts With
This Court’s Teaching In Gould.
A.

This Court In Gould Held That The NLRA
Preempted State Penalties Imposed On Top
Of NLRA Remedies.

In Wisconsin Dep’t of Indus. v. Gould, 475 U.S. 282
(1986), this Court unanimously held that the NLRA
preempted a Wisconsin statute debarring repeat labor law
violators from doing business with the state. This Court
applied the “[c]entral” principle of Garmon preemption
that the states “may not regulate activity that the NLRA
protects, prohibits, or arguably protects or prohibits.” Id.
at 286 (citing Garmon). “Because ‘conflict is imminent’
whenever ‘two separate remedies are brought to bear on
the same activity,’ . . . the Garmon rule prevents States not
only from setting forth standards of conduct inconsistent
with the substantive requirements of the NLRA, but also
from providing their own regulatory or judicial remedies
for conduct prohibited or arguably prohibited by the Act.”
Id. (quoting Garner v. Teamsters, 346 U.S. 485, 498-99
(1953), and citing Garmon, 359 U.S. at 247). The Garmon
rule is “designed to prevent ‘conflict in its broadest sense’
with the ‘complex and interrelated federal scheme of law,
remedy, and administration.’” Id. (quoting Garmon, 359
U.S. at 243).

7
Gould explained that “[t]he conflict between the
challenged . . . statute and the NLRA is made all the more
obvious by the essentially punitive rather than corrective
nature of Wisconsin’s supplemental remedy.” Id. at 288 n.5.
Because the NLRA is a remedial statute, and the Board
is not authorized to impose penalties, “[p]unitive sanctions
are inconsistent . . . with the remedial philosophy of the
NLRA[.]” Id.
B. The Decision Below Squarely Conflicts With
Gould.
Plaintiffs’ PAGA lawsuit is a quest for penalties,
and nothing but penalties. Citing this Court’s holding in
Gould that “states may not impose additional penalties
for conduct the NLRA prohibits,” dissenting Justice
Brown concluded: “Because it could allow plaintiffs
to impose monetary penalties for practices the Board
decided to remedy via settlement, plaintiffs’ PAGA suit
poses a substantial risk of interfering with the NLRB’s
jurisdiction.” Pet. App. 58a-59a.
The majority sought to distinguish Gould on the
ground that “none of plaintiffs’ claims requires proof of an
NLRA violation,” while “the California laws that plaintiffs
seek to enforce make no reference to the NLRA, the
NLRB, or the rights of workers to organize.” Id. 21a-22a.
Dissenting Justice Brown observed, however, that the
majority’s test “would allow virtually any state law
claim to proceed, regardless of its effects on the Board’s
jurisdiction, so long as it does not refer to the NLRA by
name or duplicate its elements.” Id. 49a.
The majority’s test is not the law, as this Court made
clear in Motor Coach Employees v. Lockridge, 403 U.S.

8
274 (1971)—a case the California Court of Appeal did
not cite. Plaintiff Lockridge contended that, because the
elements of breach of contract are different from those of
an unfair labor practice, the NLRA did not preempt his
contract claim. This Court rejected as “not tenable” the
contention “that Lockridge’s complaint was not subject to
the exclusive jurisdiction of the NLRB because it charged
a breach of contract rather than an unfair labor practice[.]”
Id. at 292. The Court continued: “Pre-emption[] . . . is
designed to shield the system from conflicting regulation
of conduct. It is the conduct being regulated, not the
formal description of governing legal standards, that is
the proper focus of concern.” Id. (emphasis added).
Gould reiterated Lockridge’s teaching, quoting the
very sentence highlighted above. Gould, 475 U.S. at 289;
see also Kaufman v. Allied Pilots Ass’n, 274 F.3d 197,
203-04 (5th Cir. 2001) (quoting same Lockridge language,
and holding preempted state-law claims of tortious
interference with contract).
Here, the “conduct being regulated” is Google’s and
Adecco’s past maintenance of certain employment policies
pertaining to employee communications. The decision below
would subject the very same conduct to penalties under
state law, above and beyond the remedies already provided
by the NLRA. That the “formal description of governing
legal standards” differs between state law and the NLRA
does not insulate state law from NLRA preemption, as
Lockridge, Gould, and Garner explained. The conflict
arises because NLRB remedies and state-law penalties
“‘are brought to bear on the same activity.’” Gould, 475
U.S. at 289 (quoting Garner, 346 U.S. at 498-99).

9
The majority below not only ignored that teaching, it
stated that “the availability of a remedy in state court that
is unavailable under the NLRA may be a reason not to find
a case preempted.” Pet. App. 22a (emphasis in original).
For this surprising proposition, the majority cited Linn
v. United Plant Guard Workers of Am., 383 U.S. 53, 6364 (1966), which—as Justice Brown pointed out in her
dissent—says no such thing. Id. 46a n.2. Indeed, this Court
has held the very opposite. In Operating Engineers Local
926 v. Jones, 460 U.S. 669, 684 (1983), the plaintiff argued
that he “should be permitted to go forward in the state
court because he could be awarded punitive damages and
attorney’s fees, whereas he would be limited to backpay
if his complaint had gone forward before the Board.”
Jones responded that Garmon had “squarely rejected”
this argument. Id. (citing Garmon, 359 U.S. at 246-47).
Gould reaffirmed this Court’s rejection of this argument,
quoting Garmon: “‘[T]o allow the State to grant a remedy
. . . which has been withheld from the National Labor
Relations Board only accentuates the danger of conflict.’”
Gould, 475 U.S. at 287 (quoting Garmon, 359 U.S. at 247)
(alteration in original, emphasis added).
In its NLRB settlement, Google agreed not to
maintain the policies that Plaintiff Doe challenged in
his unfair labor practice charge, and for which he now
seeks penalties in his state-court action. Pet. App. 10a,
164a-180a. Justice Brown stressed, “[T]he regional
director’s settlement has already caused Google to change
the same policies about which plaintiffs now complain.”
Id. 58a (emphasis in original). By allowing penalties to be
imposed “for practices the Board decided to remedy via
settlement, plaintiffs’ PAGA suit poses a substantial risk
of interfering with the NLRB’s jurisdiction.” Id. 58a-59a
(citing Gould, 475 U.S. at 287).

10
In sum, the majority opinion below cannot be
reconciled with Gould.
II. T H E CA L I F OR N I A C OU RT ’ S R A DICA L
EXPANSION OF THE “LOCAL INTEREST”
EXCEPTION CONFLICTS WITH SETTLED
PRINCIPLES OF GARMON PREEMPTION.
According to the majority, the claims against Google
and Adecco vindicated interests “of traditional local
concern[.]” Pet. App. 19a. As Justice Brown noted, the
majority’s asserted local interest is “substantially different
on its face” from any this Court has ever recognized, such
as addressing violence or trespass. Id. 44a. Perhaps for
this reason, the majority’s discussion of the local interest
issue focused more on denigrating the federal interest
than demonstrating a local interest compelling enough
to avoid preemption.
It is not for the California Court of Appeal—or indeed
any state—to decide that a federal interest is slight.
Yet, as Justice Brown aptly observed, “[B]y defining the
local interest exception so broadly, the majority opinion
allows it to swallow the intentionally wide rule of Garmon
preemption and defeat its purpose.” Id. 49a. The majority
opinion thereby “flips the Garmon framework on its head.”
Id. These observations by Justice Brown were correct, as
shown below.4
4. Justice Brown also concluded, however, that some of
Plaintiffs’ claims are not preempted. Pet. App. 39a-40a. She reasoned
that the Act does not protect certain activities that Google’s and
Adecco’s policies arguably precluded, such as “writing novels based
on experiences at Google[.]” Id. 40a. Petitioners respectfully submit,
however, that the trial court was correct in finding all Plaintiffs’

11
A.

The Majority’s Assertion That An NLRB
Settlement Clears The Way For State-Court
Action Is Contrary to Garmon And Multiple
Circuit Court Decisions.

The majority concluded that the Board’s settlement
of Plaintiff Doe’s charge, far from rendering the local
interest exception unavailable, cleared the way for the
state court to act. Since “the NLRB has settled its
claim with no admission of wrongdoing by Google and no
findings of fact by the Board[,]” the majority asserted,
“[n]othing the state court does at this juncture could
interfere with the NLRB’s exercise of its primary
jurisdiction.” Pet. App. 20a. Preemption, however, depends
on what the state court purports to do, not when the state
court does it. Garmon teaches that preemption applies
even where the Board declines to act at all.
The Board in Garmon had declined to assert
jurisdiction because its discretionary interstate commerce
standards were not met. Garmon, 359 U.S. at 238.
Nevertheless, said the Court, “the failure of the Board to
define the legal significance under the Act of a particular
activity does not give the States the power to act.” Id.
at 246. Declaring “the case before us is clear” in light
of applicable preemption principles, Garmon held the
state-law claims preempted: “Since the National Labor
Relations Board has not adjudicated the status of the
conduct for which the State of California seeks to give a
claims preempted. Whether the policies would deter an employee
from writing a novel, complaining about working conditions, or both,
is not determinative of preemption. As the trial court correctly found,
the “NLRB complaint . . . attacks the same policies at issue in the
state case.” Id. 80a.

12
remedy in damages, and since such activity is arguably
within the compass of [Section] 7 or [Section] 8 of the Act,
the State’s jurisdiction is displaced.” Id.
Here, the Board did not decline to act; to the contrary,
it found merit in Plaintiff Doe’s unfair labor practice
charge. In issuing a complaint and then obtaining from
Google a settlement of it (Pet. App. 164a-180a), the
Regional Director enforced the NLRB’s position that
Google had violated the Act. Therefore, the majority
opinion below conflicts squarely with Garmon’s teaching
that, once the Board decides that an unfair labor practice
has been committed, “then the matter is at an end, and
the States are ousted of all jurisdiction.” Garmon, 359
U.S. at 245.
Where, as here, the Board not only has asserted its
jurisdiction, but has issued a complaint and then settled
the case, the need to protect the Board’s jurisdiction is
particularly acute. The First Circuit so held in Chaulk
Services, Inc. v. Massachusetts Commission Against
Discrimination, 70 F.3d 1361, 1366 (1st Cir. 1995), a case
in which the Board “moved aggressively to acquire . . .
jurisdiction and bring the matter to a full and speedy
resolution.” Chaulk held that an employer that had
settled with the NLRB was entitled to enjoin a state
administrative agency’s prosecution of a sex discrimination
claim based upon the same conduct. Finding the local
interest exception inapplicable, the First Circuit observed
that there was a “very real danger of interference with
the NLRB’s jurisdiction, as it was precisely the Board’s
timely intervention which in this case led to the agreement
through which [the employer] pledged, among other things,
not to engage in the challenged conduct[.]” Id. Here, too,

13
the Board insisted, and Google agreed “not to engage in
the challenged conduct.” See Pet. App. 164a-180a.
Moreover, as several circuit courts have held, the risk
of interference with the Board’s jurisdiction is heightened
where, as here, the plaintiff has first sought relief from
the NLRB. In Parker v. Connors Steel Co., 855 F.2d
1510, 1517 (11th Cir. 1988), for example, the Eleventh
Circuit held state-law fraud claims preempted, where the
plaintiffs initially sought (and were denied) relief from the
NLRB. The court held that “the Supreme Court’s primary
jurisdiction rationale” has “the greatest validity” when
a party first seeks redress from the NLRB, and then
proceeds to repackage the claims as state-law claims. Id.
“By initially pursuing relief with the NLRB the employees
have implicitly recognized the Board’s jurisdiction over
their claims.” Id. Rejecting application of the local interest
exception, the court added, “[T]he state’s interest in
protecting its citizens from fraud and misrepresentations
does not outweigh our concern in protecting the NLRB’s
jurisdiction from erosion through state regulation.” Id.
at 1518.
Similarly, in Platt v. Jack Cooper Transport Co., Inc.,
959 F.2d 91, 95 (8th Cir. 1992), the Eighth Circuit found it
“highly relevant” that the plaintiff had first unsuccessfully
sought relief from the NLRB. “‘The risk of interference
with the Board’s jurisdiction is . . . obvious and substantial’
when an unsuccessful charge to the Board is recast as
a state law claim.” Id. (quoting Jones, 460 U.S. at 683)
(alteration in original); accord Casumpang v. Hawaiian
Commercial & Sugar Co., 712 F. App’x 709, 710 (9th Cir.
2018) (local interest exception unavailable where plaintiff’s
“state law claim was substantially the same as his unfair
labor practice charge”).

14
Thus, by treating the Board’s settlement with Google
as clearing the field for Plaintiffs’ PAGA lawsuit, the
decision below squarely conflicts not only with Garmon
itself, but also with circuit court decisions applying
Garmon preemption.
B. Contrary To The Decision Below, Employees’
Right To Discuss Wages A nd Working
Conditions Is Central To The NLRA, Not
“Peripheral.”
The majority’s application of the local interest
exception also hinged upon its assertion that the interests
advanced in the state case are “peripheral to the NLRA.”
Pet. App. 19a. Far from being “peripheral,” these interests
are at the core of the NLRA’s protections. The gravamen
of Plaintiffs’ claims against Google and Adecco is that
Google’s and Adecco’s policies prohibited employees
from discussing their wages and terms and conditions
of employment among themselves and with others. The
Regional Director’s issuing a complaint on this very
issue demonstrates, ipso facto, that employees’ right to
discuss their wages and working conditions is by no means
“peripheral” to the Act.
Far from being “peripheral,” employees’ right to
discuss their wages and working conditions is fundamental
to the Act. The NLRB categorizes as per se unlawful the
maintenance of “a rule that prohibits employees from
discussing wages or benefits with one another.” Boeing
Co., 365 NLRB No. 154, 2017 NLRB LEXIS 634, at
*14, *63 (2017). “‘It is axiomatic that discussing terms
and conditions of employment with coworkers lies at the
heart of protected Section 7 activity.’” Union Tank Car
Co., 369 NLRB No. 120, 2020 NLRB LEXIS 373, at *8

15
(2020) (quoting St. Margaret Mercy Healthcare Ctrs.,
350 NLRB 203, 205 (2007), enf’d, 519 F.3d 373 (7th Cir.
2008), and striking down employer’s rule restricting such
discussions).
The Board protects not only internal discussions
among coworkers, but also disclosures to outsiders. In
Kinder-Care Learning Ctrs., Inc., 299 NLRB 1171, 1172
(1990), for example, the Board held that a child care
center’s rule restricting employees’ communications
with parents “unlawfully interferes with the statutory
right of employees to communicate their employmentrelated complaints to persons and entities other than the
[employer], including a union or the Board.” The Board
reiterated that it had “found employees’ communications
about their working conditions to be protected when
directed to other employees, an employer’s customers, its
advertisers, its parent company, a news reporter, and the
public in general.” Id. at 1171 (footnotes omitted, citations
omitted).
The circuit courts have consistently upheld the
Board’s position that the Act protects employees’ rights
to discuss their wages and working conditions. See, e.g.,
Cintas Corp. v. NLRB, 482 F.3d 463, 466 (D.C. Cir.
2007) (recognizing employees’ right to discuss terms and
conditions of employment with other employees and with
nonemployees); Handicabs, Inc. v. NLRB, 95 F.3d 681,
684-85 (8th Cir. 1996) (enforcing NLRB’s order against
rules prohibiting discussion of working conditions among
employees and with employer’s clients); Jeannette Corp.
v. NLRB, 532 F.2d 916, 919-20 (3d Cir. 1976) (employer’s
rule prohibiting discussion of wages among employees
was “invalid on its face”); see also Sharp ex rel. NLRB v.
Koronis Parts, Inc., 927 F. Supp. 1208, 1213-14 (D. Minn.

16
1996) (upon application of the NLRB, enjoining employer’s
rules against discussion of wages).
In short, the majority opinion’s assertion that the
state-court claims advance interests “peripheral to the
NLRA” is simply wrong. For this additional reason, the
majority opinion’s sweeping expansion of the local interest
exception is contrary to settled law.
C.

The California Court’s Disparagement Of The
NLRB Settlement Process Cannot Sustain The
Local Interest Exception.

The majority opinion below acknowledged that, if
there were a “serious concern” about the state case
interfering with the NLRB’s jurisdiction, “it would render
the local interest exception unavailable.” Pet. App. 20a.
The majority argued that the state-court action could not
interfere with the NLRB’s jurisdiction, however, because
“[t]he settlement agreement between the Board and
Google is informal and of limited scope.” Id. 21a.
According to the majority, the agreement is “limited”
because it provides for a 60-day posting of employees’
rights under federal law, and no further action by the
NLRB “if Google upholds its end of the bargain[.]” Id.
The reference to rights under federal law, the majority
said, is “a signal” that the issues under California law are
“completely different” from those before the NLRB. Id.
Furthermore, the majority quoted boilerplate language
from the settlement agreement, to the effect that the
settlement does not prevent the Board and the courts
from finding violations with respect to matters occurring
before the agreement was approved, or making findings

17
of fact and conclusions of law regarding evidence obtained
in the case. Id. “With this provision,” says the majority,
“the Board itself has given courts license to proceed with
claims addressing the same or similar facts.” Id.
The majority is profoundly mistaken in believing
that the NLRB, through its well-established informal
settlement process, has invited state courts to impose
remedies (let alone, as here, penalties) for the same
conduct that the NLRB has already remedied. Notably,
the court cites no authority for its professed belief, and
to Petitioners’ knowledge, there is none.
First, the majority’s disparagement of “informal”
settlements squarely conflicts with this Court’s teaching.
Noting that almost one-third of unfair labor practice
charges in 1983 had been resolved through informal
settlement following the issuance of a complaint but before
a hearing—which is exactly what happened here—this
Court has called informal settlement the “lifeblood” of the
Board’s administrative process. NLRB v. UFCW, Local
23, 484 U.S. 112, 132 (1987). The NLRB General Counsel’s
decision to enter into an informal settlement agreement is
not even subject to federal-court judicial review under the
Administrative Procedure Act. Id. at 132-33. Otherwise
“the willingness of charged parties to resolve unfair
labor practice charges quickly and expeditiously by way
of an informal settlement after a complaint is filed would
be severely constrained[.]” Id. at 132. “The resulting
consequences for the agency and the enforcement of the
Act could be most serious.” Id.
Second, contrary to the majority opinion, Google’s
settlement agreement is not “limited” in any way that is

18
relevant to preemption analysis. The majority excerpted
language from two sentences in the scope-of-agreement
paragraph, contending that the Board “license[d]” statecourt action. Pet. App. 21a. This selective quotation
obscures the essential context. Here are the two sentences
in full: “It [the Agreement] does not prevent persons from
filing charges, the General Counsel from prosecuting
complaints, or the Board and the courts from finding
violations with respect to matters that happened before
this Agreement was approved regardless of whether
General Counsel knew of those matters or could have
easily found them out. The General Counsel reserves the
right to use the evidence obtained in the investigation and
prosecution of the above-captioned case(s) for any relevant
purpose in the litigation of this or any other case(s), and a
judge, the Board and the courts may make findings of fact
and/or conclusions of law with respect to that evidence.”
Id. 172a-173a (emphasis added).
This language is required in every NLRB informal
settlement agreement to allow the NLRB’s General
Counsel to prosecute (and the Board and reviewing
federal circuit courts to adjudicate) unfair labor practice
cases that a settlement otherwise would bar. See NLRB
Casehandling Manual, § 10146.3 (available at https://www.
nlrb.gov/guidance/key-reference-materials/manuals-andguides). The language upon which the majority relied is
designed to protect the NLRB’s jurisdiction and that of
federal courts reviewing NLRB decisions, not to license
state-court intervention. As dissenting Justice Brown
pointed out, the language is part of the Board’s “standard
template” and does not affect the reach of Garmon
preemption. Pet. App. 60a.

19
In sum, contrary to the majority’s conclusion, there
is indeed a serious risk of interference with the NLRB’s
jurisdiction that “render[s] the local interest exception
unavailable.” Id. 20a.
III. IF ALLOWED TO STAND, THE DECISION
BELOW RISKS SUBSTANTIAL INTERFERENCE
WITH THE NLRB’S JURISDICTION.
Allowing the decision below to stand as precedent
would likely have serious consequences for the NLRB’s
jurisdiction. In shielding California’s PAGA law from
NLRA preemption based upon supposedly paramount
“local interest,” the court acknowledged no limiting
principle, and the court’s reasoning could apply equally
to statutes of various sorts throughout the country.
The majority asserted, “Defendants do not deny that
plaintiffs’ claims grow from deeply rooted local interests.
This is no surprise, as plaintiffs bring this case under
PAGA, which means plaintiffs are serving ‘as the proxy or
agent of the state’s labor law enforcement agencies.’” Pet.
App. 18a (citation omitted). Putting aside the majority’s
misstatement of Petitioners’ position, 5 it is striking that
the majority categorically treated PAGA as vindicating
“deeply rooted local interests.” Since all PAGA claimants
are deemed proxies for “the state’s labor law enforcement
agencies,” the court’s decision strongly suggests that any
PAGA claim would qualify for the local interest exception.
Certainly the court identified no limiting principle. If
5. Petitioners have consistently denied that any state interests
here are “deeply rooted” or otherwise qualify for the local interest
exception.

20
penalties under California law can be awarded in this
case, where the lead plaintiff himself invoked the NLRB’s
jurisdiction and succeeded in obtaining NLRB remedies,
it is hard to imagine circumstances under which any
PAGA claim (or a similar claim in other states) would be
held preempted.
California Labor Code section 2699.5 alone lists
151 different types of Labor Code violations for which
PAGA penalties are available. Given this precedent, the
availability of at least 151 potential PAGA claims is a
powerful incentive for lawsuits intruding upon the Board’s
jurisdiction. In Justice Brown’s words, the majority’s
approach “make[s] preemption easily avoidable by all but
the most inept of complaint-drafters.” Pet. App. 49a.
IV. THIS CASE IS APPROPRIATE FOR SUMMARY
REVERSAL.
This case warrants consideration for summary
reversal.6
6. Sup. Ct. R. 16.1. The Court has used summary reversal to
decide cases that involve (i) well-settled law; (ii) undisputed facts;
and/or (iii) a clearly erroneous lower court decision. See, e.g., CNH
Indus. N.V. v. Reese,
U.S. , 138 S. Ct. 761, 766 (2018) (summarily
reversing where decision below “is not consistent with” applicable
Supreme Court precedent); Presley v. Georgia, 558 U.S. 209, 209 (2010)
(summarily reversing where state court’s decision “contravened this
Court’s clear precedents”); Clark County Sch. Dist. v. Breeden, 532
U.S. 268, 271 (2001) (summarily reversing where opinion below “cannot
remotely” be reconciled with what “[the Court’s] cases require”);
Major League Baseball Players Ass’n v. Garvey, 532 U.S. 504, 505,
510 (2001) (summarily reversing where decision below was “baffling”
and “conflict[ed] with [this Court’s] cases”); Ohio v. Reiner, 532 U.S.
17, 18 (2001) (summarily reversing where the facts were clear and the
Court’s “precedents dictate” reversal).

21
There is no substantial doubt that the California
Court of Appeal’s decision was wrong. As shown above,
the decision would allow the imposition of state-law
penalties on top of remedies the NLRB imposed. Google
has rescinded the allegedly overbroad policies that are
the subject of both the state-law case and the NLRB
case. But the decision below asserts that adding statelaw penalties to the NLRB’s remedies could not possibly
interfere with the NLRB’s primary jurisdiction because
(a) the California statutes don’t mention the NLRA or
recite its elements; (b) the NLRB case has already been
settled; and (c) employees’ right to discuss their wages
and working conditions among themselves and with others
is “peripheral” to the Act. On each of these points, the
decision contradicts the teachings of this Court and the
circuit courts.
This Court can summarily reverse the California
Court of Appeal’s decision, reinstate the trial court’s
orders sustaining Google’s and Adecco’s demurrers
without leave to amend, and thereby terminate the
entire action.7 Alternatively, the Court could summarily
7. Ruling on Google’s and Adecco’s demurrers prior to the
NLRB settlement, the trial judge drew upon this Court’s decision in
Operating Engineers Local 926 v. Jones, 460 U.S. 669 (1983), to frame
the issue as “whether a crucial element of the state claims would
be material to an NLRB case.” Pet. App. 81a. The judge found the
question “far simpler to address in this case than in others, because
here we have an NLRB complaint which attacks the same policies
at issue in the state case. . . . The NLRB will doubtless address
exactly the same issues.” Id. (emphasis added). Given that the trial
court correctly found the same policies to be at issue in the state
case and before the NLRB, the state case is properly preempted
under any formulation of the preemption test. The question whether

22
reverse and remand for the correct application of Garmon
preemption principles.
CONCLUSION
The Court should grant the petition for certiorari
and consider summary reversal of the California Court
of Appeal’s decision.
DATED: June 11, 2021
Respectfully submitted,
Mia Farber
A dam Y. Siegel
Jackson Lewis P.C.
725 South Figueroa Street,
Suite 2500
Los Angeles, CA 90017
(213) 689-0404
Scott P. Jang
Dylan B. Carp
Jackson Lewis P.C.
50 California Street, 9th Floor
San Francisco, CA 94111
(415) 394-9400

Paul W. Cane, Jr.
Counsel of Record
J. A l Latham, Jr.
Cameron W. Fox
A nkush Dhupar
Paul Hastings LLP
515 South Flower Street,
25th Floor
Los Angeles, CA 90071
(213) 683-6000
paulcane@paulhastings.com
Counsel for Petitioners
Google LLC and Alphabet Inc.

Counsel for Petitioner
Adecco USA, Inc.
there is tension between the articulations of the legal test in Jones
and Sears, Roebuck & Co. v. Carpenters, 436 U.S. 180 (1978), need
not be resolved here.

APPENDIX

1a
AppendixDENYING
A
APPENDIX A — ORDER
REVIEW
IN THE SUPREME COURT OF CALIFORNIA,
FIRST APPELLATE DISTRICT, DIVISION FOUR,
FILED JANUARY 13, 2021
IN THE SUPREME COURT OF CALIFORNIA
En Banc
First Appellate District,
Division Four - No. A157097
No. S268568
JOHN DOE et al.,
Plaintiffs and Appellants,
v.
GOOGLE, INC., et al.,
Defendants and Respondents.
SUPREME COURT FILED:
January 13, 2021
Jorge Navarrete, Clerk
The petition for review is denied.
Liu, J., is of the opinion the petition should be granted.
CANTIL-SAKAUYE
Chief Justice

2a
B IN THE COURT
APPENDIX B —Appendix
OPINION
OF APPEAL OF CALIFORNIA, FIRST
APPELLATE DISTRICT, DIVISION FOUR,
FILED SEPTEMBER 21, 2020
IN THE COURT OF APPEAL OF CALIFORNIA,
FIRST APPELLATE DISTRICT, DIVISION FOUR
A157097
JOHN DOE et al.,
Plaintiffs and Appellants,
v.
GOOGLE, INC., et al.,
Defendants and Respondents.
September 21, 2020, Opinion Filed
City & County of San Francisco Super. Ct. No. CGC-16556034, JCCP No. 4939
Opinion by: Tucher, J.
OPINION
Google, Inc., and Alphabet, Inc. (collectively, Google),
and Adecco USA, Inc. (Adecco), require their employees
to comply with various confidentiality policies. John Doe,
David Gudeman, and Paola Correa, who are current and
former Google and Adecco employees, sued Google and

3a
Appendix B
Adecco under the Labor Code Private Attorneys General
Act of 2004 (PAGA) (Lab. Code, § 2698 et seq.), alleging
the employers’ confidentiality policies restricted their
employees’ speech in violation of California law. The trial
court sustained defendants’ demurrers without leave to
amend, concluding plaintiffs’ claims were preempted by
the National Labor Relations Act (NLRA or Act) (29
U.S.C. § 151 et seq.) under San Diego Unions v. Garmon
(1959) 359 U.S. 236, 244–245 [3 L. Ed. 2d 775, 79 S. Ct.
773] (Garmon). Plaintiffs contend the trial court erred in
finding the NLRA preempted their PAGA claims. They
further challenge the trial court’s denial of a petition
to coordinate this case with another case pending in a
different trial court.
We conclude that, although many of plaintiffs’ claims
relate to conduct that is arguably within the scope of the
NLRA, the claims fall within the local interest exception
to Garmon preemption and may therefore go forward.
We also conclude that plaintiffs’ challenge to the trial
court’s coordination petition is not properly before us. We
will therefore reverse the trial court’s orders sustaining
defendants’ demurrers without leave to amend and
remand for further proceedings.
BACKGROUND
Because this appeal comes to us on demurrer, the
following facts are based on the allegations in plaintiffs’
pleadings and the requests for judicial notice.1
1. Google and plaintiffs have requested judicial notice of various
submissions to and rulings by the NLRB’s regional director and
general counsel. The requests are unopposed. With one exception,

4a
Appendix B
Litigation Regarding Confidentiality Policies
Doe works as a product manager in a supervisory
capacity at Google. He began work at Google in July
2014, had his employment terminated in April 2016, and
was reinstated in June 2016. After being terminated and
before being reinstated, Doe sent notice under PAGA to
the California Labor and Workforce Development Agency
that he intended to file this suit on behalf of himself and
other current and former Google employees. Doe alleged
that Google required employees to sign a confidentiality
agreement and imposed certain related confidentiality
policies on its employees, and that these policies violated
the Labor Code. Six months later, Doe filed this case in
San Francisco Superior Court. (John Doe v. Google, Inc.
(Super. Ct. S.F. City & County, 2019, No. CGC-16-556034)
(Doe).)
Gudeman is a former Google employee, and Correa
is a former Google employee who also worked for Adecco
as a temporary employee placed at Google. Doe’s second
amended complaint included them as named plaintiffs, and
added claims against Adecco based on Correa’s experience
there.
we grant the requests for notice of these documents as official acts or
records of the executive department or a court of record of the United
States. (Evid. Code, §§ 452, subds. (c)–(d), 459; PG&E Corp. v. Public
Utilities Com. (2004) 118 Cal.App.4th 1174, 1220, fn. 38 [13 Cal. Rptr.
3d 630] [taking judicial notice of briefs filed before administrative
agency]; Heston v. Farmers Ins. Group (1984) 160 Cal.App.3d 402,
413 [206 Cal. Rptr. 585] [approving of judicial notice of brief filed
with the NLRB as court record].) We deny Google’s request for notice
of Doe’s unfair labor practice charge as unnecessary, because that
document is already in the record.

5a
Appendix B
Shortly after plaintiffs filed their second amended
complaint, Rachel Moniz filed a complaint against Adecco
in San Mateo Superior Court alleging claims based on
Adecco’s confidentiality policies. (Moniz v. Adecco (Super.
Ct. San Mateo County, 2019, No. 17-CIV-01736) (Moniz).)
Ten days later, plaintiffs filed their third amended
complaint against Google and Adecco.
The Harms Alleged
Plaintiffs’ third amended complaint alleges 17 causes
of action under PAGA based on defendants’ confidentiality
policies. Plaintiffs’ confidentiality claims fall into three
subcategories; restraints of competition, whistleblowing,
and freedom of speech.
In their competition causes of action plaintiffs allege
that Google’s confidentiality rules violate state statutes by
preventing employees from using or disclosing the skills,
knowledge, and experience they obtained at Google for
purposes of competing with Google. For example, the
policies prevent Googlers from disclosing their wages
in negotiating a new job with a prospective employer,
and from disclosing who else works at Google and under
what circumstances such that they might be receptive to
an offer from a rival employer. The complaint grounds
these PAGA claims on alleged violations of Business and
Professions Code sections 17200, 16600, and 167002 and
various provisions of the Labor Code (see Lab. Code,
§§ 232, 232.5, 1197.5, subd. (k)).
2. The fifth amended complaint expressly grounds the Business
and Professions Code section 17200 allegation on violation of Business
and Professions Code sections 16600 and 16700.

6a
Appendix B
Plaintiffs’ whistleblowing causes of action allege that
Google’s confidentiality rules prevent employees from
disclosing violations of state and federal law, either within
Google to their managers or outside Google to private
attorneys or government officials. (See Bus. & Prof. Code,
§ 17200 et seq.; Lab. Code, § 1102.5.) They also allege the
policies unlawfully prevent employees from disclosing
information about unsafe or discriminatory working
conditions, or about wage and hour violations. (See Lab.
Code, §§ 232, 232.5.)
In their freedom of speech claims, plaintiffs allege
that defendants’ confidentiality rules prevent employees
from engaging in lawful conduct during nonwork hours
and violate state statutes entitling employees to disclose
wages, working conditions, and illegal conduct. (See Lab.
Code, §§ 96, subd. (k), 98.6, 232, 232.5, 1197.5, subd. (k).)
This lawful conduct includes the exercise of an employee’s
constitutional rights of freedom of speech and economic
liberty. As a practical matter, plaintiffs argue, they are
forbidden even to write a novel about working in Silicon
Valley or to reassure their parents they are making
enough money to pay their bills, matters untethered to
any legitimate need for confidentiality.
Google’s confidentiality rules contain a savings clause
stating that the company’s rules were not intended to limit
employees’ right to discuss wages, terms, or conditions
of employment with other employees, or their right
to communicate with government agencies regarding
violations of law. However, plaintiffs allege these clauses
are meaningless and contrary to Google’s policies and

7a
Appendix B
practices of enforcement, which threaten employees for
disclosing any information at all.
Plaintiffs allege Adecco was liable for both its own
confidentiality policies and Google’s because Adecco was
Correa’s joint employer when she was placed at Google.
Adecco admits that in ruling on the demurrers “there is
no meaningful difference between [the] claims against
Google and those against Adecco.”
Demurrers
Google demurred to the entire complaint. As relevant
here, Google argued the NLRA preempted plaintiffs’
confidentiality claims. The trial court sustained Google’s
demurrer to the confidentiality claims without leave to
amend. It overruled the demurrer only as to a single
remaining cause of action—alleging defendants required
employees to sign illegal releases of potential claims as
a condition of being hired—and the parties eventually
settled that claim.
Adecco demurred to the third amended complaint as
well, shortly after it filed a similar demurrer in Moniz.
The Moniz court overruled the demurrer, but the Doe
court sustained Adecco’s demurrer to the confidentiality
claims, with leave to amend, for the same reasons that it
sustained Google’s demurrer.

8a
Appendix B
Proceedings Specific to Adecco
Plaintiffs tried to cure the defects identified by the
Doe court as to their claims against Adecco by filing a
fourth amended complaint. This complaint retains the
allegation that Adecco is jointly liable under PAGA for
Google’s confidentiality rules, but adds separate claims on
behalf of Adecco employees statewide based on Adecco’s
own confidentiality rules. The new causes of action against
Adecco fall into the same competition, whistleblowing, and
free speech categories as the claims against Google in the
third amended complaint. Plaintiffs also allege Adecco
had an unlawful policy prohibiting temporary employees
placed at Google from working directly for Google without
Adecco’s consent.
Adecco again demurred, and the trial court sustained
the demurrer, this time without leave to amend. Plaintiffs
then amended their Doe complaint a final time to add an
illegal release claim against Adecco, a claim the parties
subsequently settled.
Before Adecco filed its demurrer to the third amended
complaint, it filed with the Judicial Council a petition
to coordinate the action with Moniz. After plaintiffs
filed their fourth amended complaint and shortly before
Adecco demurred to it, the coordination judge continued
proceedings on Adecco’s petition until after the ruling
on Adecco’s forthcoming demurrer. Then, after the Doe
court sustained Adecco’s demurrer to the fourth amended
complaint without leave to amend, the coordination judge
denied the petition to coordinate, explaining that the sole

9a
Appendix B
then-remaining cause of action in Doe (the illegal release
claim) was not at issue in Moniz, the claims in Moniz
covered more employees than the claim in Doe, and the
Moniz litigation had advanced further.
Adecco filed a petition for writ of mandate in this court
seeking review of the coordination judge’s denial of its
coordination petition. Plaintiffs likewise filed a petition for
writ of mandate, seeking review of the Doe court’s orders
sustaining Google’s and Adecco’s demurrers. This court
summarily denied Adecco’s writ and denied plaintiffs’
writ as untimely. (Adecco USA, Inc. v. Superior Court
for the City and County of San Francisco (Feb. 6, 2018,
A153470) [nonpub. opn.]; Doe v. Superior Court for the City
and County of San Francisco (Mar. 29, 2018, A153726)
[nonpub. opn.].)
The trial court in Doe entered final judgment, and
plaintiffs timely appealed.
NLRB Files Then Settles Complaint Against Google
At the same time as Doe sent the PAGA notices
anticipating this case, he also filed an unfair labor
practice charge against Google with the National Labor
Relations Board (NLRB or Board). Doe alleged Google’s
confidentiality rules violated section 8 of the NLRA by
prohibiting employees from exercising their rights under
section 7 of the Act, which entitles employees to engage
in “concerted activities for the purpose of collective
bargaining or other mutual aid or protection.” (29 U.S.C.
§ 157.) Doe alleged that Google violated section 8 by
terminating him because he exercised his section 7 rights.

10a
Appendix B
On the same day that plaintiffs filed their third
amended complaint in Doe, the regional director of the
NLRB issued a complaint against Google based on Doe’s
unfair labor practice charge. However, the regional
director’s complaint did not include certain allegations
from Doe’s charge, including the allegation relating
to Doe’s termination, because the regional director
determined Doe had been a supervisor and therefore was
not protected by the NLRA. Doe appealed that decision,
but the NLRB’s general counsel denied the appeal.
After plaintiffs filed their opening brief in this court,
the NLRB’s regional director and Google reached an
informal settlement on the NLRB’s complaint. 3 As part
of that settlement, Google agreed to post a notice for 60
days informing employees that they had the right “to
discuss wages, hours, and working conditions with other
employees, the press/media, and other third parties,
and [Google] WILL NOT do anything to interfere with
[employees’] exercise of those rights.” The notice further
stated that Google would “NOT prohibit [employees]
from discussing or sharing information relating to [their]
performance, salaries, benefits, discipline, training, or any
other terms and conditions of [their] employment and” had
rescinded any such limitations in its confidentiality rules.
In exchange, the NLRB regional director would withdraw
her complaint, but this would not prevent the courts or
the Board from proceeding with other cases.
3. We discuss the proceedings on the regional director’s
complaint that transpired after the trial court entered judgment
because they are not in dispute and come to us by way of judicial
notice. (Reserve Insurance Co. v. Pisciotta (1982) 30 Cal.3d 800, 813
[180 Cal. Rptr. 628, 640 P.2d 764].)

11a
Appendix B
DISCUSSION
I.

The NLRA and Garmon Preemption

Plaintiffs contend the trial court erred in finding the
NLRA preempts their confidentiality claims. We review
this question de novo. (Wal-Mart Stores, Inc. v. United
Food & Commercial Workers Internat. Union (2016) 4
Cal.App.5th 194, 201 [208 Cal. Rptr. 3d 542] (Wal-Mart).)
Likewise, de novo review applies to a trial court’s decision
sustaining a demurrer. (Traders Sports, Inc. v. City of
San Leandro (2001) 93 Cal.App.4th 37, 43 [112 Cal. Rptr.
2d 677].) As we shall explain, we conclude that these
causes of action fall within the local interest exception to
preemption.
A.

Legal Principles

Cong ress int ended the NLR A to ser ve as a
comprehensive law governing labor relations; accordingly,
“the NLRB has exclusive jurisdiction over disputes
involving unfair labor practices, and ‘state jurisdiction
must yield’ when state action would regulate conduct
governed by the NLRA. (Garmon, [supra, 359 U.S.] at
pp. 244–245.)” (Wal-Mart, supra, 4 Cal.App.5th at pp.
200–201.) Because it is for the NLRB to determine, in the
first instance, whether conduct is in fact governed by the
NLRA, the Act’s preemptive effect may extend beyond
conduct that the NLRA directly governs to “activities
which ‘arguably’ constitute unfair labor practices under
the Act.” (Balog v. LRJV, Inc. (1988) 204 Cal.App.3d 1295,
1303 [250 Cal. Rptr. 766] (Balog); see Garmon, at pp.

12a
Appendix B
244–245.) Such conduct is “presumptively pre-empted.”
(Belknap, Inc. v. Hale (1983) 463 U.S. 491, 498 [77 L. Ed.
2d 798, 103 S. Ct. 3172] (Belknap).)
But Garmon preemption must not be applied in a
“‘literal, mechanical fashion’” (Operating Engineers v.
Jones (1983) 460 U.S. 669, 676 [75 L. Ed. 2d 368, 103 S.
Ct. 1453] (Jones)), and it is subject to exceptions where
the activity in question is a “merely peripheral concern”
of the NLRA, or where “the regulated conduct touche[s]
interests so deeply rooted in local feeling and responsibility
that, in the absence of compelling congressional direction,
we could not infer that Congress had deprived the States
of the power to act.” (Garmon, supra, 359 U.S. at pp.
243–244.) Although framed as separate exceptions, these
two factors are often analyzed together, as we will do
here. (See, e.g., Linn v. Plant Guard Workers (1966) 383
U.S. 53, 61 [15 L. Ed. 2d 582, 86 S. Ct. 657] (Linn); Balog,
supra, 204 Cal.App.3d at p. 1304.)
B. Federal and State Interests at Stake
Garmon preemption “has its greatest force when
applied to state laws regulating the relations between
employees, their union, and their employer.” (Sears,
Roebuck & Co. v. Carpenters (1978) 436 U.S. 180, 193 [56 L.
Ed. 2d 209, 98 S. Ct. 1745] (Sears).) However, “the general
applicability of a state cause of action is not sufficient
to exempt it from pre-emption.” (Farmer v. Carpenters
(1977) 430 U.S. 290, 300 [51 L. Ed. 2d 338, 97 S. Ct. 1056]
(Farmer).) Rather, we conduct a “balanced inquiry” into
the federal and state interests at stake and the potential

13a
Appendix B
to interfere with the NLRB’s jurisdiction. (Ibid.) With this
in mind, we consider the interests at stake in this action.
The NLRA “was designed to ‘eliminate the causes
of certain substantial obstructions to the free flow of
commerce … by encouraging the practice and procedure
of collective bargaining, and by protecting the exercise by
workers of full freedom of association, self-organization,
and designation of representatives of their own choosing,
for the purpose of negotiating the terms and conditions
of their employment or other mutual aid or protection.’”
(Balog, supra, 204 Cal.App.3d at p. 1301, quoting 29
U.S.C. § 151.) To this end, section 7 of the NLRA gives
nonexempt employees the right to self-organize, bargain
collectively, and “engage in other concerted activities for
the purpose of collective bargaining or other mutual aid
or protection.” (29 U.S.C. § 157.) The NLRA also defines
certain actions as unfair labor practices. (Balog, at p. 1302,
citing 29 U.S.C. §§ 158, 160.) As pertinent here, section
8 of the NLRA declares it an “unfair labor practice for
an employer … [¶] to interfere with, restrain, or coerce
employees in the exercise of the rights guaranteed in”
section 7. (29 U.S.C. § 158.) The focus of these provisions
is on workers joining together for mutual benefit.
By contrast here, plaintiffs seek to enforce Labor Code
provisions that protect their activities as individuals.
For example, one provision prohibits employers from
preventing an employee “from disclosing the amount
of his or her wages” (Lab. Code, § 232), a statute
that was enacted at the urging of women’s groups to
protect employees sharing information necessary to the

14a
Appendix B
enforcement of laws against sex discrimination. (See,
e.g., Sen. Com. on Industrial Relations Staff Analysis of
Assem. Bill No. 3193 (1983–1984 Reg. Sess.) as amended
Mar. 21, 1984.) Another provision provides analogous
protection for an employee disclosing “information about
the employer’s working conditions” (Lab. Code, § 232.5),
manifesting California’s public policy to “prohibit[]
employer restrictions on, or punishment for, speech
regarding conditions of employment” (Glassdoor, Inc. v.
Superior Court (2017) 9 Cal.App.5th 623, 633 [215 Cal.
Rptr. 3d 395]). A third protects the rights of any employee
to disclose information about a violation of state or federal
law to someone with the power to address the problem—
“to a government or law enforcement agency, to a person
with authority over the employee, or to another employee
who has authority to investigate, discover, or correct” the
violation. (Lab. Code, § 1102.5.) A fourth provision protects
employees who complain about underpayment of wages to
the Labor Commissioner. (Lab. Code, § 98.6; see also Lab.
Code, § 1102.5 [protecting right to disclose information to
state agencies].) And a fifth protects an employee from
retaliation for his or her “lawful conduct occurring during
nonworking hours away from the employer’s premises”
(Lab. Code, § 96, subd. (k)), so employers do not seek
to control nonwork aspects of their employees’ lives.
Plaintiffs allege that defendants’ confidentiality policies
violate these provisions of California law.
Plaintiffs also allege violations of section 16600 of
the Business and Professions Code, which prohibits any
contract that would improperly restrain an employee
from securing new employment with a competitor. This

15a
Appendix B
statute “evinces a settled legislative policy in favor of
open competition and employee mobility” (Edwards v.
Arthur Anderson LLP (2008) 44 Cal.4th 937, 946 [81 Cal.
Rptr.3d 282, 189 P.3d 285]), a policy that has been seen
as instrumental in the success of California’s technology
industry (see Gilson, The Legal Infrastructure of High
Technology Industrial Districts: Silicon Valley, Route
128, and Covenants Not to Compete (1999) 74 N.Y.U.L.
Rev. 575, 609 [“Silicon Valley’s legal infrastructure, in the
form of Business and Profession[s] Code section 16600’s
prohibition of covenants not to compete, provided a pole
around which Silicon Valley’s characteristic business
culture and structure precipitated”]; see also Saxenian,
Regional Advantage: Culture and Competition in Silicon
Valley and Route 128 (1994) pp. 34–37).
Keeping these very different federal and state
interests in mind, we now analyze Garmon preemption
in this case.
C.

Arguably Protected or Prohibited Activity

The first step of a Garmon analysis asks whether the
conduct at issue is arguably protected or prohibited by
the NLRA. (Jones, supra, 460 U.S. at p. 676.) The trial
court concluded all of plaintiffs’ confidentiality claims are
presumptively preempted in their entirety because they
involve policies against disclosure of wages and working
conditions (in the case of the competition claims and some
freedom of speech claims) or against disclosures intended
to affect the terms or conditions of employment (in the
case of the whistleblowing and some freedom of speech

16a
Appendix B
claims). We do not doubt that some of the conduct at issue
at least arguably falls within the NLRA. (See Luke v.
Collotype Labels USA, Inc. (2008) 159 Cal.App.4th 1463,
1470 [72 Cal. Rptr. 3d 440] [discussions among workers
about working conditions are protected activity under
NLRA].) Indeed, the fact that the regional director
brought a complaint challenging Google’s confidentiality
policies indicates that she so concluded.
However, plaintiffs also allege conduct that clearly falls
outside the scope of the NLRA. For instance, plaintiffs’
competition claims allege defendants’ confidentiality rules
inhibit an employee seeking new employment elsewhere
and competing with defendants. They also allege Adecco
prevents its employees from working with companies where
Adecco has placed them, unless Adecco consents. These
matters are, on their face, unrelated to “mutual aid or
protection” (29 U.S.C. § 157) of fellow employees at Google
or Adecco. Similarly, some of plaintiffs’ whistleblowing
causes of action allege defendants’ confidentiality policies
prevent them from discussing with the government legal
violations unconnected to working conditions, such as
an employer’s violations of securities laws, false claims
laws, the federal Foreign Corrupt Practices Act of 1977
(Pub.L No. 95-213 (Dec. 19, 1977) 91 Stat. 1494), and
other laws unrelated to employees’ terms and conditions
of employment. The NLRB has authoritatively rejected
the argument that whistleblowing about employer conduct
unrelated to working conditions is protected activity,
so the NLRA does not protect an employee reporting
concerns about patient care in a nursing home. (Orchard
Park Health Care Center, Inc. (2004) 341 NLRB 642, 645.)

17a
Appendix B
But we need not belabor this point because, as we shall
next discuss, regardless of whether the challenged policies
reach employee conduct that the NLRA arguably protects
or prohibits, plaintiffs’ state law causes of action fall within
the local interest exception to Garmon preemption.
D.

The Local Interest Exception

The local interest exception vindicates interests
“‘deeply rooted in local feeling and responsibility.’” (Sears,
supra, 436 U.S. at p. 195.) Two factors relevant to the
application of this exception, in a case where an employer’s
policies are arguably prohibited by the NLRA, are: (1)
whether there is “a significant state interest in protecting
the citizen from the challenged conduct” and (2) whether
“the exercise of state jurisdiction over the tort claim
[for trespass] entailed little risk of interference with the
regulatory jurisdiction of the Labor Board.” (Sears, at
pp. 196–197.)
The local interest exception has been applied in a
range of circumstances. As explained in Inter-Modal Rail
Employees Assn. v. Burlington Northern & Santa Fe Ry.
Co. (1999) 73 Cal.App.4th 918 [87 Cal. Rptr. 2d 60] (InterModal), “‘the Supreme Court has declined to preempt a
variety of state law claims even though they arose in a
labor law context [involving, for example,] trespass by
peaceful picking … intentional infliction of emotional
distress … [and] defamation …’” (Id. at p. 925; see Sears,
supra, 436 U.S. at p. 198 [trespass by picketing]; Farmer,
supra, 430 U.S. at pp. 299–300 [intentional infliction of
emotional distress]; Linn, supra, 383 U.S. at pp. 61–62

18a
Appendix B
[defamation].) The local interest exception has also been
applied to a cause of action challenging an employer’s
retaliation against employees for raising concerns about
workplace safety (Inter-Modal, at pp. 922–923, 925,
citing Balog, supra, 204 Cal.App.3d at p. 1304), and to
controversies where the NLRB could not have provided
relief to the plaintiffs because their injury was not relevant
to its functions (Service by Medallion, Inc. v. Clorox Co.
(1996) 44 Cal.App.4th 1807, 1815–1816 [52 Cal. Rptr. 2d
650] (Clorox) [service provider’s contract negotiations
with company took place against “backdrop” of union
campaign]).
Defendants do not deny that plaintiffs’ claims grow
from deeply rooted local interests. This is no surprise,
as plaintiffs bring this case under PAGA, which means
plaintiffs are serving “‘as the proxy or agent of the state’s
labor law enforcement agencies.’” (Kim v. Reins Internat.
California, Inc. (2020) 9 Cal.5th 73, 81 [259 Cal. Rptr. 3d
769, 459 P.3d 1123] , italics omitted.) Courts have long
recognized the importance of state labor regulation that
“provides protections to individual union and nonunion
workers alike, and thus ‘neither encourage[s] nor
discourage[s] the collective-bargaining processes that are
the subject of the NLRA.’” (Fort Halifax Packing Co. v.
Coyne (1987) 482 U.S. 1, 20–21 [96 L. Ed. 2d 1, 107 S. Ct.
2211].) “[P]re-emption should not be lightly inferred in
this area, since the establishment of labor standards falls
within the traditional police power of the State.” (Id. at p.
21; accord, Iskanian v. CLS Transportation Los Angeles,
LLC (2014) 59 Cal.4th 348, 388 [173 Cal. Rptr. 3d 289, 327
P.3d 129] [“enactment and enforcement of laws concerning

19a
Appendix B
wages, hours, and other terms of employment is within
the state’s historic police power”—powers that “‘“courts
should assume … are not superseded ‘unless that was the
clear and manifest purpose of Congress’”’”].) The state
statutes plaintiffs seek to enforce are all labor standards
of this sort, statutes that preserve the freedom of all
employees to practice their profession or trade (Bus. &
Prof. Code, § 16600), to report wage-and-hour violations or
unsafe working conditions to government agencies (Lab.
Code, § 1102.5), and to speak as they choose about their
work lives (Lab. Code, §§ 232, 232.5, 96, subd. (k)). In
sum, these statutes establish as a minimum employment
standard an employee antigag rule.
Not only are the interests protected by these statutes
matters of traditional local concern, but they may
reasonably be seen as peripheral to the NLRA. Nothing
about the NLRA manifests a purpose to displace state
labor laws regulating wages, hours, and other terms of
employment, as the NLRA is “aimed at ‘safeguard[ing],
first and foremost, workers’ rights to join unions and to
engage in collective bargaining.’” (Epic Systems Corp.
v. Lewis (2018) 584 U.S. ___ [200 L. Ed. 2d 889, 138
S.Ct. 1612, 1630] (Epic); see also Inter-Modal, supra, 73
Cal.App.4th at p. 926 [focus of NLRA is “‘an equitable
bargaining process[;] … Congress did not intend to
preempt all local regulations that touch or concern the
employment relationship’” (italics omitted)].) It is thus well
established that a state may set minimum employment
standards without running afoul of the NLRA. (Castillo v.
Toll Bros., Inc. (2011) 197 Cal.App.4th 1172, 1207 [130 Cal.
Rptr. 3d 150] [“state wage-and-hour statutes … raise no

20a
Appendix B
Garmon preemption concerns”].) The state laws plaintiffs
assert here govern matters similarly far afield from the
concerns underlying the NLRA.
Unable to refute the local interests at stake, defendants
instead argue that because the NLRB issued a complaint
at Doe’s behest, to allow this case to proceed in state court
would risk interfering with the jurisdiction of the NLRB.
Were this a serious concern, it would render the local
interest exception unavailable. (See Sears, supra, 436 U.S.
at pp. 196–197; Hillhaven Oakland Nursing etc. Center
v. Health Care Workers Union (1996) 41 Cal.App.4th
846, 855 [49 Cal. Rptr. 2d 11] (Hillhaven); Rodriguez v.
Yellow Cab Cooperative, Inc. (1988) 206 Cal.App.3d 668,
678–679 [253 Cal. Rptr. 779].) But the NLRB has settled
its claim with no admission of wrongdoing by Google and
no findings of fact by the Board. Nothing the state court
does at this juncture could interfere with the NLRB’s
exercise of its primary jurisdiction.
Asked about this point at oral argument, counsel for
Google responded with two concerns: (1) that the state
court could reach “a different finding on the merits,”
in that “the NLRB … issued a complaint and [Google]
entered into a settlement on it, so there could be a different
result in state court on liability,” and (2) that state courts
cannot impose “a different remedial scheme for NLRA
violations,” especially a scheme of punitive remedies as
was found preempted in Wisconsin Dept. of Industry v.
Gould Inc. (1986) 475 U.S. 282 [89 L. Ed. 2d 223, 106 S. Ct.
1057] (Wisconsin Department of Industry). Responding
to these concerns in turn, neither is substantial.

21a
Appendix B
First, it would be impossible for the state court to
reach “a different result … on liability,” since the NLRB
settled its case without resolving liability issues. The
settlement agreement between the Board and Google
is informal and of limited scope. It requires Google to
post for 60 days a notice informing its employees of their
rights under “FEDERAL LAW,” and if Google upholds
its end of the bargain then the NLRB promises to take
no further action in the case. The reference to federal
law is a signal that the question on liability that underlay
the NLRB case (i.e., whether defendants violated the
NLRA) is completely different from the liability questions
in this case (i.e., whether defendants violated California
labor laws). Moreover, the agreement expressly “does not
prevent … the Board and the courts from finding violations
with respect to matters” occurring before the agreement
was approved, or from “mak[ing] findings of fact and/or
conclusions of law with respect to” evidence obtained in
the case. With this provision, the Board itself has given
courts license to proceed with claims addressing the same
or similar facts. The terms of the agreement itself suggest
that, whatever California courts would ultimately decide
on plaintiffs’ claims, the Board sees in plaintiffs’ case no
threat to its own jurisdiction.
As for Google’s second concern—duplicative and
punitive remedies for an NLRA violation—this argument
founders at the outset because none of plaintiffs’ claims
requires proof of an NLRA violation. The difference
between this case and Wisconsin Department of Industry
illustrates the point. There, the state of Wisconsin had
adopted a law debarring from state contracting any

22a
Appendix B
company “found by judicially enforced orders of the
National Labor Relations Board to have violated the
NLRA” three times in five years. (Wisconsin Dept. of
Industry, supra, 475 U.S. at pp. 283–284.) The NLRA
preempts this statute “[b]ecause Wisconsin’s debarment
law functions unambiguously as a supplemental sanction
for violations of the NLRA.” (Wisconsin Dept. of Industry,
at p. 288.) By contrast, the California laws that plaintiffs
seek to enforce make no reference to the NLRA, the
NLRB, or the rights of workers to organize. They do
not supplement sanctions for a violation of the NLRA,
but instead extend unrelated protections to conduct that
may, or may not, also be addressed by the NLRA. In such
circumstances, the availability of a remedy in state court
that is unavailable under the NLRA may be a reason not
to find a case preempted. (Linn, supra, 383 U.S. at pp.
63–64; Clorox, supra, 44 Cal.App.4th at p. 1816.)
In sum, analyzing the two factors the United
States Supreme Court has identified as dispositive—
the significance of the local interest and the risk of
interference with the jurisdiction of the Board—we see
no basis for preemption here. (See Sears, supra, 436 U.S.
at pp. 196–197; Farmer, supra, 430 U.S. at p. 300.) But
the parties have argued, citing competing precedents and
legal tests ostensibly derived from them, for alternative
ways of analyzing the local interest exception, so we now
turn to consider these alternatives.
1.

Sears, Linn, and the “Critical Inquiry”

In Sears, after the Supreme Court set forth the two
relevant factors we have just examined, it synthesized

23a
Appendix B
them into a single “critical inquiry” for preemption of
claims based on arguably prohibited conduct. That inquiry
is “whether the controversy presented to the state court
is identical to … or different from” a controversy that
could have been presented to the NLRB. (Sears, supra,
436 U.S. at p. 197.) Answering that question in Sears
meant an employer’s state-court trespass case against
a union was not preempted—even though the picketing
in question might have been protected or prohibited by
the NLRA—because the issues involved in the trespass
case were “different from” the issues the NLRB would
have considered in assessing the legality of the same
picketing under federal law. (Sears, at pp. 197–198; see
also Wal-Mart, supra, 4 Cal.App.5th 194 [same].) By
contrast, a controversy “‘identical to’” one that could
have been presented to the NLRB was an attempt to
enforce the Pennsylvania Labor Relations Act, whose
relevant language was “‘almost identical to’” language in
the NLRA. (Sears, at pp. 192, 197, discussing Garner v.
Teamsters Union (1953) 346 U.S. 485, 487–489, fns. 3 & 5
[98 L.Ed. 228, 74 S.Ct. 161] [employer’s attempt to enforce
Pennsylvania Labor Relations Act against peaceful union
picketing is preempted].)
Sears’s focus on whether the legal issue in the two
controversies is the same or different also animates the
Supreme Court’s decision in Linn. There, the court held
a state-court libel action was not preempted, explaining:
“When the Board and state law frown upon the publication
of malicious libel, albeit for different reasons, it may
be expected that the injured party will request both
administrative and judicial relief.” (Linn, supra, 383 U.S.
at p. 66.)

24a
Appendix B
Under the formulations of either of these cases,
plaintiffs’ claims are not preempted. The Board may
“frown upon” an employer’s confidentiality policy because
it interferes with workers’ rights to undertake concerted
action, but California law disapproves such policies for
a different reason: because they interfere with every
employee’s right to bring workplace issues to the attention
of supervisors, state agencies, courts, and the public. (See
Linn, supra, 383 U.S. at p. 66.) And, although there may
be overlap in the operative facts, whether an employer’s
confidentiality policy constitutes an unfair labor practice
under the NLRA is a “different” controversy from the
question of whether it violates provisions of the state
Labor Code. (See Sears, supra, 436 U.S. at p. 197.)
Highlighting that the controversy here is different
from the controversy that was, or could have been, placed
before the NLRB is the Board’s decision in Boeing Co.
(2017) 2017 NLRB Lexis 634 (Boeing), which elucidates
how the NLRB would evaluate whether Google’s
confidentiality policies comply with the NLRA. In Boeing,
the NLRB announces a new standard for determining
whether an employer’s adoption of a facially neutral
workplace rule that potentially interferes with section 7
rights is an unfair labor practice. The Board concludes it
must evaluate and weigh “(i) the nature and extent of the
potential impact on NLRA rights,” and (ii) an employer’s
“legitimate justifications associated with” business
requirements. (Boeing, at pp. *60–*63.) This process
could lead the NLRB to uphold confidentiality rules that
risk inhibiting NLRA-protected activity, especially if that
activity is peripheral, rather than central, to the NLRA’s

25a
Appendix B
concerns, or the risk of intruding on NLRA-protected
rights is “‘comparatively slight.’” (Boeing, at p. *66.) Not
surprisingly, there is no suggestion that a state’s interests
underlying its own statutes will figure in this weighing
process at all. The issues and concerns before the NLRB in
deciding a challenge to defendants’ confidentiality policies
would be wholly different from the state law issues in this
case, and by the same token the issues the state court must
adjudicate in this case will require no consideration of the
section 7 rights that animate the NLRB. Thus, under the
“critical inquiry” enunciated in Sears (Sears, supra, 436
U.S. at p. 197), plaintiffs’ claims are not preempted.
2.

Jones and the “Crucial Element”

Although Google acknowledges Sears and Linn
remain good law, it urges us to focus instead on a
subsequent Supreme Court case in which preemption was
found, Jones, supra, 460 U.S. 669. In that case, Jones filed
an NLRB charge against a union representing employees
at his former company, where he had been hired as a
supervisor but then quickly let go. Jones alleged that
because he was not a member of the union, the union
“‘procured’ his discharge, ‘and thereby coerced [the
Company] in the selection of its supervisors and bargaining
representative,’” an unfair labor practice under the NLRA.
(Jones, at p. 672.) The regional director refused to issue
a complaint, concluding “there was insufficient evidence
to establish that the Union had caused Jones’ discharge”;
the union had “merely participated in discussions” about
“changes in the Company’s supervisory structure.” (Id.
at pp. 672–673.) Rather than appealing this decision to

26a
Appendix B
the general counsel of the NLRB, Jones filed a statecourt action alleging the union had interfered with his
employment contract. (Id. at p. 673.)
The high court held this action was preempted for
several reasons, including that Jones was seeking to
prove the union coerced his discharge, a claim that was
“concededly pre-empted” as an unfair labor practice
(Jones, supra, 460 U.S. at pp. 681–682); that asking
the state court to police the line between a coerced or
uncoerced discharge would have required the court to
adjudicate issues of federal labor law (id. at p. 682); and
that if Jones attempted to prove noncoercive interference
with his employment there would be two further problems.
He would still need to prove the union had caused his
ouster—a “crucial element” of the NLRA claim that the
regional director had already decided against Jones—and
he would be seeking to impose liability for union conduct
that the NLRA arguably protects. (Jones, at pp. 682–684.)
Relying on Jones, defendants argue the local interest
exception does not apply in this case because the dispute
in this case and a dispute properly before the Board share
a “crucial element,” namely, whether defendants’ policies
actually restrict employees from discussing wages and
working conditions. But we do not read Jones to create
a rule that if the state law controversy shares a factual
element—“crucial” or otherwise—with a matter properly
before the NLRB, then the case is necessarily preempted.
Such a rule would eviscerate the local interest and
peripheral concern exceptions, since a court only considers
these exceptions if some common set of facts gives rise to

27a
Appendix B
both the state law claims and a dispute arguably within
the purview of the NLRB, as with the picketing activity
in Sears.
The Jones court does not announce any such revision
of settled law. Instead, Jones recognizes the continuing
force of Sears and seeks to distinguish it on the ground
that the focus of the unfair labor practice charge in Sears
was unrelated to that of the trespass action challenging
the same picketing activity. (Jones, supra, 460 U.S.
at pp. 682–683.) Although Jones does use the phrase
“crucial element” in explaining one of several reasons
that together explain the court’s preemption finding, the
court does not hold the phrase out as any sort of dispositive
test, nor attempt to explain how a court would decipher
when an “element” is “crucial.” (Id. at p. 682.) Instead,
Jones follows Sears and Farmer in directing courts to
undertake “a sensitive balancing” of potential harms to the
Congressional scheme for regulating labor-management
relations and to a state’s power to protect its citizens.
(Jones, at p. 676.)
Even if we were to attempt application of a “crucial
element” test here, we disagree that the “crucial element”
in this case is whether defendants’ policies restrict
employees from discussing their wages and working
conditions. This factual question about the scope of the
employers’ policies may be an area of overlap between
this case and a dispute properly before the Board, but
the question is antecedent to those questions that bring to
bear legal considerations that differ for the two disputes.
The crucial elements for the state law confidentiality

28a
Appendix B
claims are whether defendants’ policies infringe on an
employee’s right to practice a profession or trade, disclose
wrongdoing, and exercise free speech as protected
by California law. The crucial elements in the Board’s
determination of whether the confidentiality policies
are an unfair labor practice are the extent to which the
policies interfere with NLRA-protected activity, how
central any such protected activity is to the organizing and
bargaining activities that are the NLRA’s core concerns,
and whether the employer’s business justifications offset
any interference with NLRA rights. (Boeing, supra, 2017
NLRB Lexis 634, at pp. *60–*63, *66; 29 U.S.C. § 151.)
These elements are not common to the two disputes.
Our case is different from Jones in other respects as
well. First and foremost, there is in our case no issue of
federal labor law that the state court would be required
to adjudicate. (Cf. Jones, supra, 460 U.S. at p. 682.)
California courts can and should decide whether Google
and Adecco violated California law without considering
whether, in so doing, they also committed unfair labor
practices under the Act. Second, the regional director has
made no factual determination that is fatal to plaintiffs’
claims, as occurred in Jones. (Id. at p. 682.) Thus, plaintiffs
can proceed in state court without ever taking a position
inconsistent with one already adopted by the Board or its
regional director. Third, neither Google nor Adecco argues
that its policies are protected by federal labor law, as the
union’s conduct in Jones arguably was. (Id. at pp. 672–673.)
This factor is important because federal supremacy is
“implicated to a greater extent when labor-related activity
is protected than when it is prohibited.” (Sears, supra,

29a
Appendix B
436 U.S. at p. 200; see also Belknap, supra, 463 U.S. at
pp. 498–499 [courts must balance state’s interest against
interference with NLRB’s jurisdiction and risk that the
state will sanction conduct the NLRA protects].) Finally,
in this case there is no union. The absence of a union is
significant, for the argument in favor of preemption “has
its greatest force when applied to state laws regulating
the relations between employees, their union, and their
employer.” (Sears, supra, 436 U.S. at p. 193; see also Epic,
supra, 138 S.Ct. at p. 1630 [NLRA “‘safeguard[s] first and
foremost, workers’ rights to join unions and to engage in
collective bargaining’”].)
Because our case differs from Jones in all of these
substantial ways and because even Jones did not offer
“crucial element” as a dispositive test, 4 we decline
4. The concurring and dissenting opinion accuses us of
“ignor[ing] Jones’s reasoning” and “the analytical path the Supreme
Court has set forth for the local interest exception.” (Conc. & dis.
opn., post, at pp. 974, 980.) But there is nothing “novel” about our
analyzing “competing interests.” (Conc. & dis. opn., post, at p. 975
.) The Supreme Court requires that we conduct a “balanced inquiry
into such factors as the nature of the federal and state interests in
regulation and the potential for interference with federal regulation”
(Farmer, supra, 430 U.S. at p. 300), give “careful consideration [to]
the relative impact … on the various interests affected” (Sears,
supra, 436 U.S. at p. 188), and, in the language of Jones, engage in
“a sensitive balancing” of harm to the NLRA’s regulatory scheme
and to the state’s interest in protecting its citizens. (Jones, supra,
460 U.S. at p. 676). While in Sears the Supreme Court distilled this
balancing of competing interests into a single “critical inquiry”
(Sears, at p. 197), the concurring and dissenting opinion dismisses
that analytical approach as “of only academic interest” based on a
comment made in dissent in Jones. (Conc. & dis. opn., post, at p. 978.)

30a
Appendix B
defendants’ invitation to defeat the local interest
exemption on this basis.
3.

Hillhaven and Bright-line Rules

Google also argues that Hillhaven, supra, 41 Cal.
App.4th 846, is “the dispositive precedent” defeating
the local interest exemption in this case. In Hillhaven,
another division of our court held that the NLRA
preempted state-court action against a union alleged to
have overrun a nursing home, disrupting patient care
and intimidating workers. (Hillhaven, at pp. 850, 862.)
The union was “the certified bargaining representative
of employees at Hillhaven,” and was in the midst of
negotiating a new collective bargaining agreement at
the time. (Id. at pp. 849–850.) In finding preemption, the
Hillhaven court relied on common factual issues between
the state-court suit and a complaint already settled before
the NLRB and also, more importantly, two factors with
no parallel in the case before us that go to the heart of
the NLRB’s authority. First was the likelihood “that
resolution of some of the state court claims would require
… interpretation of the collective bargaining agreement
between the parties.” (Id. at pp. 860–861 [e.g., “number
of union representatives allowed to enter the facility,
and where those representatives were permitted access”
likely turned on interpretation of collective bargaining
agreement].) Second was the “real possibility of conflict”
between the injunctive relief Hillhaven sought in state
But no dissenting opinion has the power to overrule precedent, and
we have shown that plaintiffs’ claims clear the “identical controversy”
hurdle Sears sets forth. (Sears, supra, 436 U.S. at p. 197.)

31a
Appendix B
court and “NLRB rulings on issues such as union access to
employees at their place of work.” (Id. at p. 861.) Obviously,
our case involves no collective bargaining agreement,
no union, and no risk that the state court will punish or
prohibit conduct that NLRB rulings protect.
Defendants extract from the facts of Hillhaven a
bright-line rule they would have us apply, that where the
regional director has filed a complaint addressing conduct
that is also the subject of a state-court action, the statecourt action is preempted. We think defendants make
too much of an observation in Hillhaven that the court
was unaware of any decision failing to find preemption
once the regional director had issued a complaint.
(Hillhaven, supra, 41 Cal.App.4th at p. 859.) Hillhaven
itself acknowledges that “simultaneous jurisdiction of the
NLRB and state court is possible for conduct arguably
prohibited under the” NLRA (Hillhaven, at p. 859, italics
omitted), and other courts have indeed adjudicated
controversies after the NLRB issued and settled a
related complaint (see, e.g., Belknap, supra, 463 U.S.
at 496, 508–509; United Food & Commercial Workers
Internat. Union v. Wal-Mart Stores, Inc. (2017) 453 Md.
482, 490–491, 508–511 [162 A.3d 909]).
Where the local interest is strong, even the possibility
of findings that conflict with an NLRB complaint need
not be fatal. In Linn, the regional director of the NLRB
declined to file a complaint against a union because
factual investigation led him to conclude “the union was
not responsible for” the offending conduct—there, the
distribution of the allegedly libelous leaflets. (Linn,

32a
Appendix B
supra, 383 U.S. at p. 57.) Yet, the Supreme Court
allowed Linn’s libel case against the union to proceed
based on the peripheral concern and local interest
exceptions, untroubled that the factual issue of the
union’s responsibility for the leaflets might be decided
differently in the state-court case. (Id. at pp. 61–62, 67.)
Although Linn does not, as plaintiffs suggest, create an
opposite bright-line rule—that state-court actions may
always proceed in parallel to NLRB proceedings when
an employer’s conduct violates both the NLRA and state
law—its reasoning does establish that with a strong local
interest and a peripheral NLRA concern, the possibility of
conflicting findings does not foreclose a state-court action.
4.

Conclusion

The first step of a Garmon preemption analysis
sweeps broadly, presumptively preempting conduct that
may, in the end, be of only peripheral concern to (or even
lie outside the scope of) the NLRA. The local interest
exception is vital to protecting workers in such cases. And
even where certain aspects of a dispute do, or could, attract
the enforcement efforts of the NLRB, “defendants should
not be able to escape the jurisdiction of California courts
simply because, in addition to allegedly undertaking
violations of health and safety regulations which are of
compelling local importance and interest, they had the
good fortune to also undertake the commission of NLRBdefined unfair labor practices.” (Balog, supra, 204 Cal.
App.3d at p. 1308 [plaintiff may proceed with wrongful
termination claim to extent it is based on theories not
preempted by NLRA].)

33a
Appendix B
The complaint in this case makes no mention of
union organizing or other concerted activity, and it
alleges violations of state law that can be proven without
considering whether defendants’ actions also amounted
to unfair labor practices under the NLRA. 5 Because the
asserted statutes protecting competition, whistleblowing,
and free speech fit comfortably within our state’s historic
police powers and address conduct affecting individual
employees, as distinct from the NLRA’s focus on concerted
activity, and because this state-court action poses no
threat to the NLRA’s exercise of its own jurisdiction, our
courts retain the power to decide these claims.
II. Denial of the Petition To Coordinate
In addition to challenging the trial court’s demurrer
rulings, plaintiffs argue the coordination judge should
not have continued the hearing on Adecco’s coordination
petition and then denied Adecco’s petition to coordinate
petitioners’ case with Moniz. Defendants argue that
we may not review the substance of the order on the
coordination petition because such orders are reviewable
only via writ petition. We agree with defendants that the
coordination order is not properly before us.
We begin by examining the procedures for coordination.
When an individual wants to coordinate two or more
5. We disagree with the concurring and dissenting opinion
that our decision will require California courts to decide issues of
federal labor law—specifically, whether plaintiffs’ evidence involves
concerted activity. (Conc. & dis. opn., post, at p. 981.) That question
is immaterial to the state law causes of action plaintiffs allege, and
we see no reason to litigate it here.

34a
Appendix B
actions pending in different courts, he or she must submit
a petition to the Chairperson of the Judicial Council.
(Code Civ. Proc., § 404; remaining statutory references
are to the Code of Civil Procedure.) The chairperson
assigns the petition “a special title and coordination
proceeding number.” (Cal. Rules of Court, rule 3.550(c).)
The chairperson then assigns (or authorizes a presiding
judge to assign) a coordination judge to decide whether
coordination is appropriate. (§ 404.) If the coordination
judge decides coordination is appropriate, he or she
selects an appellate court to review decisions from the
coordinated proceeding. (§ 404.2.) The chairperson of the
Judicial Council then assigns (or authorizes a presiding
judge to assign) a judge to hear the coordinated actions.
(§ 404.3.) After service of notice of entry of an order
relating to coordination, “any party may petition the
appropriate reviewing court for a writ of mandate to
require the court to make such order as the reviewing
court finds appropriate.” (§ 404.6.)
This framework demonstrates that coordination
petitions are not necessarily decided under the jurisdiction
of any one of the courts in which the actions potentially
subject to coordination are pending. Rather, the
coordination proceeding is its own type of special
proceeding, with a separate caption and number. (Cal.
Rules of Court, rule 3.550(c).) When the coordination
judge grants or denies a petition for coordination, that
order is not filed in the trial court on its own; the party
that requested coordination must file it in all included
actions. (Cal. Rules of Court, rule 3.529(a).) As a result,
a coordination order is not part of the bundle of orders

35a
Appendix B
reviewable via appeal from final judgment in any one of
the actions for which coordination was sought.
The fact that the judge presiding over the Doe action
was also assigned to decide the coordination motion here
changes nothing. Were the coordination order reviewable
after final judgment, as plaintiffs contend, it would be
subject to multiple appeals after final judgment in each
of the included actions, with the unacceptable potential
for inconsistent rulings. Alternatively, if the coordination
order were reviewable after final judgment in the included
action only if that action is pending in the coordination
judge’s own court (even though no statute or rule requires
the coordination judge to be one of the judges hearing
an included action), then the parties in that action alone
would be able to appeal the order after final judgment.
The parties in the other actions for which coordination was
sought would be relegated to the writ review procedure in
section 404.6, an unequal and unjust result. Consequently,
although plaintiffs are correct that section 404.6 does not
explicitly say so, we hold that section 404.6 is the exclusive
method for appellate review of coordination orders. (Cf.
Lautrup, Inc. v. Trans-West Discount Corp. (1976) 64
Cal.App.3d 316, 317–318 [134 Cal. Rptr. 348] [coordination
orders are not separately appealable orders under § 904.1;
appellate review of such orders is via writ of mandate
under § 404.6].)
Plaintiffs having failed timely to file a petition seeking
writ relief from the trial court’s decision not to coordinate
this matter with Moniz, they may not take a second bite
at the coordination apple on their appeal from the trial
court’s orders on demurrer.

36a
Appendix B
DISPOSITION
The judgment is reversed, as are the orders sustaining
defendants’ demurrers without leave to amend. We
dismiss as untimely the appeal from the order denying
coordination with Moniz, and remand the case for further
proceedings consistent with this opinion. Plaintiffs are
entitled to their costs on appeal. (See Cal. Rules of Court,
rule 8.278(a)(3).)
				
TUCHER, J.
I CONCUR:
			
POLLAK, P.J.

37a
Appendix B
POLLAK, P. J.—
I concur in the lead opinion. I would add that the
line between those state law claims that, while based on
conduct arguably protected or prohibited by the National
Labor Relations Act (NLRA; 29 U.S.C. § 151 et seq.),
are nonetheless exempted from preemption, and those
that are preempted, is clarified by the fundamental
distinction between such cases as Linn v. Plant Guard
Workers (1966) 383 U.S. 53, 61 [15 L. Ed. 2d 582, 86 S.
Ct. 657] (Linn) and Sears, Roebuck & Co. v. Carpenters
(1978) 436 U.S. 180, 193 [56 L.Ed.2d 209, 98 S. Ct. 1745]
(Sears) on one hand, and Operating Engineers v. Jones
(1983) 460 U.S. 669 [75 L. Ed. 2d 368, 103 S. Ct. 1453]
(Jones) on the other. For the plaintiff in Jones, to prove
his state law claim he would have to prove the very fact
that would necessarily constitute a violation of federal law,
namely, that the union coerced the employer to breach
its employment contract with him. 1 The National Labor
Relations Board (NLRB) and the state court might have
reached different conclusions on that common issue, hence
the conflict, and preemption.
1. Although the plaintiff argued that he also asserted a claim
for uncoerced interference, which would not violate the NLRA,
unlike Justice Brown (Conc. & dis. opn., post, at pp. 978–979), I read
the court to have treated his claims as the same, asserting “Even
on Jones’ view of the elements of his state law cause of action, the
federal and state claims are thus the same in a fundamental respect.”
(Jones, supra, 460 U.S. at p. 682.) This conflation was questioned by
the dissenting opinion (id. at p. 688 (dis. opn. of Rehnquist, J.)), but
nevertheless the majority opinion treated both claims as requiring
a determination of whether the defendant had committed acts that
constituted an unfair labor practice.

38a
Appendix B
In Linn and Sears, it was not necessary to prove
a violation of federal law in order to prove the alleged
violation of state law. Although the state court claims were
based on alleged facts common to potential violations of
the NLRA—defamation by union officers in Linn, and
trespass while picketing in Sears—it was not necessary
to prove the elements of an unfair labor practice in order
to prove the defamation or the trespass.
The case before us is comparable to the situation in
Linn and Sears, rather than the situation in Jones. To
prove that defendants’ nondisclosure policies violate the
various provisions of California law on which the complaint
is based, it will not be necessary to prove any facts that
would constitute an unfair labor practice. Plaintiffs’ claims
threaten neither duplication nor conflict with any claims
within the jurisdiction of the NLRB, nor any interference
with the enforcement of the NLRA.
				
POLLAK, P.J.

39a
Appendix B
BROWN, J., Concurring and Dissenting.
Plaintiff John Doe filed an unfair labor practice charge
against Google, Inc., and Alphabet, Inc. (collectively,
Google), with the National Labor Relations Board (NLRB
or Board), alleging Google’s confidentiality policies
violated the National Labor Relations Act (29 U.S.C. § 151
et seq.; NLRA or Act). The regional director of the NLRB
issued a complaint against Google based on that charge. In
a settlement of that complaint, Google agreed to withdraw
the portions of its confidentiality policies on which the
regional director based her complaint. Based on the same
confidentiality policies, Doe, joined by David Gudeman and
Paola Correa, nevertheless continues to pursue claims
under the Labor Code Private Attorneys General Act of
2004 (Lab. Code, § 2698 et seq.; PAGA), seeking to add
significant monetary penalties beyond what the NLRB
required of Google. In these circumstances, I conclude
that some of plaintiffs’ claims pose a substantial risk of
interference with the NLRB’s jurisdiction. I therefore
dissent from the majority opinion’s holding that none of
plaintiffs’ claims are preempted under San Diego Unions
v. Garmon (1959) 359 U.S. 236, 244–245 [3 L. Ed. 2d 775,
79 S. Ct. 773] (Garmon). Based on how the Supreme Court
applied Garmon preemption in Operating Engineers v.
Jones (1983) 460 U.S. 669, 676 [75 L. Ed. 2d 368, 103 S.
Ct. 1453] (Jones), I would instead hold that while many
of the theories of liability in plaintiffs’ pleadings survive,
some theories are preempted.1
1. I join in full the majority opinion’s holding that the
coordination order is not properly before us.

40a
Appendix B
I.

Majority opinion’s interests analysis

As the majority opinion states, under the first stage of
Garmon analysis “there is a presumption of preemption”
for state law claims regulating any conduct even arguably
covered by the Act. (Wal-Mart Stores, Inc. v. United Food
& Commercial Workers Internat. Union (2016) 4 Cal.
App.5th 194, 202 [208 Cal. Rptr. 3d 542], citing Belknap,
Inc. v. Hale (1983) 463 U.S. 491, 498 [77 L. Ed. 2d 798, 103
S. Ct. 3172].) A claim can only overcome this presumption
if, at the second Garmon stage, a court determines “the
conduct at issue is only a peripheral concern of the Act
or touches on interests so deeply rooted in local feeling
and responsibility that, in the absence of compelling
congressional direction, it could not be inferred that
Congress intended to deprive the state of the power to
act.” (Jones, supra, 460 U.S. at p. 676.)
I generally agree with the majority opinion’s analysis
of the first Garmon stage. The allegations concerning
competition that support plaintiffs’ restraint of trade claims
are incompatible with the possibility that employees were
working together for mutual aid or protection. As these
allegations do not even arguably trigger coverage of the
Act, I agree that they are not preempted. (Longshoremen
v. Davis (1986) 476 U.S. 380, 395 [90 L. Ed. 2d 389, 106
S. Ct. 1904] [no preemption where argument for NLRA
coverage is “plainly contrary to its language”].) The same
rationale extends to plaintiffs’ free speech claims. They
are not preempted to the extent they allege defendants’
policies prevent employees from doing things like writing
novels based on experiences at Google, because the Act

41a
Appendix B
does not even arguably reach such conduct. Likewise,
plaintiffs’ whistleblowing claims based on allegations
that defendants’ policies prevent employees from raising
violations of laws unconnected with working conditions,
such as securities laws or the federal Foreign Corrupt
Practices Act of 1977 (15 U.S.C. § 78dd-1 et seq.), are not
preempted because the Board has definitively ruled that
the Act does not protect such activity. (Davis, at p. 395 [no
preemption where Board has “‘authoritatively rejected’”
prospect of NLRA coverage of conduct].)
However, as the majority opinion recognizes, other
allegations in plaintiffs’ pleadings do involve conduct
arguably covered by the Act. The allegations in plaintiffs’
whistleblowing and free speech claims concerning the
disclosure of wages and working conditions intrude into
territory the NLRA arguably—indeed, unquestionably—
covers. These allegations implicate a long line of Board
authority stating that the NLRA prohibits employers
from interfering with employees’ discussions of wages
and working conditions among themselves or with third
parties, or whistleblowing about violations of law related
to their wages and working conditions. (See, e.g., Parexel
International, LLC (2011) 356 NLRB 516, 518 [“wage
discussions among employees are considered to be at the
core of Section 7 rights because wages, ‘probably the most
critical element in employment,’ are ‘the grist on which
concerted activity feeds’”]; Victory Casino Cruises II
(Apr. 22, 2016) 363 NLRB No. 167 [2016 NLRB Lexis 300
at p. *11] [“employees have a Section 7 right to discuss
their conditions of employment with third parties, such
as union representatives, Board agents, and the public in

42a
Appendix B
general, and the Board has invalidated rules prohibiting
such third-party communication”]; Trinity Protection
Services, Inc. (2011) 357 NLRB 1382, 1383 [“employees’
concerted communications regarding matters affecting
their employment with their employer’s customers or
with other third parties, such as governmental agencies,
are protected by Section 7 and, with some exceptions not
applicable here, cannot lawfully be banned”]; see also
Eastex, Inc. v. NLRB (1978) 437 U.S. 556, 566 [57 L. Ed.
2d 428, 98 S. Ct. 2505] [Board has held the Act “protects
employees from retaliation by their employers when they
seek to improve working conditions through resort to
administrative and judicial forums”].)
My disagreement with the majority opinion arises
at the second stage of the Garmon preemption analysis,
concerning the question of whether the local interest
exception saves these aspects of plaintiffs’ claims. To begin
with, I disagree with the majority opinion’s analytical
approach. The majority opinion first determines that
the state interests here are deeply rooted and that those
interests are at the periphery of the Act. (Maj. opn. ante, at
pp. 957–958, 960–961.) Only then does it go on to examine
whether the tests “ostensibly derived from” the Supreme
Court’s most recent applicable Garmon precedents lead
to the outcome the majority opinion has already reached.
(Maj. opn. ante, at p. 963.)
The local interest exception analysis is designed to
balance competing state and federal interests (see maj.
opn. ante, at p. 967, fn. 4). But the high court has devised
and applied a test focused on the degree of overlap

43a
Appendix B
between the state and federal laws to guide that analysis,
rather than trying to assess the relative importance of
the interests freehand (and beforehand), as the majority
does. (Sears, Roebuck & Co. v. Carpenters (1978) 436 U.S.
180, 197 [56 L. Ed. 2d 209, 98 S. Ct. 1745] (Sears).) This
test is not “ostensibly derived” from precedent. (Maj.
opn. ante, at p. 963.) It is precedent. (Seminole Tribe of
Fla. v. Florida (1996) 517 U.S. 44, 67 [134 L. Ed. 2d 252,
116 S. Ct. 1114] [“When an opinion issues for the Court,
it is not only the result but also those portions of the
opinion necessary to that result by which we are bound”];
see Ramos v. Louisiana (2020) 590 U.S. ___, fns. 84,
85 [206 L. Ed. 2d 583, 140 S.Ct. 1390, 1416, fns. 84, 85]
(conc. opn. of Kavanaugh, J.)] [“[T]he state courts and
the other federal courts have a constitutional obligation
to follow a precedent of this Court unless and until it is
overruled by this Court.” “In the American system of stare
decisis, the result and the reasoning each independently
have precedential force, and courts are therefore bound
to follow both the result and the reasoning of a prior
decision”].) We are therefore obligated to follow the
analytical path the Supreme Court has set forth for the
local interest exception rather than fashioning our own
test. Moreover, the majority opinion’s approach of trying
to divine the applicability of the local interest exception
by first ranking the significance of the state’s interests or
categorizing them as lying at the core or periphery of the
NLRA will likely lead to unpredictability, as the approach
lacks concrete criteria or analytical guideposts and for
that reason ends up being entirely subjective.
Not only am I skeptical of the order in which the
majority proceeds with its analysis of the competing

44a
Appendix B
state and federal interests, I am unconvinced by the
substance of the majority opinion’s reasoning in its own
right. The majority opinion concludes that the statutes
underlying plaintiffs’ PAGA claims involve deeply rooted
local interests because they involve substantive labor
regulation. The state’s desire to regulate employees’
speech vis à vis their employers may be good public policy,
but it is substantially different on its face from the state
interests the Supreme Court has so far recognized as
supporting the exception, which have included addressing
violence, threats of violence, libel, infliction of emotional
distress, trespass, obstruction of access to property,
and breach of contract actions by laid-off replacement
employees. (Hillhaven Oakland Nursing etc. Center
v. Health Care Workers Union (1996) 41 Cal.App.4th
846, 854 [49 Cal. Rptr. 2d 11].) In my view, these sorts
of claims—which involve classic areas of state common
law—are qualitatively different from the purely economic
regulation underlying the Labor Code statutes at issue
here. The majority’s citations to Fort Halifax Packing Co.
v. Coyne (1987) 482 U.S. 1, 20–21 [96 L. Ed. 2d 1, 107 S. Ct.
2211], and Iskanian v. CLS Transportation Los Angeles,
LLC (2014) 59 Cal.4th 348, 388 [173 Cal. Rptr. 3d 289, 327
P.3d 129], to support its contrary view are unpersuasive.
The former concerned an entirely different form of NLRA
preemption arising under Machinists v. Wisconsin Emp.
Rel. Comm’n (1976) 427 U.S. 132, 140 [49 L. Ed. 2d 396,
96 S. Ct. 2548]. (Fort Halifax, at pp. 19–20.) In the latter,
as the trial court recognized, the California Supreme
Court held only that PAGA claims are a form of qui tam
action that may proceed despite any covered employees’
agreement to arbitrate. Neither case demonstrates that

45a
Appendix B
the United States Supreme Court would view the Labor
Code provisions here as implicating interests similar to
the state’s desire to prevent violence or protect property
from trespass.
More importantly, the state’s interest in establishing
minimum labor standards is irrelevant because the
Labor Code provisions about which I disagree with the
majority opinion are not minimum labor standards and
cannot be said to lie at the periphery of the NLRA. The
majority opinion summarizes the relevant statutes as
“establish[ing] as a minimum employment standard an
employee anti-gag rule” and states that “[n]othing about
the NLRA manifests a purpose to displace state labor laws
regulating wages, hours, and other terms of employment.”
I would have no difficulty holding that the NLRA does not
preempt California’s substantive labor standards, such as
minimum wage, overtime, or antidiscrimination laws. But
the Labor Code provisions on which plaintiffs base their
claims are not this sort of law. As the majority opinion’s
description of plaintiffs’ claims demonstrates, the statutes
at issue regulate the types of information employees can
share with each other and third parties as a means to an
end: to allow employees to take action to improve their
wages and working conditions. (See maj. opn. ante, at
pp. 958–959 [noting, e.g., plaintiffs’ allegations relating
to Labor Code provisions that are intended to protect
employees who share information in order to address
employer sex discrimination and underpayment of wages].)
This distinction matters. The statutes’ regulation of
the process by which employees improve their working
conditions (i.e., by sharing information relating to their

46a
Appendix B
wages and working conditions), rather than the substance
of those working conditions, places plaintiffs’ PAGA claims
within the territory at least arguably covered by the Act.
II. Sears and the identical controversy test
Besides disagreeing with the majority opinion’s
choice to first engage in a novel analysis of the competing
interests before applying the Supreme Court’s test for
the local interest exception, I am also not convinced that
it has accurately stated or applied that test. The Supreme
Court announced in Sears that the “critical inquiry” for
the local interest exception concerning conduct arguably
prohibited by the Act is whether the controversy in a
state court action is “identical to … or different from”
the controversy that could be submitted to the Board.
(Sears, supra, 436 U.S. at p. 197.) The majority opinion
finds the controversies in the regional director’s suit and
plaintiff’s claims different because the laws underlying
each have different purposes. (Maj. opn. ante, at p. 964.)
This distinction is immaterial. The majority cites no
apposite authority for the notion that a state law with a
purpose different from the NLRA will escape preemption.
Linn v. Plant Guard Workers (1966) 383 U.S. 53 [15 L. Ed.
2d 582, 86 S. Ct. 657] (Linn) stated only that when state
libel law prohibits conduct and offers different remedies
for different reasons than the NLRA, then parties can
be expected to pursue both forms of relief, rather than
choosing to pursue relief only in state court. (Linn, at p.
66.)2 Linn’s discussion of the different purposes for the two
2. Relying on Linn, the majority opinion elsewhere observes
that the availability of a remedy in state court that is unavailable

47a
Appendix B
laws is also inapposite because, among other things, there
the Board had already authoritatively rejected the idea
that defamatory statements were covered by the NLRA.
(Linn, supra, 383 U.S. at pp. 60–61.) This is not the case
here, where the regional director has evidently concluded
that the Act does cover defendants’ policies’ restrictions
on discussion of wages and working conditions. Google’s
settlement of the NLRB complaint and rescission of the
aspects of the policies at issue further suggest the regional
director has at least an arguable case.
Even if the purposes of the laws at issue were relevant,
I would conclude the NLRA and the Labor Code statutes
supporting plaintiffs’ whistleblowing and free speech
claims based on allegations concerning wages and working
conditions involve the same fundamental controversy. The
NLRB regional director’s complaint concerns whether
Google’s confidentiality policies prevented employees from
discussing their wages and working conditions with each
other or third parties for their mutual aid or protection.
The allegations in plaintiffs’ PAGA claims that involve
conduct arguably covered by the NLRA concern whether
defendants’ policies prevented employees from discussing
under the NLRA may be a reason not to find a case preempted.
(Maj. opn. ante, at pp. 963–964.) But Linn’s point was merely that
the inability of an NLRA claim to address a particular type of harm
“vitiate[d]” the need for preemption. (Linn, supra, 383 U.S. at pp.
63–64.) This point has no application here, as the harm plaintiffs
seek to remedy with the threat of PAGA penalties is the existence
of excessively restrictive confidentiality policies, and the regional
director’s complaint has already led Google to withdraw the offending
policies.

48a
Appendix B
wages and working conditions or blowing the whistle on
workplace misconduct in order to improve employees’
welfare. For example, several of plaintiffs’ causes of action
allege defendants’ policies unlawfully prevented employees
from disclosing defendants’ failures to pay overtime and
other wage and hour violations. The goal of employees’
concerted activity for mutual aid and protection under
the NLRA is the same improvement of employee welfare
that underlies plaintiffs’ PAGA claims based on allegations
concerning wages and working conditions.
The majority opinion concludes that “whether an
employer’s confidentiality policy constitutes an unfair
labor practice under the NLRA is a ‘different’ controversy
from the question of whether it violates provisions of
the state Labor Code.” (Maj. opn. ante, at p. 964.) This
is tautological: the majority concludes the controversies
in plaintiffs’ state suit and the regional director’s
NLRA complaint are different because the question of
whether defendants’ policy violates state law is different
from whether they violate the NLRA. To shore up the
tautology, the majority opinion notes that to determine
whether a confidentiality policy violates the NLRA, the
Board engages in a balancing test that does not take into
account a state’s interests. (See The Boeing Co. (Dec. 14,
2017) 365 NLRB No. 154.) But the Boeing balancing test
is not a preemption test, so there is no reason for it to
consider states’ interests. That aside, it is irrelevant that
plaintiffs do not need to prove a violation of the NLRA in
order to prevail on their PAGA claims or that the Board
does not consider state interests. As the trial court here
recognized, if a complete overlap of elements were a

49a
Appendix B
prerequisite under Garmon, then any state law claim with
even a single different element from an NLRA unfair labor
practice charge would avoid preemption. The Supreme
Court has never taken this sort of formulaic approach
to Garmon preemption—an approach that would make
preemption easily avoidable by all but the most inept of
complaint-drafters.
In my view, the breadth of the majority’s conclusion
underscores the lack of soundness in its reasoning. The
structure of Garmon preemption sweeps broadly by
presumptively preempting any claims based on conduct
even arguably covered by the Act. (Jones, supra, 460
U.S. at p. 676.) It then excepts certain limited categories
of state law claims that will be allowed to proceed.
(Ibid.) This expansive approach “not only mandates the
substantive pre-emption by the federal labor law in the
areas to which it applies, but also protects the exclusive
jurisdiction of the [NLRB] over matters arguably within
the reach of the Act.” (Id. at p. 680.) By contrast, the
majority opinion would allow virtually any state law
claim to proceed, regardless of its effects on the Board’s
jurisdiction, so long as it does not refer to the NLRA by
name or duplicate its elements. This flips the Garmon
framework on its head, transforming it from a doctrine
that sweeps widely with a carefully considered exception
into a doctrine that allows everything to proceed except
for a few, narrowly targeted areas of preemption where a
state claim includes all the elements of an NLRA claim.
By defining the local interest exception so broadly, the
majority opinion allows it to swallow the intentionally
wide rule of Garmon preemption and defeat its purpose.

50a
Appendix B
III.

Jones and the crucial element test

In any event, the application of the identical controversy
test here is ultimately of only academic interest. Five years
after Sears, the Supreme Court in Jones restated the local
interest exception test in what “amount[ed] to a substantial
reformulation of the Sears requirement that state and
federal controversies be identical.” (Jones, supra, 460 U.S.
at p. 688 (dis. opn. of Rehnquist, J.).) Because the facts of
Jones are the most closely analogous to this case and it
is the most recent Supreme Court precedent, it is worth
examining Jones in detail.
The plaintiff in Jones believed that a union had
persuaded a company to fire him from his position as a
supervisor. (Jones, supra, 460 U.S. at p. 672.) The plaintiff
filed an unfair labor practice charge with the NLRB, but
the NLRB regional director refused to issue a complaint.
(Id. at p. 672.) The regional director explained in a letter
to the plaintiff that the director found insufficient evidence
that the union had caused the company to discharge the
plaintiff. (Id. at pp. 672–673.) The plaintiff then filed a
state court suit, alleging the union interfered with his
contract with the company. (Id. at pp. 673–674.) Before the
Supreme Court, the plaintiff argued in part that his state
suit was not preempted because his state cause of action
was “distinct” from the unfair labor practice charge, like
the nonpreempted claims in Linn and Sears. (Id. at p. 681.)
The plaintiff’s theory was that the NLRA only prohibited
a union from coercing an employer’s choice of bargaining
representative, while his state law claim could succeed if
the union coercively or noncoercively caused the company
to fire him. (Ibid.)

51a
Appendix B
The court rejected this arg ument for several
independent reasons. (Jones, supra, 460 U.S. at p. 682.) As
relevant here, the court noted the plaintiff conceded that
a claim based on coercive conduct would be preempted,
and it viewed his complaint as alleging coercive conduct.
(Ibid.) Jones then held that even a claim for noncoercive
interference with contract could not proceed in state
court, because such a claim would require the state court
to decide whether the union’s conduct was coercive or not
and “[d]ecisions on such questions of federal labor law
should be resolved by the Board.” (Ibid.)
Jones further reasoned that a state law claim for
noncoercive interference with contract was preempted
because one element of such a claim—causation—would
overlap with an element of an unfair labor practice charge.
(Jones, supra, 460 U.S. at p. 682.) The court explained,
“[E]ven if the [state] law reaches noncoercive interference
with contractual relationships, a fundamental part of such
a claim is that the Union actually caused the discharge
and hence was responsible for the employer’s breach of
contract. Of course, this same crucial element must be
proved to make out [an NLRA] case: the discharge must
be shown to be the result of Union influence. Even on [the
plaintiff’s] view of the elements of his state-law cause of
action, the federal and state claims are thus the same in
a fundamental respect, and here the Regional Director
had concluded that the Union was not at fault.” (Ibid.,
italics added.) Because the plaintiff sought to relitigate the
question of causation in state court, the court concluded
“[t]he risk of interference with the Board’s jurisdiction
[was] thus obvious and substantial.” (Id. at p. 683.) The

52a
Appendix B
court noted that the issues in Sears, by contrast, were
“‘completely unrelated’” and that there was “‘no realistic
risk of interference with the Labor Board’s primary
jurisdiction’” because the state law trespass claim in
Sears turned only on the location of a union’s picketing,
while an unfair labor practice charge based on the same
picketing would have examined the union’s motives for the
picketing. (Id. at pp. 682–683.) The court also stated that
its precedents refuted the plaintiff’s argument that the
availability of punitive damages or attorneys’ fees was a
reason to allow his tort claim to proceed. (Id. at p. 684.)
The majority opinion does not interpret Jones to
create a crucial element test because such a test would
“eviscerate” the local interest exception as set forth in
Sears and, presumably, Linn. But Jones compared the
crucial elements of the Jones plaintiff’s claim with the
elements of an NLRA claim—rather than the overall
controversies or the differing purposes of the laws in
question, as the majority does—and found preemption
based on an overlap of the single element of causation.
(Jones, supra, 460 U.S. at p. 682.) Jones therefore
construed the identical controversy test from Sears as
turning on whether a “crucial element” of the state and
NLRA claims is identical. I do not see how it is possible
to read this as doing anything but modifying the local
interest exception test. Consistent with this conclusion
is Justice Rehnquist’s dissent in Jones, in which he noted
that the court’s opinion was a “substantial reformulation”
of the Sears test. (Jones, at p. 688 (dis. opn. of Rehnquist,
J.).) Reading Jones in this way does not require us to
decide that Sears and Linn are no longer good law. In

53a
Appendix B
fact, precedent prevents us from so deciding, because the
Supreme Court has instructed that only the high court
itself can declare that a decision has been overruled.
(Rodriguez de Quijas v. Shearson/Am. Exp. (1989) 490
U.S. 477, 484 [104 L. Ed. 2d 526, 109 S. Ct. 1917].) However,
this same principle dictates that it is not our court’s role
or within our power to interpret the Supreme Court’s
precedents differently from the court itself, even when
we may disagree with those decisions on the merits. We
must defer to the Supreme Court’s authority to construe
its own caselaw. Sears and Linn now mean what Jones
says they mean, and we must analyze the local interest
exception as Jones did.
Applying Jones’s construction of the local interest
exception here is straightforward. Like the overlap
found in Jones itself, plaintiffs’ claims all share a crucial
element with the regional director’s NLRA complaint:
whether defendants’ policies in fact prevent discussion of
wages and working conditions with government agencies
or other third parties. For example, one of Google’s
defenses to both plaintiffs’ whistleblowing claims and
the regional director’s complaint would likely be that a
savings clause in its confidentiality policies permitted the
disclosure of wages and working condition information
to the government. The regional director’s issuance of
an amended complaint implicitly demonstrates that she
concluded the savings clause was insufficient, but the
trial court could conclude the opposite. If the trial court
were to deny plaintiffs’ PAGA claims based on the savings
clause, such a ruling could undermine public confidence
in the regional director’s complaint and the resulting

54a
Appendix B
settlement. As in Jones, “[t]he risk of interference with
the Board’s jurisdiction is thus obvious and substantial.”
(Jones, supra, 460 U.S. at p. 683.)
Even if I were to ignore Jones’s reasoning, as the
majority opinion seems to do, giving precedential effect
only to Jones’s outcome would lead to the same result. The
majority holds that plaintiffs can proceed with their claims
without also proving an NLRA violation because the
NLRA only applies if defendants infringed on employees’
concerted actions and plaintiffs can prove their claims
even if defendants infringed on noncollective activity.
But this approach is analytically indistinguishable from
the Jones plaintiff’s argument that his tort claim could
proceed because the NLRA applied only if the union acted
coercively and he could prove his tort claim by showing
the union acted noncoercively. (Jones, supra, 460 U.S. at
p. 682.) Jones definitively rejected this type of maneuver.
(Ibid.) The majority also asserts that nothing the trial
court may do with plaintiffs’ PAGA claims could interfere
with the Board’s jurisdiction because the regional director
settled her complaint. The same could be said of the Jones
regional director’s decision not to issue a complaint at all,
however; yet the court still held the plaintiff’s state law
claim preempted. (Jones, at pp. 673, 680–681.)
Although it finds the crucial element test not to exist,
the majority opinion nonetheless goes on to apply the test
and finds insignificant the overlap between plaintiffs’ and
the regional director’s complaints on the issue of causation.
It concludes causation is merely “antecedent” to different
“legal considerations” at issue for each claim—concerted
activity for the NLRA and whistleblowing and free speech

55a
Appendix B
for plaintiff’s PAGA claims. (Maj. opn. ante, at p. 966.)
This reasoning, too, founders on Jones. If this notion was
correct, the Supreme Court would not have held the Jones
plaintiff’s interference with contract claim was preempted.
After all, the legal consideration for the state claim in
Jones was whether the plaintiff had a valid employment
contract as a supervisor and the union interfered with
it, while the legal consideration for the NLRA claim was
whether the union interfered with the employer’s selection
of its bargaining representative. (Jones, supra, 460 U.S.
at p. 681.)
I find similarly unconvincing the majority opinion’s
four additional reasons for distinguishing Jones. The
majority opinion first says Jones is distinguishable
because the trial court here would not need to resolve
issues of federal law to adjudicate plaintiffs’ complaint.
(Maj. opn. ante, at pp.965–966, 969 & fn. 5.) This is
incorrect, as noted above. The majority opinion concludes
plaintiffs’ complaint is not preempted specifically because
it does not mention concerted activity. (Maj. opn. ante,
at p. 969.) Therefore, to resolve plaintiffs’ claims on the
merits while avoiding any intrusion into preempted areas,
the trial court would need to decide the federal labor law
question of whether plaintiffs’ evidence supporting their
claims involves concerted or collective activity, just as the
trial court in Jones would have had to rule on the federal
issue of coercion to avoid preemption. (Jones, supra, 460
U.S. at p. 682.)
The majority opinion next asserts that the regional
director here has not made factual findings fatal to the

56a
Appendix B
plaintiffs’ claim, as did the regional director in Jones.
Putting aside the question of whether the regional
director’s rejection letter in Jones actually constituted
factual findings (Jones, supra, 460 U.S. at pp. 672–673),
a conflict in factual findings can arise either from the
NLRB rejecting a claim that a state court allows to
proceed (as in Jones) or from the Board accepting a claim
that a state court rejects (a possibility here, as discussed
above). Moreover, even if the outcome of plaintiffs’ suit
is ultimately consistent with the regional director’s
settlement, “the Garmon rule prevents States not only
from setting forth standards of conduct inconsistent with
the substantive requirements of the NLRA, but also from
providing their own regulatory or judicial remedies for
conduct prohibited or arguably prohibited by the Act.
[Citation.] The rule is designed to prevent ‘conflict in its
broadest sense’ with the ‘complex and interrelated federal
scheme of law, remedy, and administration,’ [citation],
and [the Supreme] Court has recognized that ‘[c]onflict
in technique can be fully as disruptive to the system
Congress erected as conflict in overt policy.’” (Wisconsin
Dept. of Industry v. Gould, Inc. (1986) 475 U.S. 282, 286
[89 L.Ed.2d 223, 106 S. Ct. 1057] (Gould, Inc.).)
As a third basis for distinguishing Jones, the majority
says defendants’ conduct here was not protected by the
NLRA like the union’s conduct in Jones, and federal
supremacy is implicated to a greater extent when a state
court tries to prohibit what federal law protects. Jones did
note that the Act arguably protected the union’s conduct
there, but it was a separate basis for finding preemption,
not a prerequisite for preemption. (Jones, supra, 460

57a
Appendix B
U.S. at pp. 683–684.) Instead, the court’s opinion makes
clear it would have found preemption based solely on the
overlap of the claims on the causation element, regardless
of whether the case for preemption were stronger for
arguably protected conduct. (Jones, supra, 460 U.S. at
pp. 682–683.)
Finally, the majority opinion notes the absence of a
union in this case and quotes the statement in Sears that
preemption “has its greatest force when applied to state
laws regulating the relations between employees, their
union, and their employer.” (Maj. opn. ante, at p. 967;
see id., ante, at pp. 957–958, 968.) But the Sears remark
as to the reasoning behind preemption was intended
only to compare labor regulations with “certain laws
of general applicability which are occasionally invoked
in connection with a labor dispute,” not to imply that
Garmon preemption operates differently in unionized
and nonunionized workplaces. (Sears, supra, 436 U.S. at
p. 193.) The majority opinion cites nothing to support its
suggestion that Garmon preemption is less necessary
when a union is not involved. 3 The regional director’s
actions in this case unequivocally demonstrate the Act
3. Epic Systems Corp. v. Lewis (2018) 584 U.S. ___ [200 L. Ed.
2d 889, 138 S.Ct. 1612, 163], is not on point, as it had nothing to do with
preemption. Epic sought to reconcile competing interpretations of the
NLRA and the Federal Arbitration Act (9 U.S.C. § 1 et seq.). (Epic
Systems, at pp. 1629–1630.) It did not discuss the Act’s protections
for nonunionized employees and certainly did not hold that only the
Act’s provisions applicable to union certification or bargaining can
support Garmon preemption, as the majority opinion seems to imply.
(Maj. opn. ante, at pp. 961, 966–967.)

58a
Appendix B
applies to nonunionized employees seeking to improve
their working conditions just as it does to unionized
employees. (See Eastex, Inc. v. NLRB, supra, 437 U.S.
at p. 565 [Congress used the phrase “‘mutual aid or
protection’” in the Act because it “knew well enough
that labor’s cause often is advanced on fronts other than
collective bargaining and grievance settlement”].)
IV. The risk of interference with the NLRB’s jurisdiction
I agree with the majority opinion that Jones does
not provide any bright-line rules for determining what
elements qualify as crucial for purposes of the local
interest exception test. (Maj. opn. ante, at p. 965.) Instead,
Jones directs us to consider whether a state suit poses
a “realistic risk of interference with the Labor Board’s
primary jurisdiction to enforce the statutory prohibition
against unfair labor practices,” with this interference
coming “either in terms of negating the Board’s exclusive
jurisdiction or in terms of conflicting substantive rules.”
(Jones, supra, 460 U.S. at pp. 676, 683.) When considering
the risk of such interference here, it bears emphasizing
that Doe himself invited the NLRB to take action against
Google and the regional director’s settlement has already
caused Google to change the same policies about which
plaintiffs now complain, a point the majority opinion
mentions only in passing in its discussion of the factual
background of the case. (Maj. opn. ante, at p. 956.) By
ruling against preemption, then, the majority opinion is
allowing plaintiffs to seek additional penalties for the same
conduct that the regional director has already remedied.
Because it could allow plaintiffs to impose monetary

59a
Appendix B
penalties for practices the Board decided to remedy via
settlement, plaintiffs’ PAGA suit poses a substantial risk
of interfering with the NLRB’s jurisdiction. (Gould, Inc.,
supra, 475 U.S. at p. 287 [states may not impose additional
penalties for conduct the NLRA prohibits].)
The majority opinion’s responses to this risk are
unpersuasive. The majority opinion notes that the
regional director’s settlement with Google was informal
and required Google to post a notice of employees’ rights
under federal law. The settlement required Google to do
more than post a notice. The notice stated that Google had
rescinded the policies about which the regional director
complained—the same policies at issue in plaintiffs’
complaint—and the settlement agreement required
Google to comply with that statement. That aside, the
settlement was informal only in the sense that it did not
result in a Board order. There was still a formal settlement
agreement and Doe had an opportunity to appeal that
settlement to the Board. (29 C.F.R. §§ 101.7, 101.9(b)(2)
(2020).) Moreover, any informality would serve only to
highlight the risk of interference. The regional director
opted for an informal settlement in exchange for Google’s
withdrawal of the offending sections of its policies and
because of the absence of any significant history at Google
of unfair labor practices. Whatever one might think of
the merits of this decision, the specter of heavy PAGA
penalties threatens to thwart the regional director’s
choice of leniency.
The majority opinion also notes that the settlement
stated it would not prevent the Board or courts from

60a
Appendix B
finding violations with respect to matters occurring before
the agreement was approved or making findings of fact or
conclusions of law regarding evidence obtained in the case.
The provision quoted by the majority (on which plaintiffs do
not rely) is from a form agreement prepared by the Board,
apparently intended to serve as a standard template for all
informal settlements. (See 29 C.F.R. §§ 101.7, 101.9(b)(2)
(2020).) The provision nowhere states that it was intended
to affect the reach of Garmon preemption or to allow
state claims to proceed that would otherwise be barred.
At a minimum, the settlement agreement does not define
the scope of the Act’s preemptive force “with unclouded
legal significance.” (Garmon, supra, 359 U.S. at p. 246.)
In analogous circumstances, the Supreme Court has
instructed that a failure “to define the legal significance
under the Act of a particular activity does not give the
States the power to act.” (Ibid.) In this case, I see no Board
actions of sufficient clarity to permit plaintiffs’ state court
claims to intrude into areas that threaten to interfere with
the reach of the Board’s jurisdiction.
For these reasons, I respectfully dissent.
				
BROWN, J.

61a
Appendixof
C the superior
Appendix C — OPINION
court of california, county of
san francisco, filed june 27, 2017
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
Case No. CGC – 16-556034
John DOE, et al.,
Plaintiffs,
v.
GOOGLE, INC., et al.,
Defendants.
Order Sustaining in Part and
Overruling in Part Google’s
Demurrers and Setting Case
Management Conference
On June 23, 2017 I heard argument on defendant
Google’s demurrer to Doe’s third amended complaint
(TAC). Also set for a hearing that day was defendant
Adecco’s motion for a stay. I address that motion in the
conclusion to this order.

62a
Appendix C
Background
In 2016, plaintiff John Doe and other workers filed
unfair labor practice charges against Google with the
National Labor Relations Board, alleging that Google’s
employment agreement and confidentiality policies
unlawfully prevent employees from discussing their wages
and working conditions outside of the company. The Board
issued a Complaint on those allegations, and the matter
is set for trial starting August 28, 2017.
Plaintiffs here are current and former employees
of defendants Google and Alphabet (together “Google”)
and Adecco (a staffing agency that employs contingent
workers at Google). Plaintiffs allege the same claims as
those asserted in the Complaint before the Board: that
Google and Adecco use illegal confidentiality agreements
and policies to restrict their current and former
employees’ freedom of speech and freedom of the press,
and to restrain trade. TAC ¶¶ 21–34. Among the illegal
agreements and policies that Google allegedly imposes are
(1) a Confidentiality Agreement (id. ¶¶ 35–43), (2) a Code
of Conduct Policy (id. ¶¶ 55–57), (3) Data Classification
Guidelines (id. ¶¶ 58–59), (4) an Employee Communication
Policy (id. ¶¶ 60–65), and (5) a Harassment Release (id.
¶¶ 90–94). Adecco allegedly imposes similarly illegally
restrictive (1) Confidentiality Agreement (id. ¶¶ 44–53),
(2) Social Event Release (id. ¶¶ 95–98), and (3) GBike
Release (id. ¶¶ 99–100). These policies extend to former
employees as well, who must sign an Exit Certification
upon termination that binds them to the terms of the
Confidentiality Agreement. Id. ¶¶ 72–73. Plaintiffs allege

63a
Appendix C
that these agreements and policies violate California
Unfair Competition Law and various Labor Code sections,
and seek PAGA penalties. Id. ¶¶ 104–170.
Google contends that counts 1-17 are preempted by the
National Labor Relations Act (NLRA). Google contends
that count 18 is ambiguous and confusing as it fails to
adequately identify the specific allegations of wrongdoing
against Google.
Request for Judicial Notice
Plaintiffs request judicial notice of (1) the February
29, 2016 charge against Google filed with the Board, (2)
the May 17, 2016 charge against Google filed with the
Board (by Doe), and (3) Google and Nest Labs’ Answer
to the consolidated complaints. Google requests judicial
notice of the NLRA Order consolidating the cases. The
requests are not opposed. Because these documents help
(to a greater and lesser extent) delineate the scope of the
NLRB’s asserted jurisdiction over issues common with
this state court litigation, the requests are granted.
Preemption
Courts must defer to the exclusive jurisdiction of the
NLRB if the subject matter of the litigation is arguably
subject to the protections of § 7 or the prohibition of § 8
of the NLRA.1 Section 7 guarantees employees the right
1. Luke v. Collotype Labels USA, Inc., 159 Cal. App. 4th
1463, 1469 (2008); San Diego Bldg. Trades Council v. Garmon,
359 U.S. 236, 245 (1959).

64a
Appendix C
to engage in “concerted activities for the purpose of
collective bargaining or other mutual aid or protection.”
29 U.S.C. § 157. Section 8 makes it an unfair labor practice
for an employer to interfere with § 7 rights. Id. § 158(a)
(1). Parties asserting preemption must establish that the
controversy “is one that the NLRB could legally decide
in the party’s favor.” 2
“Employees” and Supervisors
Plaintiffs argue that the NLRB lacks jurisdiction over
claims concerning managers, supervisors, and former
employees. The TAC, very carefully, does not allege that
Doe is a manager or supervisor. Instead it alleges that
Google contends that Doe has managerial or supervisory
responsibilities. TAC ¶ 5. Plaintiffs Gudeman and Correa
are both former employees. Id. ¶¶ 8–9.
Former employees have had their claims preempted
by the NLRA. 3 Gudeman and Correa are not alleged to
be former supervisory employees.

2. Ming W. Chin, et al, C a li forn i a P r ac t ice G u i de :
E m ploy m en t L i t igat ion ¶ 15:218 (Rutter: 2016) [cited as
Employment Litigation].
3. Luke, 159 Cal. App. 4th at 1466; Barnes v. Stone Container
Corp., 942 F. 2d 689 (9th Cir. 1991); but see Khanh Dang v.
Maruichi American Corp., 3 Cal. App. 5th 604, 609 (2016) (noting
that NLRA preemption would apply to a former nonsupervisory
employee).

65a
Appendix C
Supervisors are excluded from the definition of
“employee” under the NLRA. 29 U.S.C. § 152(3). “By the
exclusion of supervisory employees and the regulation of
their collective bargaining rights from the federal act the
field as to them was left open to state control.”4
But the title ‘supervisor’ may be misleading, and in
the end the NLRB decides if one is a covered employee
or non-covered supervisor, under criteria specified in the
NLRA.5 The Board routinely makes these determinations
(subject to review in the Circuit Courts of Appeals).6 And
actions directed to supervisors may in any event be within
the jurisdiction of the Board.7
As I have noted the TAC does not actually allege
any of the plaintiffs are supervisors. That is likely not a
mistake. Doe himself has invoked the jurisdiction of the
Board to review the very policies at issue in this state case,
and Doe would be hard pressed to square that invocation
with a judicial admission here that he was a supervisor.
4. Safeway Stores, Inc. v. Retail Clerks International Assn.,
41 Cal. 2d 567, 572 (1953).
5. N.L.R.B. v. Health Care & Ret. Corp. of Am., 511 U.S.
571, 574 (1994).
6. E.g., Allied Aviation Serv. Co. of New Jersey v. Nat’l Labor
Relations Bd., 854 F.3d 55, 65 (D.C. Cir. 2017); N.L.R.B. v. Konig,
79 F.3d 354, 357–58 (3d Cir. 1996); N.L.R.B. v. Hilliard Dev. Corp.,
187 F.3d 133, 140 (1st Cir. 1999); Micro Pac. Dev. Inc. v. N.L.R.B.,
178 F.3d 1325 (D.C. Cir. 1999).
7. Khanh Dang v. Maruichi Am. Corp., 3 Cal. App. 5th 604,
609 (2016).

66a
Appendix C
This may also explain the terse discussion of the issue
on the last page of plaintiffs’ opposition, which makes no
reference to the TAC nor even suggests which plaintiff
qualifies as a supervisor.
The suggestion that someone involved in this case is
supervisor does not defeat Google’s preemption argument.
“Concerted activities” under the NLRA
“Concerted employee activities are protected when
the activities can reasonably be seen as affecting the
terms or conditions of employment.”8 The activity need
only be “arguably” subject to the protections of § 7 of the
NLRA.9 “If a single employee, acting alone, participates
in an integral aspect of a collective process, the activity
may nonetheless be considered ‘concerted’ for purposes
of the [NLRA].”10
Google maintains that all claims in the TAC relate
to concerted activities. Google contends that all claims
here derive from defendants’ agreements and policies
that restrict the right to speak about wages and working
conditions, a right central to the NLRA. The claims
as phrased, however, do not on their face necessarily
implicate concerted activity. The first three causes of
8. NLRB v. Mike Yurosek & Son, Inc., 53 F. 3d 261, 265 (9th
Cir. 1995) (internal quotation marks and citation omitted).
9. Linn v. Plant Guard Workers, 383 U.S. 53, 60 (1966).
10. N.L.R.B. v. Mike Yurosek & Son, Inc., 53 F.3d 261, 264
(9th Cir. 1995) (internal quotation marks and citations omitted).

67a
Appendix C
action, for example, focus on restraints encountered by
employees as they might approach future and prospective
employers; causes of action 5 and 6, and perhaps 7, 8, 10
and 12 all focus on restrains on communications with the
government, such as inhibitions of whistleblower rights.
It is at least conceivable that such rights could be resolved
without implicating concerted action and communications
as among employees.
The Parties’ Positions
At argument, I asked the parties to describe the test
which I should apply to determine whether a given cause of
action was preempted. Google’s position seems to reduce to
the position that any employee complaint arising out of the
workplace is ‘arguably’ subject to NLRB jurisdiction and
so is preempted. It is not clear what sort of claims pressed
by employees—such as the great panoply of state Labor
Code violations—could be pressed in any court under this
view. At argument, Google’s counsel suggested it was a
case by case determination, but this is not helpful. And
Google’s suggestion that only claims relating to violence,
threats of violence, trespass, health and safety can survive
preemption is just not right. There may well be a ‘health
and safety’ exception, at least with respect to claims for
termination in violation of public policy,11 and a trespass
exception,12 but there are other exceptions as well, such as
11. Luke v. Collotype Labels USA, Inc., 159 Cal. App. 4th
1463, 1474 (2008).
12. Walmart Stores, Inc. v. United Food & Commercial
Workers Int’l Union, 4 Cal. App. 5th 194, 209, 208 (2016).

68a
Appendix C
for picketing, assault and battery, defamation (unless the
statements were made with malice), intentional infliction
of emotional distress, fraud, expulsion from union
membership, unemployment benefits, overtime pay,13 and
for unfair business practices such as wrongful termination
for complaints about overcharging customers.14 It is not
simple to extract a general rule from this assortment.
In the fifty years since Garmon. numerous
“exceptions, limitations, refinements, and
qualifications” have appeared. Two vague
except ions appea red i n Ga r mon it sel f.
First, state tort and criminal law remedies
for violence, mass picketing, or property
destruction withstand Garmon preemption
for matters “deeply rooted in local feeling and
responsibility.” The second is for matters of
“merely peripheral concern” to the federal labor
law. Other exceptions soon appeared: some
state laws of “general applicability” escaped
preemption, as did others where “properly
understood, federal regulatory policy can be
narrowly construed and the state policy readily
accommodated.” Thus, in Supreme Court
Garmon jurisprudence alone, state tort claims
for malicious defamation in labor disputes,
fraud and misrepresentation, trespass, and
the intentional infliction of emotional distress
all escape the embrace of Garmon preemption.
13. Employment Litigation at 15:225 et seq.
14. Haney v. Aramark Uniform Services, Inc., 121 Cal.
App.4th 623, 639 (2004).

69a
Appendix C
For example, in a trespass case against a
picketing union, the Court suggested that
the “arguably prohibited” prong of Garmon
might be limited to cases in which the state
and NLRB proceedings address the “identical
controversy.” Other cases suggested that
a “balancing test” superseded the Garmon
analysis. As Professor Gregory noted more
than twenty years ago. “The litany of exceptions
to Garmon, in areas wholly removed from the
well-established violence and local concern
exceptions, threatens to swallow the doctrine,
and has compromised the practicality of its
application.” Many of the cases announcing
exceptions to Garmon, moreover, involve
state tort claims against unions, or state laws
regulating unions, an ironic twist to Justice
Frankfurter’s earlier concerns about state
court actions hostile to unions. Again, state
courts wrestling with preemption questions
must apply this complex body of federal law.15
Plaintiffs’ position is no more helpful. As I indicated
at argument, the first 11 pages of their Opposition did
little more than outline the claims and press the case
15. Henry H. Drummonds, “Beyond the Employee Free
Choice Act: Unleashing the States in Labor-Management Relations
Policy,” 19 Cornell J.L. & Pub. Pol’y 83,128–29 (2009) (notes
omitted). See also, Harry G. Hutchison, “Protecting Liberty?
State Secret Ballot Initiatives in the Shadow of Preemption
and Federalism,” 6 NYU J.L. & Liberty 409, 496 n.143 (2012)
(“Garmon has not been consistently applied”).

70a
Appendix C
that Google is in the wrong. Plaintiffs’ position that
Iskanian16 manifests the state’s overwhelming (or “deep”)
concern with PAGA claims (and thus a serious factor in
determining whether federal preemption should win a
balancing contest) is without merit. That case just decided
that PAGA claims are a form of qui tam action as to
which the state is the true plaintiff, and as a matter of
state law the state is not bound by employees’ arbitration
agreements.17
Nor does it matter that the complaint does not in so
many words allege violations of the NLRA—if that were
the test, it would be trivial to avoid preemption.18
As we determine the test to be applied here,
there is indeed language in the seminal Garmon case
suggesting courts are to balance interests “deeply rooted
in local feeling”19 verses the federal interest in avoiding
16. Iskanian v. CLS Transp. Los Angeles, LLC, 59 Cal. 4th
348, 382 (2014) (qui tam).
17. Plaintiffs (Opposition at 14-15) are doubtless (and
tautologically) right that, as suggested by Sakkab v. Luxottica
Retail N. Am., Inc., 803 F.3d 425, 439 (9th Cir. 2015), PAGA reflects
the state’s view on how to enforce its labor laws.
18. Cases note that “artful pleading” can’t save a complaint in
these circumstances, e.g., United Airlines, Inc. v. Superior Court,
234 Cal. App. 3d 1085, 1089 (1991), but it wouldn’t take much art
to avoid preemption under plaintiffs’ views.
19. Walmart Stores, Inc. v. United Food & Commercial
Workers Int’l Union, 4 Cal. App. 5th 194, 201 (2016). See also,
see also, Luke v. Collotype Labels USA, Inc., 159 Cal. App. 4th
1463, 1471 (2008).

71a
Appendix C
contamination of the jurisdiction of the NLRB, 20 and so
it is not absurd for plaintiff to urge me to consider how
significant PAGA is to the State. But it is probably futile.
Neither I, nor the parties, know how important (or “deeply
rooted”) it is. 21 And if it were very important, as Google
notes it would still be difficult if not impossible to know
how to handle all roughly 150 different types of labor
claims which PAGA contemplates. Google’s Reply at 8. Do
all PAGA claims survive federal promotion? That surely
proves too much, but plaintiffs offer no principled way to
pare the test.
The Test
Appellate authorities seems to have set out this twostep test: first, decide if the conduct at issue is arguably
20. Employment Litigation at ¶ 15:221, citing Garmon, 359
U.S. at 245.
21. And as we see in Rodriguez v. Yellow Cab Coop., Inc.,
206 Cal. App. 3d 668, 678 (1988), the state may have an interest of
very high significance, indeed of constitutional dimension, and yet
have to accede to federal preemption. Courts do in other contexts
[such as choice of law] have to decide if a state’s law embodies a
fundamental policy, e.g., Nedlloyd Lines B. V. v. Superior Court,
3 Cal. 4th 459, 468 (1992). That test too is somewhat open-ended.
E.g.,. Brack v. Omni Loan Co., 164 Cal. App. 4th 1312, 1323 (2008)
(referring to test that reflects “some fundamental principle of
justice, some prevalent conception of morals, some deep-seated
tradition of the commonweal”); ABF Capital Corp. v. Grove
Properties Co., 126 Cal. App. 4th 204, 217 (2005) (law voiding
nonreciprocal attorney’s fees in contract is fundamental because
it reflects fundamental legislative policy choice; I note this test
could apply to many state statutes).

72a
Appendix C
within the purview of NLRA §§ 7, 8. 22 If so, then secondly
look to a further two part test (which, as we will see,
reduces to one part), i.e. the ‘local interest exception’ which
in effect asks whether
“[f]irst, [if] there existed a significant state interest
in protecting the citizen from the challenged
conduct. Second, [whether] … the exercise of state
jurisdiction over the tort claim entailed little risk
of interference with the regulatory jurisdiction of
the Labor Board. Although the arguable federal
violation and the state tort arose in the same
factual setting, the respective controversies
presented to the state and federal forums would
not have been the same.” (Id. at pp. 196–197, 98
S.Ct. 1745, fn.omitted.).23
Fortunately, given the severe difficulty of ascertaining
whether there is a “significant” state interest, it appears
that this latter two part test reduces to this one:
“‘[W]hether the controversy presented to the state court
is identical to … or different from … that which could have
been, but was not, presented to the Labor Board.”’ 24 We
can call this the ‘identical controversy’ test.
22. Walmart Stores, 4 Cal. App. 5th at 201.
23. Walmart Stores 4 Cal. App. 5th at 203, quoting Sears,
Roebuck & Co. v. San Diego Cty. Dist. Council of Carpenters,
436 U.S. 180 (1978).
24. Walmart Stores 4 Cal. App. 5th at 203–04, quoting Sears,
436 U.S. at 197, and relying on Retail Prop. Trust v. United Bhd.
of Carpenters & Joiners of Am., 768 F.3d 938, 953 (9th Cir. 2014).
Accord, Belknap, Inc. v. Hale, 463 U.S. 491, 510 (1983) (construing
Sears).

73a
Appendix C
Plaintiffs argue that a controversy is not identical as
long as the legal issues (in the state case as compared to
those within the jurisdiction of the NLRB) differ. That,
too, proves too much. 25 Because the specific elements of
state claims will as a group almost always differ from
those of the federal claim, almost every state claim would
pass this test. For example, the issue whether Google’s
policies are unlawful restraints of trade (see the TAC’s
first few causes of action) are not precisely the same as
whether the policies interfere with collective action. So
too with e.g., the 6th cause of action which invokes Labor
Code § 1102.5: inhibiting employees’ right to act as
whistleblowers may not raise the very same legal issues
as restraining communications among employees or their
concerted action. At argument plaintiffs also reiterated
their position that a difference in remedies might permit
the state case to move forward. This position finds support
in Supreme Court authority, but it may not have survived
subsequent opinions. 26
25. There conceivably might be some support for this view.
Gerhardson v. Gopher News Co., 698 F.3d 1052, 1060 (8th Cir. 2012)
(“Garmon preemption applies to Gopher News’ claim precisely
because the federal and state law causes of action are the same.”
From this we might infer that preemption does not apply unless
all the elements of the causes of action (in the two fora) are the
same. But in Gerhardson, the employer (who there was pressing
for court, not NLRB jurisdiction) made the unfortunate strategic
decision to argue the claims were the same in its argument—later
rejected by the court—that no harm would come of litigating the
‘same’ claims in court.)
26. Farmer v. United Bhd. of Carpenters & Joiners of Am.,
Local 25, 430 U.S. 290, 301 (1977) considered the difference in

74a
Appendix C
We know that the fact that cognizable claims in two
jurisdictions have “shared factual allegations” does not
dispose of the issue. 27
If shared factual allegations are not enough, and the
matter cannot be sorted by looking to the congruence of
legal issues, what do we examine?
Walmart Stores proves a few different ways to phrase
the test to determine if controversies are identical: we
might look to the ‘key’ issues to be determined by the trial
court;28 or to the ‘gravamen’ of the claims, or perhaps to
the ultimate facts (in the complaint) to be determined. 29
Some cases have suggested we look to whether the

remedy as a relevant factor of the preemption determination. But
Local 926, Int’l Union of Operating Engineers, AFL-CIO v. Jones,
460 U.S. 669 (1983) did not mention this aspect, and it does not
appear that California’s appellate authorities have used it. See
generally, Ellen C. Nachtigall, “Federal Labor Law Preemption
of State Claims for Tortious Interference with Contract Against
Nonsignatories,” 65 S. Cal. L. Rev. 1675, 1690 (1992).
27. Walmart Stores, 4 Cal. App. 5th at 210.
28. Walmart Stores, 4 Cal. App. 5th at 208. See also id. at 207
(“Garner thus involved a case in which the ‘picketing itself’ was
the controversy of the state court action. (Sears, supra, 436 U.S.
at pp. 192-194, 98 S.Ct. 1745.) In contrast, in Sears, the trespass
action asserted the picketing was unlawful because of where it
was conducted, without regard to the objective, target, or effect
of the picketing”).
29. Walmart Stores, 4 Cal. App. 5th at 208.

75a
Appendix C
conduct at stake in the two fora is the same, 30 but that is
uncomfortably close to a test that looks for shared factual
allegations, which we know from Walmart Stores is not
right.
Both sides have referred me to Presiding Justice
Kline’s opinion in Rodriguez.31 There, the Court first
invoked the Supreme Court’s focus on whether the two
jurisdictions had the same or “discrete concerns.” 32 The
Supreme Court’s language here is of great assistance
in formulating the test. 33 That Court directs us to what
30. E.g., Rhode Island Hosp. Ass’n v. City of Providence
ex rel. Lombardi, 667 F.3d 17.37–38 (1st Cir. 2011) (“Imposing
a minimum standard for a subject that is a mandatory subject
of bargaining is not the same as regulating ‘conduct subject
to regulation by the [NLRB].’ which is the inquiry relevant to
Garmon pre-emption. Id.: see also Brown, 554 U.S. at 69, 128
S.Ct. 2408 (’In NLRA pre-emption cases, ‘judicial concern has
necessarily focused on the nature of the activities which the States
have sought to regulate, rather than on the method of regulation
adopted.”’ (quoting Golden State Transit, 475 U.S. at 614 n. 5, 106
S.Ct. 1395)).”).
31. Rodriguez v. Yellow Cab Coop., Inc., 206 Cal. App. 3d
668 (1988).
32. Farmer v. United Bhd. of Carpenters & Joiners of Am.,
Local 25, 430 U.S. 290. 304 (1977), quoted by Rodriguez, 206 Cal.
App. 3d at 677.
33. Farmer v. United Bhd. of Carpenters & Joiners of Am.,
Local 25, 430 U.S. 290. 304-05 (1977) (“Viewed, however, in light
of the discrete concerns of the federal scheme and the state tort
law. that potential for interference is insufficient to counterbalance
the legitimate and substantial interest of the State in protecting

76a
Appendix C
we might call the ultimate facts to be proved in the two
fora, and to borrow Rodriguez’s language, whether the
“findings” in the state court might conflict with the
NLRB’s findings, and concomitantly whether if plaintiffs
prove a state claim they would have in effect proved “what
is arguably an unfair labor practice.” 34
its citizens. If the charges in Hill’s complaint were filed with the
Board, the focus of any unfair labor practice proceeding would
be on whether the statements or conduct on the part of Union
officials discriminated or threatened discrimination against him
in employment referrals for reasons other than failure to pay
Union dues. See n. 11. supra. Whether the statements or conduct
of the respondents also caused Hill severe emotional distress
and physical injury would play no role in the Board’s disposition
of the case, and the Board could not award Hill damages for
pain, suffering, or medical expenses. Conversely, the statecourt tort action can be adjudicated without resolution of the
‘merits’ of the underlying labor dispute. Recovery for the tort of
emotional distress under California law requires proof that the
defendant intentionally engaged in outrageous conduct causing
the plaintiff to sustain mental distress. State Rubbish Collectors
Assn. v. Siliznoff, 38 Cal.2d 330, 240 P.2d 282 (1952);Alcorn v.
Anbro Engineering, Inc., 2 Cal.3d 493. 86 Cal.Rptr. 88, 468 P.2d
216 (1970). The state court need not consider, much less resolve,
whether a union discriminated or threatened to discriminate
against an employee in terms of employment opportunities. To the
contrary, the tort action can be resolved without reference to any
accommodation of the special interests of unions and members in
the hiring hall context.”)
34. Rodriguez, 206 Cal. App. 3d at 678. The same test was
used in Kelecheva v. Multivision Cable T.V. Corp., 18 Cal. App.
4th 521, 528 (1993) (“defendant’s retaliatory conduct, if proven,
would constitute a violation by defendant of section 8. subdivision
(a)(1). of the NLRA”).

77a
Appendix C
But the test appears broader than this suggests, that
is, it actually takes less to meet the “identical controversy”
standard. In reasoning very close to the “key issue” test in
Walmart Stores, we come to rest on the “crucial element”
test. In Jones, the crucial element was causation. 35 That
was me “fundamental part” of the claims. 36 That is, we
need not have congruence of all elements or every ultimate
fact of the claims, but of the crucial element or elements of
them. As I say, the crucial element test is broad, blocking
many state claims. 37 This is consistent with Rodriguez,
because a finding on such a crucial element will conflict
with a potential Board finding.
Application of the Test
A.
First we look to whether the conduct described in
the state court complaint is arguably within the purview
of the NLRB. We recall “that lawsuits relating to labor
matters are generally preempted by section 7.” 38 As
35. Local 926, Int’l Union of Operating Engineers, AFL-CIO
v. Jones, 460 U.S. 669, 683 (1983).
36. Hillhaven Oakland Nursing etc. Ctr. v. Health Care
Workers Union, 41 Cal. App. 4th 846, 856 (1996), construing and
quoting Jones.
37. Ellen C. Nachtigall, “Federal Labor Law Preemption
of State Claims for Tortious Interference with Contract Against
Nonsignatories,” 65 S. Cal. L. Rev. 1675, 1688 (1992).
38. Rodriguez v. Yellow Cab Coop., Inc., 206 Cal. App. 3d 668,
675–76 (1988). The scope here is broad, shielding employers from

78a
Appendix C
alleged in the TAC, the policies it describes are conditions
of employment. E.g., TAC ¶ 144. Here, activity described
in the first 17 causes of action are all arguably within the
purview of the NLRB. The fact that the NLRB is actively
pursuing a case on the policies the subject of this suit
support the finding that all these claims are arguably
within the purview of the Board.
1. 	Restraints on trade and non-compete – Counts
1–3
The TAC alleges that the nondisclosure agreements
and policies that defendants require employees to agree
to in writing unlawfully restrain trade. Defendants do
this by prohibiting the use or disclosure of information
that is not confidential as a matter of law—information
regarding general business practices, readily available
customer information, working conditions, wages, and
potential violations of the law. TAC ¶¶ 106, 111. As a result,
employees are unable to use this information for purposes
of competition, or finding new work. Id. Adecco also
prohibits its employees from working directly for Google
without its consent, through the use of a non-compete
restrictive covenant. TAC ¶ 115. The polices assertedly
suit regarding many practices because the NLRB may or may
not ever address the practices preempted from court scrutiny.
Henry H. Drummonds, “Reforming Labor Law by Reforming
Labor Law Preemption Doctrine to Allow the States to Make More
Labor Relations Policy,” 70 La . L. Rev. 97, 170 (2009). For what
it’s worth, the concern that conduct will escape all scrutiny is in
great part obviated because here, the Board has filed a complaint
on the matters.

79a
Appendix C
block discussions of an employee’s own wages, and those
of other employees, TAC ¶ 106, 111. These policies “can
be reasonably seen as affecting the terms or conditions of
employment,”39 as well as employees’ ability to prepare for
an engage in concerted action. When it is not clear that
a particular activity is governed by the NLRA, “[i]t is
essential to the administration of [the NLRA] that these
determinations be left in the first instance to the National
Labor Relations Board.40
2.

Whistleblowing – Counts 4–8, 10, 12

The TAC alleges that the confidentiality agreements
and policies prohibit employees from disclosing any
potential violations of the law, both within Google (e.g.
to a Google attorney) and to the government or law
enforcement. It is arguable that whistleblowing is a
protected concerted activity for purposes of the NLRA.
Disclosing information about potential violations of the
law clearly affects the conditions of employment, and is
a matter of common concern. Whistleblowing as to an
employer’s unlawful practices or policies, which are at
issue here, is arguably on behalf of all employees who
are subject to those practices and policies, not just the
individual whistleblower. This is arguably related to group
action for “mutual aid or protection” of other employees,
29 U.S.C. § 157.

39. Yurosek, 53 F. 3d at 265.
40. Garmon, 359 U.S. at 244–45.

80a
Appendix C
3. 	Disclosing or discussing working conditions
and wages – Counts 9, 11, 13, 16–17
The TAC alleges that as a condition of employment,
employees are prohibited from disclosing information
about Google or Adecco working conditions. TAC ¶ 138,
160, 163. “Discussions among employees regarding their
working conditions have been held to be protected activity
under the NLRA.”41
The TAC alleges that as a condition of employment,
employees are prohibited from disclosing their own wages,
or discussing or inquiring about others’ wages. TAC
¶¶ 144, 150, 163. The right to discuss wages is a concerted
activity protected under the NLRA.42
4. 	Restraint on lawful conduct during non-work
hours – Counts 14, 15
The TAC alleges that the confidentiality agreements
and policies make it a dischargeable offense for employees
to disclose information about their work or any potential
violations of the law that occur at work—all of which is lawful
conduct. TAC ¶¶ 153, 157. The provisions of section 7 and 8
“prevent discharge or other employer retaliation for engaging
in concerted activities for mutual aid or protection.”43 As
41. Luke at 1470.
42. Grant-Burton v. Covenant Care, Inc., 99 Cal. App. 4th
1361, 1372 (2002), citing NLRB v. Brookshire Grocery Co., 919 F.
2d 359, 362 (5th Cir. 1990).
43. NLRB v. Modern Carpet Industries, Inc., 611 F. 2d 811,
813 (10th Cir. 1979).

81a
Appendix C
disclosure of business practices, working conditions, wages,
and potential violations of law are all arguably concerted
activities, employer retaliation or termination of employment
for engaging in such activities is prohibited by the NLRA.
B.
Next we turn to whether a crucial element of the
state claims would be material to an NLRB case. The
issue is far simpler to address in this case than in others,
because here we have an NLRB complaint which attacks
the same policies at issue in the state case. The most
significant allegation in the TAC is that Google has the
alleged policies, with the restrictive impact alleged. The
NLRB will doubtless address exactly the same issues. To
be sure, the Board is primarily concerned with the impact
of these policies on the ability of the employees to engage
in concerted action, e.g. Complaint at 12 et seq., and the
TAC is not. But the inhibiting or restrictive effect of the
policies is common, and that effect is a crucial element in
this state court litigation.
Count 18
Finally, Google contends that the TAC improperly
combines Google and Adecco together as “defendants”
without asserting with particularity which allegations are
against which entity. MPA at 18. Not so. The TAC clearly
separates Google’s confidentiality agreements and policies
from Adecco’s. Compare TAC ¶¶ 35–43 with id. ¶¶ 44–53.
The agreements and policies for Google and Adecco
similarly declare everything related to employment to be
confidential. See, e.g., id. ¶¶ 38, 46.

82a
Appendix C
It is sufficiently clear which allegations pertain to
Google and which pertain to Adecco. This claim is not
impermissibly vague or confusing.
Conclusion
Google’s demurrers to the first 17 causes of action are
sustained without leave to amend. The demurrer to the
18gth cause of action is overruled.
Adecco has a motion to stay pending, based on the
asserted priority of a similar case in state court in San
Mateo. The parties’ views on how to proceed against all
defendants on the 18gth cause of action, and against Adecco
generally, may be impacted by the determination of this
order, and thus I set a case management conference (CMC)
for July 19, 2017 at 2:00 p.m. in order to discuss next
steps, and specifically whether Adecco wishes me to rule
on its stay motion as is, or some modification of it, and the
parties’ views on how to handle the 18th cause of action.
The parties must present the results of their conference
on these issues, including which causes of action plaintiffs
wish to pursue against Adecco, in the required joint CMC
statement.
Dated: June 27, 2017
/s/				
Curtis E.A. Karnow
Judge of The Superior Court

83a
AppendixOF
D THE SUPERIOR
APPENDIX D — OPINION
COURT OF CALIFORNIA, COUNTY OF SAN
FRANCISCO, FILED NOVEMBER 7, 2017
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
Case No. CGC-16-556034
JOHN DOE, et al.,
Plaintiffs,
vs.
GOOGLE, INC., et al.,
Defendants.
ORDER SUSTAINING DEMURRERS
Adecco’s demurrer to the Third Amended Complaint
was sustained on the basis that allegedly unlawful
activities found in both Google’s and Adecco’s policies
and agreements were “concerted activities” under the
National Labor Relations Act (NLRA) and that plaintiffs’
claims were preempted by the NLRA. Order Sustaining in
Part with Leave to Amend (Order Re Adecco Demurrer,
entered Sep. 14, 2017) at 3. Plaintiffs claimed that they
could “untether” plaintiff Paola Correa’s (the only plaintiff
who worked for Adecco) claims from Google’s policies, and
focus on Adecco’s policies and agreements, and allege them

84a
Appendix D
in such a way that the Court can determine whether those
policies and agreements are unlawful without making any
decision as to their restrictive impact, which is within the
purview of the National Labor Relations Board (NLRB).
Id. at 4.
Adecco now demurs to the Fourth Amended Complaint
(4AC) on the basis that the complaint still does not bring
its claims against Adecco outside of the jurisdiction of the
NLRB. I heard argument today.
Request For Judicial Notice
Plaintiffs request judicial notice of (1) several court
filings in the Moniz v. Adecco USA, Inc. matter in San
Mateo County (RFJN Ex. 1– 6); (2) Correa’s PAGA
notice to the LWDA, filed on October 10, 2017 (id. Ex. 7);
(3) various federal documents including SEC Orders,
and Executive Order, Department of Labor Order, and
an Equal Employment Opportunity Commission plan
(id. Ex. 8–12); and (4) a redline document comparing the
Third Amended Complaint to the 4AC. Adecco objects to
all but the redline document.
The Moniz documents, PAGA notice, and federal
documents are not relevant or helpful to the determination
of the demurrer. These requests are denied.
The redline comparison of the complaints helps clarify
what new allegations were added as to Adecco, but judicial
notice is not appropriate under Evidence Code § 452(c). A
mere comparison does not offer “facts and propositions

85a
Appendix D
that are not reasonably subject to dispute and are capable
of immediate and accurate determination.” However, I
have referred to this item as a useful adjunct to the briefs.
“Employee’’
The NLRA defines an “employee” to include “any
individual whose work has ceased as a consequence of, or
in connection with, any current labor dispute or because
of any unfair labor practice, and who has not obtained any
other regular and substantially equivalent employment.”
29 U.S.C. § 152(3). Plaintiffs indicated that they could
amend to allege that Correa was not terminated for any
of the above reasons, and therefore her claims would fall
outside of the jurisdiction of the NLRB.1 Order Re Adecco
Demurrer at 3.
Despite alleging that Adecco has refused to state why
Correa was terminated, the complaint also alleges that
Correa was terminated, “[a]mong other things,” because
she is a Latina woman, and for “inform[ing] someone
outside of Google that she worked for Google (which she
did) and for disclosing so-called ‘confidential information’
(which was not confidential) to someone outside of Google.”
4AC ¶ 28. Plaintiffs allege that Correa was not terminated
in connection with a labor dispute or because of an unfair
labor practice. Id. ¶ 35. As such, she is “inarguably”
outside the coverage of the NLRA. Id.
1. Plaintiffs also attempted to argue again that former
employees are outside of the NLRA’s jurisdiction. Opposition at 7.
I have considered and rejected this. Order Sustaining in Part with
Leave to Amend (entered Sep. 14, 2017) at 2–3.

86a
Appendix D
Plaintiffs’ allegation that Correa “was not terminated
for conduct that was arguably protected or prohibited by
the [NLRA] . . . . or as a consequence of, or in connection
with, a labor dispute” is conclusory. 4AC ¶ 32. Moreover,
such an allegation does not comport with the basic premise
of the complaint, which is that defendants subject their
current and former employees to policies and agreements
that unduly restrict, among other things, freedom of
speech and threaten to discharge employees who disclose
confidential information. See id. ¶¶ 43, 45, 115a. These are
all alleged to be unfair labor practices in violation of the
California Labor Code. Id. ¶ 12. Even if the allegation
that Correa was terminated because of her ethnicity and
gender were taken as well-pled, the other allegations
of unfair labor practices—the heart of the complaint—
cannot be ignored. Blank, 39 Cal. 3d at 318 (“[W]e give
the complaint a reasonable interpretation, reading it as a
whole and its parts in their context.”).
Correa is an “employee” within the definition of the
NLRA.
Claims Against Adecco
Plaintiffs indicated they could amend their complaint
to untether the Adecco claims from the Google claims. The
4AC alleges eight causes of action against Adecco (counts
16–23). Count 23 is the PAGA claim against all defendants.
Count 16 is patently tethered to the Google claims. It
specifically incorporates the claims against Google and
applies them to Adecco. 4AC ¶¶ 184–85.

87a
Appendix D
Count 17 alleges that Adecco’s confidentiality
agreements and policies restrain the constitutional right to
free speech during non-work hours and off the employer’s
premises. 4AC ¶ 186. Counts 18 and 19 allege that Adecco’s
confidentiality agreements and policies prohibit employees
from disclosing and discussing information about wages
and working conditions. Id. ¶¶ 190, 194. Count 20 alleges
that Adecco’s confidentiality agreements and policies
prohibit employees from reporting any violations of the
law. Id. ¶ 200. I have previously found all of these constitute
activities prohibited by the NLRA. Order Sustaining in
Part and Overruling in Part Google’s Demurrers (Order
Re Google Demurrer) (entered June 27, 2017) at 12-13.
Counts 17 through 20 are preempted.
Count 21 alleges that Adecco requires its employees
to agree to a confidentiality agreement and other
writings that (1) prohibits whistleblowing (id. ¶¶ 204b–c),
(2) restraints trade and competition (id. ¶ 204f–f[sic]),
(3) prohibits disclosing or discussing working conditions
and wages (id. ¶¶ 204g-h), and (4) restrains lawful conduct
during non-work hours (id. ¶ 204j). The confidentiality
agreement and other writings also prohibit employees
from seeking full time work with an Adecco client (id.
¶ 204d), asking an Adecco client why their assignment
ended (id. ¶ 204e), or identifying their Adecco client
employer on social media (id. ¶ 204i).
Activities (1) through (4) above are preempted,
as discussed. Seeking future work, finding out why
employment was terminated, and publicly disclosing an
employer are all arguably concerted activities protected

88a
Appendix D
by the NLRA. Such activities can be “reasonably seen as
affecting the terms or conditions of employment.” NLRB
v. Mike Yurosek & Son, Inc., 53 F. 3d 261, 265 (9th Cir.
1995). An employee who engages in such activities could
arguably be seen as acting with or on behalf of other
employees. Id. at 264 (“To be engaged in ‘concerted
activity,’ an employee must act with or on behalf of other
employees, and not solely by and on behalf of the . . .
employee himself . . . . If a single employee, acting alone,
participates in an integral aspect of a collective process,
the activity may nonetheless be considered ‘concerted’
for purposes of the [NLRA].”). At any rate, when it is not
clear that a particular activity is governed by the NLRA,
“[i]t is essential to the administration of [the NLRA] that
these determinations be left in the first instance to the
National Labor Relations Board.” San Diego Bldg. Trades
Council v. Garmon, 359 U.S. 236, 244–45 (1959).
Count 21 also alleges that Adecco’s confidentiality
agreement and other writings fail to include the notice
required by the Defend Trade Secrets Act. 4AC ¶ 204a.
The Defend Trade Secrets Act requires an employer to give
employees notice that he/she will not be held criminally
or civilly liable for disclosure of a trade secret that is
made in confidence to a government official or attorney,
for the purpose of reporting or investigating a suspected
violation of the law. 4AC ¶ 44; 18 U.S.C. § 1833(b)(3). The
complaint alleges that Adecco’s confidentiality agreements
inform employees that they cannot disclose confidential
information to anyone. Id. ¶ 45. This is therefore a claim
that is related to a restriction on whistleblowing, id. ¶ 146,
which I held was concerted activity covered by the NLRA.
See Order Re Google Demurrer at 12.

89a
Appendix D
Count 22 alleges that Adecco’s confidentiality
agreements and policies constitute unfair and unlawful
business practices in violation of the Unfair Competition
Law. 4AC ¶ 209. Those unfair and unlawful business
practices alleged are all concerted activities covered by
the NLRA and within the purview of the NLRB.
Count 23 is the PAGA claim. Plaintiffs argue that the
NLRA does not preempt PAGA causes of action. Opposition
at 5– 6. I have previously rejected plaintiffs’ PAGA
arguments. Order Re Google Demurrer at 6–7. Plaintiffs
also contend that the NLRA’s purpose is unrelated to local
or federal regulations protecting individual employees.
Opposition at 5-6 (citing Fort Halifax Packing Co., Inc.
v. Coyne, 482 U.S. 1, 20–21 (1987)). This may be true as
to the overarching purpose of PAGA, but not necessarily
true as it relates to the underlying claims the subject of the
PAGA action. In any event states may not “provid[e] their
own regulatory or judicial remedies for conduct prohibited
or arguably prohibited by the [NLRA].” Wisconsin Dept.
of Industry v. Gould, Inc., 475 U.S. 282, 286 (1986) (citing
Garmon, 359 U.S. at 247).
Crucial Element Test
Plaintiffs disagree with the “crucial element test”
applied in the Order Re Google Demurrer. But regardless
of the precise test to be used, it is not clear that a finding
in state court that Adecco was engaged in the alleged
illegal activity would not conflict with a NLRB finding
that such activity constitutes an unfair labor practice in
violation of the NLRA. My Order Re Google Demurrer

90a
Appendix D
already considered activities including signing of unlawful
non-compete agreements and prohibiting whistleblowing
and disclosure or discussion of work to satisfy the crucial
element test. Order Re Google Demurrer at 13–14. In fact,
these are the same issues that the NLRB will address on
Google’s alleged policies. That there is no pending NLRA
case relating to Adecco is irrelevant. Sears v. San Diego
County Dist. Council of Carpenters, 436 U.S. 180, 197
(1977). Even where no controversy is presented to the
NLRB, there could still be a risk of interference with the
NLRB’s jurisdiction. Id.
Conclusion
The demurrers are sustained without leave, but at
the argument plaintiffs’ counsel desired to file a further
amended complaint to allege claims based on a harassment
policies. A new amended complaint must be served and
filed not later than November 21, 2018.
Dated: November 7, 2017
Curtis E.A. Karnow
Judge of the Superior Court

91a
E STATUTORY
Appendix E —Appendix
RELEVANT
PROVISIONS
29 U.S.C. § 157
§ 157. Rights of employees as to organization, collective
bargaining, etc.
Employees shall have the right to self-organization,
to form, join, or assist labor organizations, to bargain
collectively through representatives of their own choosing,
and to engage in other concerted activities for the purpose
of collective bargaining or other mutual aid or protection,
and shall also have the right to refrain from any or all of
such activities except to the extent that such right may be
affected by an agreement requiring membership in a labor
organization as a condition of employment as authorized
in section 158(a)(3) of this title.
(July 5, 1935, ch. 372, §7, 49 Stat. 452; June 23, 1947, ch.
120, title I, §101, 61 Stat. 140.)
Amendments
1947—Act June 23, 1947, restated rights of employees to
bargain collectively and inserted provision that they have
right to refrain from joining in concerted activities with
their fellow employees.
Effective Date of 1947 Amendment
For effective date of amendment by act June 23, 1947, see
section 104 of act June 23, 1947, set out as a note under
section 151 of this title.

92a
Appendix E
29 U.S.C. § 158
§ 158. Unfair labor practices
(a) Unfair labor practices by employer
It shall be an unfair labor practice for an employer—
(1) to interfere with, restrain, or coerce employees in the
exercise of the rights guaranteed in section 157 of this
title;
(2) to dominate or interfere with the formation or
administration of any labor organization or contribute
financial or other support to it: Provided, That subject to
rules and regulations made and published by the Board
pursuant to section 156 of this title, an employer shall not
be prohibited from permitting employees to confer with
him during working hours without loss of time or pay;
(3) by discrimination in regard to hire or tenure of
employment or any term or condition of employment
to encourage or discourage membership in any labor
organization: Provided, That nothing in this subchapter,
or in any other statute of the United States, shall preclude
an employer from making an agreement with a labor
organization (not established, maintained, or assisted
by any action defined in this subsection as an unfair
labor practice) to require as a condition of employment
membership therein on or after the thirtieth day following
the beginning of such employment or the effective date
of such agreement, whichever is the later, (i) if such labor
organization is the representative of the employees as

93a
Appendix E
provided in section 159(a) of this title, in the appropriate
collective-bargaining unit covered by such agreement
when made, and (ii) unless following an election held as
provided in section 159(e) of this title within one year
preceding the effective date of such agreement, the
Board shall have certified that at least a majority of the
employees eligible to vote in such election have voted to
rescind the authority of such labor organization to make
such an agreement: Provided further, That no employer
shall justify any discrimination against an employee
for nonmembership in a labor organization (A) if he has
reasonable grounds for believing that such membership
was not available to the employee on the same terms and
conditions generally applicable to other members, or (B) if
he has reasonable grounds for believing that membership
was denied or terminated for reasons other than the
failure of the employee to tender the periodic dues and
the initiation fees uniformly required as a condition of
acquiring or retaining membership;
(4) to discharge or otherwise discriminate against an
employee because he has filed charges or given testimony
under this subchapter;
(5) to refuse to bargain collectively with the representatives
of his employees, subject to the provisions of section 159(a)
of this title.
(b) Unfair labor practices by labor organization
It shall be an unfair labor practice for a labor organization
or its agents—

94a
Appendix E
(1) to restrain or coerce (A) employees in the exercise of
the rights guaranteed in section 157 of this title: Provided,
That this paragraph shall not impair the right of a labor
organization to prescribe its own rules with respect to
the acquisition or retention of membership therein; or
(B) an employer in the selection of his representatives for
the purposes of collective bargaining or the adjustment
of grievances;
(2) to cause or attempt to cause an employer to discriminate
against an employee in violation of subsection (a)(3) of this
section or to discriminate against an employee with respect
to whom membership in such organization has been denied or
terminated on some ground other than his failure to tender
the periodic dues and the initiation fees uniformly required
as a condition of acquiring or retaining membership;
(3) to refuse to bargain collectively with an employer,
provided it is the representative of his employees subject
to the provisions of section 159(a) of this title;
(4)
(i) to engage in, or to induce or encourage any individual
employed by any person engaged in commerce or in
an industry affecting commerce to engage in, a strike
or a refusal in the course of his employment to use,
manufacture, process, transport, or otherwise handle or
work on any goods, articles, materials, or commodities
or to perform any services; or (ii) to threaten, coerce,
or restrain any person engaged in commerce or in an
industry affecting commerce, where in either case an
object thereof is—

95a
Appendix E
(A) forcing or requiring any employer or self-employed
person to join any labor or employer organization or to
enter into any agreement which is prohibited by section
(e) of this section;
(B) forcing or requiring any person to cease using, selling,
handling, transporting, or otherwise dealing in the products
of any other producer, processor, or manufacturer, or to
cease doing business with any other person, or forcing or
requiring any other employer to recognize or bargain with
a labor organization as the representative of his employees
unless such labor organization has been certified as the
representative of such employees under the provisions of
section 159 of this title: Provided, That nothing contained in
this clause (B) shall be construed to make unlawful, where
not otherwise unlawful, any primary strike or primary
picketing;
(C) forcing or requiring any employer to recognize
or bargain with a particular labor organization as
the representative of his employees if another labor
organization has been certified as the representative of
such employees under the provisions of section 159 of this
title;
(D) forcing or requiring any employer to assign particular
work to employees in a particular labor organization or in
a particular trade, craft, or class rather than to employees
in another labor organization or in another trade, craft,
or class, unless such employer is failing to conform to
an order or certification of the Board determining the
bargaining representative for employees performing such
work:

96a
Appendix E
Provided, That nothing contained in this subsection shall
be construed to make unlawful a refusal by any person
to enter upon the premises of any employer (other than
his own employer), if the employees of such employer are
engaged in a strike ratified or approved by a representative
of such employees whom such employer is required to
recognize under this Act: Provided further, That for the
purposes of this paragraph (4) only, nothing contained in
such paragraph shall be construed to prohibit publicity,
other than picketing, for the purpose of truthfully advising
the public, including consumers and members of a labor
organization, that a product or products are produced
by an employer with whom the labor organization has a
primary dispute and are distributed by another employer,
as long as such publicity does not have an effect of inducing
any individual employed by any person other than the
primary employer in the course of his employment to
refuse to pick up, deliver, or transport any goods, or not to
perform any services, at the establishment of the employer
engaged in such distribution;
(5) to require of employees covered by an agreement
authorized under subsection (a)(3) of this section the
payment, as a condition precedent to becoming a member
of such organization, of a fee in an amount which the
Board finds excessive or discriminatory under all the
circumstances. In making such a finding, the Board shall
consider, among other relevant factors, the practices and
customs of labor organizations in the particular industry,
and the wages currently paid to the employees affected;

97a
Appendix E
(6) to cause or attempt to cause an employer to pay or
deliver or agree to pay or deliver any money or other thing
of value, in the nature of an exaction, for services which
are not performed or not to be performed; and
(7) to picket or cause to be picketed, or threaten to picket
or cause to be picketed, any employer where an object
thereof is forcing or requiring an employer to recognize
or bargain with a labor organization as the representative
of his employees, or forcing or requiring the employees
of an employer to accept or select such labor organization
as their collective bargaining representative, unless
such labor organization is currently certified as the
representative of such employees:
(A) where the employer has lawfully recognized in
accordance w ith this subchapter any other labor
organization and a question concerning representation
may not appropriately be raised under section 159(c) of
this title,
(B) where within the preceding twelve months a valid
election under section 159(c) of this title has been
conducted, or
(C) where such picketing has been conducted without a
petition under section 159(c) of this title being filed within
a reasonable period of time not to exceed thirty days from
the commencement of such picketing: Provided, That when
such a petition has been filed the Board shall forthwith,
without regard to the provisions of section 159(c)(1) of this
title or the absence of a showing of a substantial interest

98a
Appendix E
on the part of the labor organization, direct an election in
such unit as the Board finds to be appropriate and shall
certify the results thereof: Provided further, That nothing
in this subparagraph (C) shall be construed to prohibit any
picketing or other publicity for the purpose of truthfully
advising the public (including consumers) that an employer
does not employ members of, or have a contract with, a
labor organization, unless an effect of such picketing is
to induce any individual employed by any other person in
the course of his employment, not to pick up, deliver or
transport any goods or not to perform any services.
Nothing in this paragraph (7) shall be construed to permit
any act which would otherwise be an unfair labor practice
under this subsection.
(c) Expression of views without threat of reprisal or
force or promise of benefit
The expressing of any views, argument, or opinion, or
the dissemination thereof, whether in written, printed,
graphic, or visual form, shall not constitute or be evidence
of an unfair labor practice under any of the provisions of
this subchapter, if such expression contains no threat of
reprisal or force or promise of benefit.
(d) Obligation to bargain collectively
For the purposes of this section, to bargain collectively
is the performance of the mutual obligation of the
employer and the representative of the employees to
meet at reasonable times and confer in good faith with

99a
Appendix E
respect to wages, hours, and other terms and conditions
of employment, or the negotiation of an agreement, or
any question arising thereunder, and the execution of a
written contract incorporating any agreement reached
if requested by either party, but such obligation does not
compel either party to agree to a proposal or require the
making of a concession: Provided, That where there is in
effect a collective-bargaining contract covering employees
in an industry affecting commerce, the duty to bargain
collectively shall also mean that no party to such contract
shall terminate or modify such contract, unless the party
desiring such termination or modification—
(1) serves a written notice upon the other party to the
contract of the proposed termination or modification sixty
days prior to the expiration date thereof, or in the event
such contract contains no expiration date, sixty days prior
to the time it is proposed to make such termination or
modification;
(2) offers to meet and confer with the other party for
the purpose of negotiating a new contract or a contract
containing the proposed modifications;
(3) notifies the Federal Mediation and Conciliation Service
within thirty days after such notice of the existence of a
dispute, and simultaneously therewith notifies any State
or Territorial agency established to mediate and conciliate
disputes within the State or Territory where the dispute
occurred, provided no agreement has been reached by
that time; and

100a
Appendix E
(4) continues in full force and effect, without resorting
to strike or lock-out, all the terms and conditions of the
existing contract for a period of sixty days after such
notice is given or until the expiration date of such contract,
whichever occurs later:
The duties imposed upon employers, employees, and
labor organizations by paragraphs (2) to (4) shall become
inapplicable upon an intervening certification of the Board,
under which the labor organization or individual, which is
a party to the contract, has been superseded as or ceased
to be the representative of the employees subject to the
provisions of section 159(a) of this title, and the duties so
imposed shall not be construed as requiring either party
to discuss or agree to any modification of the terms and
conditions contained in a contract for a fixed period, if such
modification is to become effective before such terms and
conditions can be reopened under the provisions of the
contract. Any employee who engages in a strike within any
notice period specified in this subsection, or who engages
in any strike within the appropriate period specified in
subsection (g) of this section, shall lose his status as an
employee of the employer engaged in the particular labor
dispute, for the purposes of sections 158, 159, and 160 of
this title, but such loss of status for such employee shall
terminate if and when he is reemployed by such employer.
Whenever the collective bargaining involves employees of
a health care institution, the provisions of this subsection
shall be modified as follows:
(A) The notice of paragraph (1) of this subsection shall
be ninety days; the notice of of paragraph (3) of this

101a
Appendix E
subsection shall be sixty days; and the contract period of
of paragraph (4) of this subsection shall be ninety days.
(B) Where the bargaining is for an initial agreement
following certification or recognition, at least thirty days’
notice of the existence of a dispute shall be given by the
labor organization to the agencies set forth in of paragraph
(3) of this subsection.
(C) After notice is given to the Federal Mediation and
Conciliation Service under either clause (A) or (B) of this
sentence, the Service shall promptly communicate with
the parties and use its best efforts, by mediation and
conciliation, to bring them to agreement. The parties shall
participate fully and promptly in such meetings as may
be undertaken by the Service for the purpose of aiding
in a settlement of the dispute.
(e) Enforceability of contract or agreement to boycott
any other employer; exception
It shall be an unfair labor practice for any labor
organization and any employer to enter into any contract
or agreement, express or implied, whereby such employer
ceases or refrains or agrees to cease or refrain from
handling, using, selling, transporting or otherwise dealing
in any of the products of any other employer, or to cease
doing business with any other person, and any contract or
agreement entered into heretofore or hereafter containing
such an agreement shall be to such extent unenforcible1
1. So in original. Probably should be “unenforceable”.

102a
Appendix E
and void: Provided, That nothing in this subsection shall
apply to an agreement between a labor organization and
an employer in the construction industry relating to the
contracting or subcontracting of work to be done at the
site of the construction, alteration, painting, or repair of
a building, structure, or other work: Provided further,
That for the purposes of this subsection and subsection
(b)(4)(B) of this section the terms “any employer”, “any
person engaged in commerce or an industry affecting
commerce”, and “any person” when used in relation to the
terms “any other producer, processor, or manufacturer”,
“any other employer”, or “any other person” shall not
include persons in the relation of a jobber, manufacturer,
contractor, or subcontractor working on the goods or
premises of the jobber or manufacturer or performing
parts of an integrated process of production in the apparel
and clothing industry: Provided further, That nothing
in this subchapter shall prohibit the enforcement of any
agreement which is within the foregoing exception.
(f) Agreement covering employees in the building and
construction industry
It shall not be an unfair labor practice under subsections (a)
and (b) of this section for an employer engaged primarily
in the building and construction industry to make an
agreement covering employees engaged (or who, upon
their employment, will be engaged) in the building and
construction industry with a labor organization of which
building and construction employees are members (not
established, maintained, or assisted by any action defined
in subsection (a) of this section as an unfair labor practice)

103a
Appendix E
because (1) the majority status of such labor organization
has not been established under the provisions of section
159 of this title prior to the making of such agreement, or
(2) such agreement requires as a condition of employment,
membership in such labor organization after the seventh
day following the beginning of such employment or the
effective date of the agreement, whichever is later, or (3)
such agreement requires the employer to notify such labor
organization of opportunities for employment with such
employer, or gives such labor organization an opportunity
to refer qualified applicants for such employment, or (4)
such agreement specifies minimum training or experience
qualifications for employment or provides for priority in
opportunities for employment based upon length of service
with such employer, in the industry or in the particular
geographical area: Provided, That nothing in this
subsection shall set aside the final proviso to section (a)
(3) of this section: Provided further, That any agreement
which would be invalid, but for clause (1) of this subsection,
shall not be a bar to a petition filed pursuant to section
159(c) or 159(e) of this title.
(g) Notification of intention to strike or picket at any
health care institution
A labor organization before engaging in any strike,
picketing, or other concerted refusal to work at any
health care institution shall, not less than ten days prior
to such action, notify the institution in writing and the
Federal Mediation and Conciliation Service of that
intention, except that in the case of bargaining for an
initial agreement following certification or recognition

104a
Appendix E
the notice required by this subsection shall not be given
until the expiration of the period specified in clause (B)
of the last sentence of subsection (d) of this section. The
notice shall state the date and time that such action will
commence. The notice, once given, may be extended by
the written agreement of both parties.
(July 5, 1935, ch. 372, §8, 49 Stat. 452; June 23, 1947, ch.
120, title I, §101, 61 Stat. 140; Oct. 22, 1951, ch. 534, §1(b),
65 Stat. 601; Pub. L. 86–257, title II, §201(e), title VII,
§§704(a)–(c), 705(a), Sept. 14, 1959, 73 Stat. 525, 542–545;
Pub. L. 93–360, §1(c)–(e), July 26, 1974, 88 Stat. 395, 396.)
Amendments
1974—Subsec. (d). Pub. L. 93–360, §1(c), (d), substituted
“any notice” for “the sixty-day” and inserted “, or who
engages in any strike within the appropriate period
specified in subsection (g) of this section,” in loss-ofemployee-status provision and inserted enumeration of
modifications to this subsection which are to be applied
whenever the collective bargaining involves employees of
a health care institution.
Subsec. (g). Pub. L. 93–360, §1(e), added subsec. (g).
1959—Subsec. (a)(3). Pub. L. 86–257, §201(e), struck out
“and has at the time the agreement was made or within
the preceding twelve months received from the Board a
notice of compliance with sections 159(f), (g), (h) of this
title” after “such agreement when made” in cl. (i).

105a
Appendix E
Subsec. (b)(4). Pub. L. 86–257, §704(a), among other
changes, substituted “induce or encourage any individual
employed by any person engaged in commerce or in an
industry affecting commerce to engage in, a strike or
a refusal in the course of his employment” for “induce
or encourage the employees of any employer to engage
in, a strike or a concerted refusal in the course of their
employment” in cl. (i), added cl. (ii), and inserted provisions
relating to agreements prohibited by subsection (e) of this
section in cl. (A), the proviso relating to primary strikes
and primary picketing in cl. (B), and the last proviso
relating to publicity.
Subsec. (b)(7). Pub. L. 86–257, §704(c), added par. (7).
Subsec. (e). Pub. L. 86–257, §704(b), added subsec. (e).
Subsec. (f). Pub. L. 86–257, §705(a), added subsec. (f).

106a
Appendix E
Cal. Lab. Code § 2698
This part shall be known and may be cited as the Labor
Code Private Attorneys General Act of 2004.

107a
Appendix E
Cal. Lab. Code § 2699
(a) Notwithstanding any other provision of law, any
provision of this code that provides for a civil penalty to
be assessed and collected by the Labor and Workforce
Development Agency or any of its departments, divisions,
commissions, boards, agencies, or employees, for a
violation of this code, may, as an alternative, be recovered
through a civil action brought by an aggrieved employee
on behalf of himself or herself and other current or former
employees pursuant to the procedures specified in Section
2699.3.
(b) For purposes of this part, “person” has the same
meaning as defined in Section 18.
(c) For purposes of this part, “aggrieved employee” means
any person who was employed by the alleged violator and
against whom one or more of the alleged violations was
committed.
(d) For purposes of this part, “cure” means that the
employer abates each violation alleged by any aggrieved
employee, the employer is in compliance with the
underlying statutes as specified in the notice required by
this part, and any aggrieved employee is made whole. A
violation of paragraph (6) or (8) of subdivision (a) of Section
226 shall only be considered cured upon a showing that the
employer has provided a fully compliant, itemized wage
statement to each aggrieved employee for each pay period
for the three-year period prior to the date of the written
notice sent pursuant to paragraph (1) of subdivision (c) of

108a
Appendix E
Section 2699.3.
(e)
(1) For purposes of this part, whenever the Labor
and Workforce Development Agency, or any of its
departments, divisions, commissions, boards, agencies, or
employees, has discretion to assess a civil penalty, a court
is authorized to exercise the same discretion, subject to the
same limitations and conditions, to assess a civil penalty.
(2) In any action by an aggrieved employee seeking
recovery of a civil penalty available under subdivision
(a) or (f), a court may award a lesser amount than the
maximum civil penalty amount specified by this part if,
based on the facts and circumstances of the particular
case, to do otherwise would result in an award that is
unjust, arbitrary and oppressive, or confiscatory.
(f) For all provisions of this code except those for which a
civil penalty is specifically provided, there is established a
civil penalty for a violation of these provisions, as follows:
(1) If, at the time of the alleged violation, the person does
not employ one or more employees, the civil penalty is five
hundred dollars ($500).
(2) If, at the time of the alleged violation, the person
employs one or more employees, the civil penalty is one
hundred dollars ($100) for each aggrieved employee per
pay period for the initial violation and two hundred dollars
($200) for each aggrieved employee per pay period for each
subsequent violation.

109a
Appendix E
(3) If the alleged violation is a failure to act by the
Labor and Workplace Development Agency, or any of its
departments, divisions, commissions, boards, agencies,
or employees, there shall be no civil penalty.
(g)
(1) Except as provided in paragraph (2), an aggrieved
employee may recover the civil penalty described in
subdivision (f) in a civil action pursuant to the procedures
specified in Section 2699.3 filed on behalf of himself or
herself and other current or former employees against
whom one or more of the alleged violations was committed.
Any employee who prevails in any action shall be entitled
to an award of reasonable attorney’s fees and costs,
including any filing fee paid pursuant to subparagraph (B)
of paragraph (1) of subdivision (a) or subparagraph (B) of
paragraph (1) of subdivision (c) of Section 2699.3. Nothing
in this part shall operate to limit an employee’s right to
pursue or recover other remedies available under state
or federal law, either separately or concurrently with an
action taken under this part.
(2) No action shall be brought under this part for any
violation of a posting, notice, agency reporting, or filing
requirement of this code, except where the filing or
reporting requirement involves mandatory payroll or
workplace injury reporting.
(h) No action may be brought under this section by an
aggrieved employee if the agency or any of its departments,
divisions, commissions, boards, agencies, or employees,
on the same facts and theories, cites a person within the

110a
Appendix E
timeframes set forth in Section 2699.3 for a violation of
the same section or sections of the Labor Code under
which the aggrieved employee is attempting to recover a
civil penalty on behalf of himself or herself or others or
initiates a proceeding pursuant to Section 98.3.
(i) Except as provided in subdivision (j), civil penalties
recovered by aggrieved employees shall be distributed
as follows: 75 percent to the Labor and Workforce
Development Agency for enforcement of labor laws,
including the administration of this part, and for
education of employers and employees about their rights
and responsibilities under this code, to be continuously
appropriated to supplement and not supplant the funding
to the agency for those purposes; and 25 percent to the
aggrieved employees.
(j) Civil penalties recovered under paragraph (1) of
subdivision (f) shall be distributed to the Labor and
Workforce Development Agency for enforcement of labor
laws, including the administration of this part, and for
education of employers and employees about their rights
and responsibilities under this code, to be continuously
appropriated to supplement and not supplant the funding
to the agency for those purposes.
(k) Nothing contained in this part is intended to alter or
otherwise affect the exclusive remedy provided by the
workers’ compensation provisions of this code for liability
against an employer for the compensation for any injury
to or death of an employee arising out of and in the course
of employment.

111a
Appendix E
(l)
(1) For cases filed on or after July 1, 2016, the aggrieved
employee or representative shall, within 10 days following
commencement of a civil action pursuant to this part,
provide the Labor and Workforce Development Agency
with a file-stamped copy of the complaint that includes
the case number assigned by the court.
(2) The superior court shall review and approve any
settlement of any civil action filed pursuant to this part.
The proposed settlement shall be submitted to the agency
at the same time that it is submitted to the court.
(3) A copy of the superior court’s judgment in any civil
action filed pursuant to this part and any other order in
that action that either provides for or denies an award of
civil penalties under this code shall be submitted to the
agency within 10 days after entry of the judgment or order.
(4) Items required to be submitted to the Labor and
Workforce Development Agency under this subdivision
or to the Division of Occupational Safety and Health
pursuant to paragraph (4) of subdivision (b) of Section
2699.3, shall be transmitted online through the same
system established for the filing of notices and requests
under subdivisions (a) and (c) of Section 2699.3.
(m) This section shall not apply to the recovery of
administrative and civil penalties in connection with the
workers’ compensation law as contained in Division 1
(commencing with Section 50) and Division 4 (commencing

112a
Appendix E
with Section 3200), including, but not limited to, Sections
129.5 and 132a.
(n) The agency or any of its departments, divisions,
commissions, boards, or agencies may promulgate
regulations to implement the provisions of this part.

113a
Appendix E
Cal. Lab. Code § 2699.3
(a) A civil action by an aggrieved employee pursuant to
subdivision (a) or (f) of Section 2699 alleging a violation
of any provision listed in Section 2699.5 shall commence
only after the following requirements have been met:
(1)
(A) The aggrieved employee or representative shall
give written notice by online filing with the Labor and
Workforce Development Agency and by certified mail to
the employer of the specific provisions of this code alleged
to have been violated, including the facts and theories to
support the alleged violation.
(B) A notice filed w ith the Labor and Workforce
Development Agency pursuant to subparagraph (A) and
any employer response to that notice shall be accompanied
by a filing fee of seventy-five dollars ($75). The fees
required by this subparagraph are subject to waiver in
accordance with the requirements of Sections 68632 and
68633 of the Government Code.
(C) The fees paid pursuant to subparagraph (B) shall be
paid into the Labor and Workforce Development Fund
and used for the purposes specified in subdivision (j) of
Section 2699.
(2)
(A) The agency shall notify the employer and the aggrieved
employee or representative by certified mail that it does

114a
Appendix E
not intend to investigate the alleged violation within 60
calendar days of the postmark date of the notice received
pursuant to paragraph (1). Upon receipt of that notice
or if no notice is provided within 65 calendar days of the
postmark date of the notice given pursuant to paragraph
(1), the aggrieved employee may commence a civil action
pursuant to Section 2699.
(B) If the agency intends to investigate the alleged
violation, it shall notify the employer and the aggrieved
employee or representative by certified mail of its decision
within 65 calendar days of the postmark date of the
notice received pursuant to paragraph (1). Within 120
calendar days of that decision, the agency may investigate
the alleged violation and issue any appropriate citation.
If the agency, during the course of its investigation,
determines that additional time is necessary to complete
the investigation, it may extend the time by not more
than 60 additional calendar days and shall issue a notice
of the extension. If the agency determines that no citation
will be issued, it shall notify the employer and aggrieved
employee of that decision within five business days
thereof by certified mail. Upon receipt of that notice or if
no citation is issued by the agency within the time limits
prescribed by subparagraph (A) and this subparagraph or
if the agency fails to provide timely or any notification, the
aggrieved employee may commence a civil action pursuant
to Section 2699.
(C) Notwithstanding any other provision of law, a plaintiff
may as a matter of right amend an existing complaint to
add a cause of action arising under this part at any time
within 60 days of the time periods specified in this part.

115a
Appendix E
(D) The time limits prescribed by this paragraph shall
only apply if the notice required by paragraph (1) is filed
with the agency on or after July 1, 2016. For notices
submitted prior to July 1, 2016, the time limits in effect
on the postmark date of the notice shall apply.
(b) A civil action by an aggrieved employee pursuant to
subdivision (a) or (f) of Section 2699 alleging a violation of
any provision of Division 5 (commencing with Section 6300)
other than those listed in Section 2699.5 shall commence
only after the following requirements have been met:
(1) The aggrieved employee or representative shall give
notice by online filing with the Division of Occupational
Safety and Health and by certified mail to the employer,
with a copy to the Labor and Workforce Development
Agency, of the specific provisions of Division 5 (commencing
with Section 6300) alleged to have been violated, including
the facts and theories to support the alleged violation.
(2)
(A) The division shall inspect or investigate the alleged
violation pursuant to the procedures specified in Division
5 (commencing with Section 6300).
(i) If the division issues a citation, the employee may
not commence an action pursuant to Section 2699. The
division shall notify the aggrieved employee and employer
in writing within 14 calendar days of certifying that the
employer has corrected the violation.

116a
Appendix E
(ii) If by the end of the period for inspection or investigation
provided for in Section 6317, the division fails to issue a
citation and the aggrieved employee disputes that decision,
the employee may challenge that decision in the superior
court. In such an action, the superior court shall follow
precedents of the Occupational Safety and Health Appeals
Board. If the court finds that the division should have
issued a citation and orders the division to issue a citation,
then the aggrieved employee may not commence a civil
action pursuant to Section 2699.
(iii) A complaint in superior court alleging a violation of
Division 5 (commencing with Section 6300) other than
those listed in Section 2699.5 shall include therewith a
copy of the notice of violation provided to the division and
employer pursuant to paragraph (1).
(iv) The superior court shall not dismiss the action for
nonmaterial differences in facts or theories between those
contained in the notice of violation provided to the division
and employer pursuant to paragraph (1) and the complaint
filed with the court.
(B) If the division fails to inspect or investigate the alleged
violation as provided by Section 6309, the provisions of
subdivision (c) shall apply to the determination of the
alleged violation.
(3)
(A) Nothing in this subdivision shall be construed to alter
the authority of the division to permit long-term abatement

117a
Appendix E
periods or to enter into memoranda of understanding or
joint agreements with employers in the case of long-term
abatement issues.
(B) Nothing in this subdivision shall be construed to
authorize an employee to file a notice or to commence a
civil action pursuant to Section 2699 during the period that
an employer has voluntarily entered into consultation with
the division to ameliorate a condition in that particular
worksite.
(C) An employer who has been provided notice pursuant
to this section may not then enter into consultation with
the division in order to avoid an action under this section.
(4) The superior court shall review and approve any
proposed settlement of alleged violations of the provisions
of Division 5 (commencing with Section 6300) to ensure
that the settlement provisions are at least as effective as
the protections or remedies provided by state and federal
law or regulation for the alleged violation. The provisions
of the settlement relating to health and safety laws shall
be submitted to the division at the same time that they
are submitted to the court. This requirement shall be
construed to authorize and permit the division to comment
on those settlement provisions, and the court shall grant
the division’s commentary the appropriate weight.
(c) A civil action by an aggrieved employee pursuant to
subdivision (a) or (f) of Section 2699 alleging a violation of
any provision other than those listed in Section 2699.5 or
Division 5 (commencing with Section 6300) shall commence
only after the following requirements have been met:

118a
Appendix E
(1)
(A) The aggrieved employee or representative shall
give written notice by online filing with the Labor and
Workforce Development Agency and by certified mail to
the employer of the specific provisions of this code alleged
to have been violated, including the facts and theories to
support the alleged violation.
(B) A notice filed w ith the Labor and Workforce
Development Agency pursuant to subparagraph (A) and
any employer response to that notice shall be accompanied
by a filing fee of seventy-five dollars ($75). The fees
required by this subparagraph are subject to waiver in
accordance with the requirements of Sections 68632 and
68633 of the Government Code
(C) The fees paid pursuant to subparagraph (B) shall be
paid into the Labor and Workforce Development Fund
and used for the purposes specified in subdivision (j) of
Section 2699.
(2)
(A) The employer may cure the alleged violation within 33
calendar days of the postmark date of the notice sent by
the aggrieved employee or representative. The employer
shall give written notice within that period of time by
certified mail to the aggrieved employee or representative
and by online filing with the agency if the alleged violation
is cured, including a description of actions taken, and no
civil action pursuant to Section 2699 may commence. If

119a
Appendix E
the alleged violation is not cured within the 33-day period,
the employee may commence a civil action pursuant to
Section 2699.
(B)
(i) Subject to the limitation in clause (ii), no employer may
avail himself or herself of the notice and cure provisions
of this subdivision more than three times in a 12-month
period for the same violation or violations contained in the
notice, regardless of the location of the worksite.
(ii) No employer may avail himself or herself of the notice
and cure provisions of this subdivision with respect to
alleged violations of paragraph (6) or (8) of subdivision (a)
of Section 226 more than once in a 12-month period for
the same violation or violations contained in the notice,
regardless of the location of the worksite.
(3) If the aggrieved employee disputes that the alleged
violation has been cured, the aggrieved employee or
representative shall provide written notice by online filing
with the agency and by certified mail to the employer,
including specified grounds to support that dispute, to the
employer and the agency. Within 17 calendar days of the
receipt of that notice, the agency shall review the actions
taken by the employer to cure the alleged violation, and
provide written notice of its decision by certified mail to
the aggrieved employee and the employer. The agency may
grant the employer three additional business days to cure
the alleged violation. If the agency determines that the
alleged violation has not been cured or if the agency fails

120a
Appendix E
to provide timely or any notification, the employee may
proceed with the civil action pursuant to Section 2699. If
the agency determines that the alleged violation has been
cured, but the employee still disagrees, the employee may
appeal that determination to the superior court.
(d) The periods specified in this section are not counted
as part of the time limited for the commencement of the
civil action to recover penalties under this part.
(e) This section shall remain in effect only until July 1,
2021, and as of that date is repealed, unless a later enacted
statute, that is enacted before July 1, 2021, deletes or
extends that date.

121a
Appendix E
Cal. Lab. Code § 2699.5
The provisions of subdivision (a) of Section 2699.3 apply
to any alleged violation of the following provisions:
subdivision (k) of Section 96, Sections 98.6, 201, 201.3,
201.5, 201.7, 202, 203, 203.1, 203.5, 204, 204a, 204b, 204.1,
204.2, 205, 205.5, 206, 206.5, 208, 209, and 212, subdivision
(d) of Section 213, Sections 221, 222, 222.5, 223, and 224,
paragraphs (1) to (5), inclusive, (7), and (9) of subdivision
(a) of Section 226, Sections 226.7, 227, 227.3, 230, 230.1,
230.2, 230.3, 230.4, 230.7, 230.8, and 231, subdivision (c)
of Section 232, subdivision (c) of Section 232.5, Sections
233, 234, 351, 353, and 403, subdivision (b) of Section 404,
Sections 432.2, 432.5, 432.7, 435, 450, 510, 511, 512, 513,
551, 552, 601, 602, 603, 604, 750, 751.8, 800, 850, 851, 851.5,
852, 921, 922, 923, 970, 973, 976, 1021, 1021.5, 1025, 1026,
1101, 1102, 1102.5, and 1153, subdivisions (c) and (d) of
Section 1174, Sections 1194, 1197, 1197.1, 1197.5, and 1198,
subdivision (b) of Section 1198.3, Sections 1199, 1199.5,
1290, 1292, 1293, 1293.1, 1294, 1294.1, 1294.5, 1296, 1297,
1298, 1301, 1308, 1308.1, 1308.7, 1309, 1309.5, 1391, 1391.1,
1391.2, 1392, 1683, and 1695, subdivision (a) of Section
1695.5, Sections 1695.55, 1695.6, 1695.7, 1695.8, 1695.9,
1696, 1696.5, 1696.6, 1697.1, 1700.25, 1700.26, 1700.31,
1700.32, 1700.40, and 1700.47, Sections 1735, 1771, 1774,
1776, 1777.5, 1811, 1815, 2651, and 2673, subdivision (a) of
Section 2673.1, Sections 2695.2, 2800, 2801, 2802, 2806,
and 2810, subdivision (b) of Section 2929, and Sections
3073.6, 6310, 6311, and 6399.7.

122a
Appendix E
Cal. Lab. Code § 2699.6
(a) This part shall not apply to an employee in the
construction industry with respect to work performed
under a valid collective bargaining agreement in effect
any time before January 1, 2025, that expressly provides
for the wages, hours of work, and working conditions of
employees, premium wage rates for all overtime hours
worked, and for the employee to receive a regular hourly
pay rate of not less than 30 percent more than the state
minimum wage rate, and the agreement does all of the
following:
(1) Prohibits all of the violations of this code that would
be redressable pursuant to this part, and provides for a
grievance and binding arbitration procedure to redress
those violations.
(2) Expressly waives the requirements of this part in clear
and unambiguous terms.
(3) Authorizes the arbitrator to award any and all remedies
otherwise available under this code, provided that nothing
in this section authorizes the award of penalties under this
part that would be payable to the Labor and Workforce
Development Agency.
(b) Except for a civil action under Section 2699, nothing
in this section precludes an employee from pursuing any
other civil action against an employer, including, but not
limited to, an action for a violation of the California Fair
Employment and Housing Act (Part 2.8 (commencing with

123a
Appendix E
Section 12900) of Division 3 of Title 2 of the Government
Code), Title VII of the Civil Rights Act of 1964 (Public
Law 88-352), or any other prohibition of discrimination
or harassment.
(c) The exception provided by this section shall expire on
the date the collective bargaining agreement expires or
on January 1, 2028, whichever is earlier.
(d) For purposes of this section, “employee in the
construction industry” means an employee performing
work associated with construction, including work
involving alteration, demolition, building, excavation,
renovation, remodeling, maintenance, improvement,
repair work, and any other work as described by Chapter
9 (commencing with Section 7000) of Division 3 of the
Business and Professions Code, and other similar or
related occupations or trades.
(e) This section shall remain in effect only until January
1, 2028, and as of that date is repealed.

124a
Appendix E
Cal. Lab. Code § 432.5
No employer, or agent, manager, superintendent, or
officer thereof, shall require any employee or applicant for
employment to agree, in writing, to any term or condition
which is known by such employer, or agent, manager,
superintendent, or officer thereof to be prohibited by law.

125a
Appendix E
Cal. Lab. Code § 1102.5
(a) An employer, or any person acting on behalf of the
employer, shall not make, adopt, or enforce any rule,
regulation, or policy preventing an employee from
disclosing information to a government or law enforcement
agency, to a person with authority over the employee, or
to another employee who has authority to investigate,
discover, or correct the violation or noncompliance, or from
providing information to, or testifying before, any public
body conducting an investigation, hearing, or inquiry, if
the employee has reasonable cause to believe that the
information discloses a violation of state or federal statute,
or a violation of or noncompliance with a local, state, or
federal rule or regulation, regardless of whether disclosing
the information is part of the employee’s job duties.
(b) An employer, or any person acting on behalf of the
employer, shall not retaliate against an employee for
disclosing information, or because the employer believes
that the employee disclosed or may disclose information,
to a government or law enforcement agency, to a person
with authority over the employee or another employee who
has the authority to investigate, discover, or correct the
violation or noncompliance, or for providing information
to, or testifying before, any public body conducting an
investigation, hearing, or inquiry, if the employee has
reasonable cause to believe that the information discloses
a violation of state or federal statute, or a violation of
or noncompliance with a local, state, or federal rule
or regulation, regardless of whether disclosing the
information is part of the employee’s job duties.

126a
Appendix E
(c) An employer, or any person acting on behalf of the
employer, shall not retaliate against an employee for
refusing to participate in an activity that would result
in a violation of state or federal statute, or a violation of
or noncompliance with a local, state, or federal rule or
regulation.
(d) An employer, or any person acting on behalf of the
employer, shall not retaliate against an employee for
having exercised their rights under subdivision (a), (b),
or (c) in any former employment.
(e) A report made by an employee of a government
agency to their employer is a disclosure of information
to a government or law enforcement agency pursuant to
subdivisions (a) and (b).
(f) In addition to other penalties, an employer that is a
corporation or limited liability company is liable for a civil
penalty not exceeding ten thousand dollars ($10,000) for
each violation of this section.
(g) This section does not apply to rules, regulations, or
policies that implement, or to actions by employers against
employees who violate, the confidentiality of the lawyerclient privilege of Article 3 (commencing with Section
950) of, or the physician-patient privilege of Article 6
(commencing with Section 990) of, Chapter 4 of Division
8 of the Evidence Code, or trade secret information.
(h) An employer, or a person acting on behalf of the
employer, shall not retaliate against an employee because

127a
Appendix E
the employee is a family member of a person who has, or
is perceived to have, engaged in any acts protected by
this section.
(i) For purposes of this section, “employer” or “a person
acting on behalf of the employer” includes, but is not
limited to, a client employer as defined in paragraph (1)
of subdivision (a) of Section 2810.3 and an employer listed
in subdivision (b) of Section 6400.
(j) The court is authorized to award reasonable attorney’s
fees to a plaintiff who brings a successful action for a
violation of these provisions.

128a
Appendix E
Cal. Lab. Code § 232.5
No employer may do any of the following:
(a) Require, as a condition of employment, that an
employee refrain from disclosing information about the
employer’s working conditions.
(b) Require an employee to sign a waiver or other
document that purports to deny the employee the right
to disclose information about the employer’s working
conditions.
(c) Discharge, formally discipline, or otherwise discriminate
against an employee who discloses information about the
employer’s working conditions.
(d) This section is not intended to permit an employee to
disclose proprietary information, trade secret information,
or information that is otherwise subject to a legal privilege
without the consent of his or her employer.

129a
Appendix E
Cal. Lab. Code § 232
No employer may do any of the following:
(a) Require, as a condition of employment, that an
employee refrain from disclosing the amount of his or
her wages.
(b) Require an employee to sign a waiver or other
document that purports to deny the employee the right
to disclose the amount of his or her wages.
(c) Discha rge, for mally discipline, or other w ise
discriminate against an employee who discloses the
amount of his or her wages.

130a
Appendix E
Cal. Lab. Code § 1197.5
(a) An employer shall not pay any of its employees at
wage rates less than the rates paid to employees of the
opposite sex for substantially similar work, when viewed
as a composite of skill, effort, and responsibility, and
performed under similar working conditions, except where
the employer demonstrates:
(1) The wage differential is based upon one or more of the
following factors:
(A) A seniority system.
(B) A merit system.
(C) A system that measures earnings by quantity or
quality of production.
(D) A bona fide factor other than sex, such as education,
training, or experience. This factor shall apply only if the
employer demonstrates that the factor is not based on or
derived from a sex-based differential in compensation, is
job related with respect to the position in question, and is
consistent with a business necessity. For purposes of this
subparagraph, “business necessity” means an overriding
legitimate business purpose such that the factor relied
upon effectively fulfills the business purpose it is supposed
to serve. This defense shall not apply if the employee
demonstrates that an alternative business practice exists
that would serve the same business purpose without
producing the wage differential.

131a
Appendix E
(2) Each factor relied upon is applied reasonably.
(3) The one or more factors relied upon account for the
entire wage differential.
(4) Prior salary shall not justify any disparity in
compensation. Nothing in this section shall be interpreted
to mean that an employer may not make a compensation
decision based on a current employee’s existing salary,
so long as any wage differential resulting from that
compensation decision is justified by one or more of the
factors in this subdivision.
(b) An employer shall not pay any of its employees at wage
rates less than the rates paid to employees of another
race or ethnicity for substantially similar work, when
viewed as a composite of skill, effort, and responsibility,
and performed under similar working conditions, except
where the employer demonstrates:
(1) The wage differential is based upon one or more of the
following factors:
(A) A seniority system.
(B) A merit system.
(C) A system that measures earnings by quantity or
quality of production.
(D) A bona fide factor other than race or ethnicity, such
as education, training, or experience. This factor shall

132a
Appendix E
apply only if the employer demonstrates that the factor
is not based on or derived from a race- or ethnicity-based
differential in compensation, is job related with respect to
the position in question, and is consistent with a business
necessity. For purposes of this subparagraph, “business
necessity” means an overriding legitimate business
purpose such that the factor relied upon effectively
fulfills the business purpose it is supposed to serve. This
defense shall not apply if the employee demonstrates that
an alternative business practice exists that would serve
the same business purpose without producing the wage
differential.
(2) Each factor relied upon is applied reasonably.
(3) The one or more factors relied upon account for the
entire wage differential.
(4) Prior salary shall not justify any disparity in
compensation. Nothing in this section shall be interpreted
to mean that an employer may not make a compensation
decision based on a current employee’s existing salary,
so long as any wage differential resulting from that
compensation decision is justified by one or more of the
factors listed in this subdivision.
(c) Any employer who violates subdivision (a) or (b) is liable
to the employee affected in the amount of the wages, and
interest thereon, of which the employee is deprived by
reason of the violation, and an additional equal amount
as liquidated damages.

133a
Appendix E
(d) The Division of Labor Standards Enforcement shall
administer and enforce this section. If the division
finds that an employer has violated this section, it may
supervise the payment of wages and interest found to be
due and unpaid to employees under subdivision (a) or (b).
Acceptance of payment in full made by an employer and
approved by the division shall constitute a waiver on the
part of the employee of the employee’s cause of action
under subdivision (h).
(e) Every employer shall maintain records of the wages
and wage rates, job classifications, and other terms and
conditions of employment of the persons employed by
the employer. All of the records shall be kept on file for a
period of three years.
(f) Any employee may file a complaint with the division
that the wages paid are less than the wages to which
the employee is entitled under subdivision (a) or (b) or
that the employer is in violation of subdivision (k). The
complaint shall be investigated as provided in subdivision
(b) of Section 98.7. The division shall keep confidential
the name of any employee who submits to the division a
complaint regarding an alleged violation of subdivision (a),
(b), or (k) until the division establishes the validity of the
complaint, unless the division must abridge confidentiality
to investigate the complaint. The name of the complaining
employee shall remain confidential if the complaint is
withdrawn before the confidentiality is abridged by the
division. The division shall take all proceedings necessary
to enforce the payment of any sums found to be due and
unpaid to these employees.

134a
Appendix E
(g) The department or division may commence and
prosecute, unless otherwise requested by the employee
or affected group of employees, a civil action on behalf of
the employee and on behalf of a similarly affected group
of employees to recover unpaid wages and liquidated
damages under subdivision (a) or (b), and in addition shall
be entitled to recover costs of suit. The consent of any
employee to the bringing of any action shall constitute
a waiver on the part of the employee of the employee’s
cause of action under subdivision (h) unless the action
is dismissed without prejudice by the department or the
division, except that the employee may intervene in the
suit or may initiate independent action if the suit has not
been determined within 180 days from the date of the
filing of the complaint.
(h) An employee receiving less than the wage to which
the employee is entitled under this section may recover in
a civil action the balance of the wages, including interest
thereon, and an equal amount as liquidated damages,
together with the costs of the suit and reasonable
attorney’s fees, notwithstanding any agreement to work
for a lesser wage.
(i) A civil action to recover wages under subdivision (a) or
(b) may be commenced no later than two years after the
cause of action occurs, except that a cause of action arising
out of a willful violation may be commenced no later than
three years after the cause of action occurs.
(j) If an employee recovers amounts due the employee
under subdivision (c), and also files a complaint or brings

135a
Appendix E
an action under subdivision (d) of Section 206 of Title 29
of the United States Code which results in an additional
recovery under federal law for the same violation, the
employee shall return to the employer the amounts
recovered under subdivision (c), or the amounts recovered
under federal law, whichever is less.
(k)
(1) An employer shall not discharge, or in any manner
discriminate or retaliate against, any employee by
reason of any action taken by the employee to invoke or
assist in any manner the enforcement of this section. An
employer shall not prohibit an employee from disclosing
the employee’s own wages, discussing the wages of others,
inquiring about another employee’s wages, or aiding or
encouraging any other employee to exercise his or her
rights under this section. Nothing in this section creates
an obligation to disclose wages.
(2) Any employee who has been discharged, discriminated
or retaliated against, in the terms and conditions of his
or her employment because the employee engaged in any
conduct delineated in this section may recover in a civil
action reinstatement and reimbursement for lost wages
and work benefits caused by the acts of the employer,
including interest thereon, as well as appropriate equitable
relief.
(3) A civil action brought under this subdivision may be
commenced no later than one year after the cause of
action occurs.

136a
Appendix E
(l) As used in this section, “employer” includes public
and private employers. Section 1199.5 does not apply to
a public employer.

137a
Appendix E
Cal. Lab. Code § 98.6
(a) A person shall not discharge an employee or in any
manner discriminate, retaliate, or take any adverse
action against any employee or applicant for employment
because the employee or applicant engaged in any
conduct delineated in this chapter, including the conduct
described in subdivision (k) of Section 96, and Chapter 5
(commencing with Section 1101) of Part 3 of Division 2,
or because the employee or applicant for employment has
filed a bona fide complaint or claim or instituted or caused
to be instituted any proceeding under or relating to his
or her rights that are under the jurisdiction of the Labor
Commissioner, made a written or oral complaint that he
or she is owed unpaid wages, or because the employee has
initiated any action or notice pursuant to Section 2699, or
has testified or is about to testify in a proceeding pursuant
to that section, or because of the exercise by the employee
or applicant for employment on behalf of himself, herself,
or others of any rights afforded him or her.
(b)
(1) Any employee who is discharged, threatened with
discharge, demoted, suspended, retaliated against,
subjected to an adverse action, or in any other manner
discriminated against in the terms and conditions of his
or her employment because the employee engaged in any
conduct delineated in this chapter, including the conduct
described in subdivision (k) of Section 96, and Chapter 5
(commencing with Section 1101) of Part 3 of Division 2,
or because the employee has made a bona fide complaint

138a
Appendix E
or claim to the division pursuant to this part, or because
the employee has initiated any action or notice pursuant
to Section 2699 shall be entitled to reinstatement and
reimbursement for lost wages and work benefits caused
by those acts of the employer.
(2) An employer who willfully refuses to hire, promote,
or otherwise restore an employee or former employee
who has been determined to be eligible for rehiring or
promotion by a grievance procedure, arbitration, or
hearing authorized by law, is guilty of a misdemeanor.
(3) In addition to other remedies available, an employer
who violates this section is liable for a civil penalty not
exceeding ten thousand dollars ($10,000) per employee
for each violation of this section, to be awarded to the
employee or employees who suffered the violation.
(c)
(1) A ny applicant for employment who is refused
employment, who is not selected for a training program
leading to employment, or who in any other manner is
discriminated against in the terms and conditions of any
offer of employment because the applicant engaged in any
conduct delineated in this chapter, including the conduct
described in subdivision (k) of Section 96, and Chapter 5
(commencing with Section 1101) of Part 3 of Division 2,
or because the applicant has made a bona fide complaint
or claim to the division pursuant to this part, or because
the employee has initiated any action or notice pursuant
to Section 2699 shall be entitled to employment and

139a
Appendix E
reimbursement for lost wages and work benefits caused
by the acts of the prospective employer.
(2) This subdivision shall not be construed to invalidate any
collective bargaining agreement that requires an applicant
for a position that is subject to the collective bargaining
agreement to sign a contract that protects either or both
of the following as specified in subparagraphs (A) and
(B), nor shall this subdivision be construed to invalidate
any employer requirement of an applicant for a position
that is not subject to a collective bargaining agreement
to sign an employment contract that protects either or
both of the following:
(A) An employer against any conduct that is actually
in direct conflict with the essential enterprise-related
interests of the employer and where breach of that contract
would actually constitute a material and substantial
disruption of the employer’s operation.
(B) A firefighter against any disease that is presumed to
arise in the course and scope of employment, by limiting
his or her consumption of tobacco products on and off the
job.
(d) The provisions of this section creating new actions
or remedies that are effective on January 1, 2002, to
employees or applicants for employment do not apply to
any state or local law enforcement agency, any religious
association or corporation specified in subdivision (d) of
Section 12926 of the Government Code, except as provided
in Section 12926.2 of the Government Code, or any person
described in Section 1070 of the Evidence Code.

140a
Appendix E
(e) An employer, or a person acting on behalf of the
employer, shall not retaliate against an employee because
the employee is a family member of a person who has, or
is perceived to have, engaged in any conduct delineated
in this chapter.
(f) For purposes of this section, “employer” or “a person
acting on behalf of the employer” includes, but is not
limited to, a client employer as defined in paragraph (1)
of subdivision (a) of Section 2810.3 and an employer listed
in subdivision (b) of Section 6400.
(g) Subdivisions (e) and (f) shall not apply to claims arising
under subdivision (k) of Section 96 unless the lawful
conduct occurring during nonwork hours away from the
employer’s premises involves the exercise of employee
rights otherwise covered under subdivision (a).

141a
Appendix E
Cal. Lab. Code § 96
The Labor Commissioner and his or her deputies and
representatives authorized by him or her in writing
shall, upon the filing of a claim therefor by an employee,
or an employee representative authorized in writing
by an employee, with the Labor Commissioner, take
assignments of:
(a) Wage claims and incidental expense accounts and
advances.
(b) Mechanics’ and other liens of employees.
(c) Claims based on “stop orders” for wages and on bonds
for labor.
(d) Claims for damages for misrepresentations of
conditions of employment.
(e) Claims for unreturned bond money of employees.
(f) Claims for penalties for nonpayment of wages.
(g) Claims for the return of workers’ tools in the illegal
possession of another person.
(h) Claims for vacation pay, severance pay, or other
compensation supplemental to a wage agreement.
(i) Awards for workers’ compensation benefits in which the
Workers’ Compensation Appeals Board has found that the

142a
Appendix E
employer has failed to secure payment of compensation
and where the award remains unpaid more than 10 days
after having become final.
(j) Claims for loss of wages as the result of discharge from
employment for the garnishment of wages.
(k) Claims for loss of wages as the result of demotion,
suspension, or discharge from employment for lawful
conduct occurring during nonworking hours away from
the employer’s premises.

143a
Appendix E
Cal. Bus. & Prof. Code § 17200
As used in this chapter, unfair competition shall mean
and include any unlawful, unfair or fraudulent business
act or practice and unfair, deceptive, untrue or misleading
advertising and any act prohibited by Chapter 1
(commencing with Section 17500) of Part 3 of Division 7
of the Business and Professions Code.

144a
Appendix E
Cal. Bus. & Prof. Code § 17201
As used in this chapter, the term person shall mean and
include natural persons, corporations, firms, partnerships,
joint stock companies, associations and other organizations
of persons.

145a
Appendix E
Cal. Bus. & Prof. Code § 17201.5
As used in this chapter:
(a) “Board within the Department of Consumer Affairs”
includes any commission, bureau, division, or other
similarly constituted agency within the Department of
Consumer Affairs.
(b) “Local consumer affairs agency” means and includes
any city or county body which primarily provides consumer
protection services.

146a
Appendix E
Cal. Bus. & Prof. Code § 17202
Notwithstanding Section 3369 of the Civil Code, specific
or preventive relief may be granted to enforce a penalty,
forfeiture, or penal law in a case of unfair competition.

147a
Appendix E
Cal. Bus. & Prof. Code § 17203
Any person who engages, has engaged, or proposes to
engage in unfair competition may be enjoined in any
court of competent jurisdiction. The court may make
such orders or judgments, including the appointment
of a receiver, as may be necessary to prevent the use
or employment by any person of any practice which
constitutes unfair competition, as defined in this chapter,
or as may be necessary to restore to any person in interest
any money or property, real or personal, which may have
been acquired by means of such unfair competition. Any
person may pursue representative claims or relief on
behalf of others only if the claimant meets the standing
requirements of Section 17204 and complies with Section
382 of the Code of Civil Procedure, but these limitations
do not apply to claims brought under this chapter by the
Attorney General, or any district attorney, county counsel,
city attorney, or city prosecutor in this state.

148a
Appendix E
Cal. Bus. & Prof. Code § 17204
Actions for relief pursuant to this chapter shall be
prosecuted exclusively in a court of competent jurisdiction
by the Attorney General or a district attorney or by
a county counsel authorized by agreement with the
district attorney in actions involving violation of a
county ordinance, or by a city attorney of a city having
a population in excess of 750,000, or by a city attorney
in a city and county or, with the consent of the district
attorney, by a city prosecutor in a city having a full-time
city prosecutor in the name of the people of the State of
California upon their own complaint or upon the complaint
of a board, officer, person, corporation, or association, or
by a person who has suffered injury in fact and has lost
money or property as a result of the unfair competition.

149a
Appendix E
Cal. Bus. & Prof. Code § 17205
Unless otherwise expressly provided, the remedies or
penalties provided by this chapter are cumulative to each
other and to the remedies or penalties available under all
other laws of this state.

150a
Appendix E
Cal. Bus. & Prof. Code § 17206
§ 17206. Civil Penalty for Violation of Chapter
(a) Any person who engages, has engaged, or proposes
to engage in unfair competition shall be liable for a civil
penalty not to exceed two thousand five hundred dollars
($2,500) for each violation, which shall be assessed and
recovered in a civil action brought in the name of the people
of the State of California by the Attorney General, by any
district attorney, by any county counsel authorized by
agreement with the district attorney in actions involving
violation of a county ordinance, by any city attorney of a
city having a population in excess of 750,000, by any city
attorney of any city and county, or, with the consent of the
district attorney, by a city prosecutor in any city having
a full-time city prosecutor, in any court of competent
jurisdiction.
(b) The court shall impose a civil penalty for each violation
of this chapter. In assessing the amount of the civil penalty,
the court shall consider any one or more of the relevant
circumstances presented by any of the parties to the case,
including, but not limited to, the following: the nature and
seriousness of the misconduct, the number of violations,
the persistence of the misconduct, the length of time
over which the misconduct occurred, the willfulness of
the defendant’s misconduct, and the defendant’s assets,
liabilities, and net worth.

151a
Appendix E
(c)
(1) If the action is brought by the Attorney General, onehalf of the penalty collected shall be paid to the treasurer
of the county in which the judgment was entered, and
one-half to the General Fund.
(2) If the action is brought by a district attorney or county
counsel, the penalty collected shall be paid to the treasurer
of the county in which the judgment was entered.
(3)
(A) Except as provided in subparag raph (B) and
subdivision (e), if the action is brought by a city attorney
or city prosecutor, one-half of the penalty collected shall
be paid to the treasurer of the city in which the judgment
was entered, and one-half to the treasurer of the county
in which the judgment was entered.
(B) If the action is brought by the City Attorney of San
Diego, the penalty collected shall be paid to the treasurer
of the City of San Diego.
(4) The aforementioned funds shall be for the exclusive
use by the Attorney General, the district attorney, the
county counsel, and the city attorney for the enforcement
of consumer protection laws.
(d) The Unfair Competition Law Fund is hereby created
as a special account within the General Fund in the
State Treasury. The portion of penalties that is payable

152a
Appendix E
to the General Fund or to the Treasurer recovered by
the Attorney General from an action or settlement of a
claim made by the Attorney General pursuant to this
chapter or Chapter 1 (commencing with Section 17500)
of Part 3 shall be deposited into this fund. Moneys in this
fund, upon appropriation by the Legislature, shall be
used by the Attorney General to support investigations
and prosecutions of California’s consumer protection
laws, including implementation of judgments obtained
from such prosecutions or investigations and other
activities which are in furtherance of this chapter or
Chapter 1 (commencing with Section 17500) of Part
3. Notwithstanding Section 13340 of the Government
Code, any civil penalties deposited in the fund pursuant
to the National Mortgage Settlement, as provided in
Section 12531 of the Government Code, are continuously
appropriated to the Department of Justice for the
purpose of offsetting General Fund costs incurred by the
Department of Justice.
(e) If the action is brought at the request of a board within
the Department of Consumer Affairs or a local consumer
affairs agency, the court shall determine the reasonable
expenses incurred by the board or local agency in the
investigation and prosecution of the action.
Before any penalty collected is paid out pursuant to
subdivision (c), the amount of any reasonable expenses
incurred by the board shall be paid to the Treasurer
for deposit in the special fund of the board described in
Section 205. If the board has no such special fund, the
moneys shall be paid to the Treasurer. The amount of any

153a
Appendix E
reasonable expenses incurred by a local consumer affairs
agency shall be paid to the general fund of the municipality
or county that funds the local agency.
(f) If the action is brought by a city attorney of a city and
county, the entire amount of the penalty collected shall
be paid to the treasurer of the city and county in which
the judgment was entered for the exclusive use by the
city attorney for the enforcement of consumer protection
laws. However, if the action is brought by a city attorney
of a city and county for the purposes of civil enforcement
pursuant to Section 17980 of the Health and Safety
Code or Article 3 (commencing with Section 11570) of
Chapter 10 of Division 10 of the Health and Safety Code,
either the penalty collected shall be paid entirely to the
treasurer of the city and county in which the judgment
was entered or, upon the request of the city attorney, the
court may order that up to one-half of the penalty, under
court supervision and approval, be paid for the purpose
of restoring, maintaining, or enhancing the premises that
were the subject of the action, and that the balance of the
penalty be paid to the treasurer of the city and county.

154a
Appendix E
Cal. Bus. & Prof. Code § 17206.1
(a)
(1) In addition to any liability for a civil penalty pursuant to
Section 17206, a person who violates this chapter, and the
act or acts of unfair competition are perpetrated against
one or more senior citizens or disabled persons, may be
liable for a civil penalty not to exceed two thousand five
hundred dollars ($2,500) for each violation, which may be
assessed and recovered in a civil action as prescribed in
Section 17206.
(2) Subject to subdivision (d), any civil penalty shall be paid
as prescribed by subdivisions (b) and (c) of Section 17206.
(b) As used in this section, the following terms have the
following meanings:
(1) “Senior citizen” means a person who is 65 years of age
or older.
(2) “Disabled person” means a person who has a physical
or mental impairment that substantially limits one or more
major life activities.
(A) As used in this subdivision, “physical or mental
impairment” means any of the following:
(i) A physiological disorder or condition, cosmetic
disfigurement, or anatomical loss substantially affecting
one or more of the following body systems: neurological;

155a
Appendix E
musculoskeletal; special sense organs; respiratory,
including speech organs; cardiovascular; reproductive;
digestive; genitourinary; hemic and lymphatic; skin; or
endocrine.
(ii) A mental or psychological disorder, including
intellectual disability, organic brain syndrome, emotional
or mental illness, and specific learning disabilities.
“Physical or mental impairment” includes, but is not
limited to, diseases and conditions including orthopedic,
visual, speech, and hearing impairment, cerebral palsy,
epilepsy, muscular dystrophy, multiple sclerosis, cancer,
heart disease, diabetes, intellectual disability, and
emotional illness.
(B) “Major life activities” means functions that include
caring for one’s self, performing manual tasks, walking,
seeing, hearing, speaking, breathing, learning, and
working.
(c) In determining whether to impose a civil penalty
pursuant to subdivision (a) and the amount thereof, the
court shall consider, in addition to any other appropriate
factors, the extent to which one or more of the following
factors are present:
(1) Whether the defendant knew or should have known
that his or her conduct was directed to one or more senior
citizens or disabled persons.
(2) Whether the defendant’s conduct caused one or more

156a
Appendix E
senior citizens or disabled persons to suffer any of the
following: loss or encumbrance of a primary residence,
principal employment, or source of income; substantial
loss of property set aside for retirement, or for personal
or family care and maintenance; or substantial loss of
payments received under a pension or retirement plan or
a government benefits program, or assets essential to the
health or welfare of the senior citizen or disabled person.
(3) Whether one or more senior citizens or disabled persons
are substantially more vulnerable than other members of
the public to the defendant’s conduct because of age, poor
health or infirmity, impaired understanding, restricted
mobility, or disability, and actually suffered substantial
physical, emotional, or economic damage resulting from
the defendant’s conduct.
(d) A court of competent jurisdiction hearing an action
pursuant to this section may make orders and judgments
as necessary to restore to a senior citizen or disabled
person money or property, real or personal, that may
have been acquired by means of a violation of this chapter.
Restitution ordered pursuant to this subdivision shall be
given priority over recovery of a civil penalty designated
by the court as imposed pursuant to subdivision (a), but
shall not be given priority over a civil penalty imposed
pursuant to subdivision (a) of Section 17206. If the court
determines that full restitution cannot be made to those
senior citizens or disabled persons, either at the time of
judgment or by a future date determined by the court,
then restitution under this subdivision shall be made on
a pro rata basis depending on the amount of loss.

157a
Appendix E
Cal. Bus. & Prof. Code § 17207
(a) Any person who intentionally violates any injunction
prohibiting unfair competition issued pursuant to Section
17203 shall be liable for a civil penalty not to exceed
six thousand dollars ($6,000) for each violation. Where
the conduct constituting a violation is of a continuing
nature, each day of that conduct is a separate and distinct
violation. In determining the amount of the civil penalty,
the court shall consider all relevant circumstances,
including, but not limited to, the extent of the harm caused
by the conduct constituting a violation, the nature and
persistence of that conduct, the length of time over which
the conduct occurred, the assets, liabilities, and net worth
of the person, whether corporate or individual, and any
corrective action taken by the defendant.
(b) The civil penalty prescribed by this section shall
be assessed and recovered in a civil action brought in
any county in which the violation occurs or where the
injunction was issued in the name of the people of the State
of California by the Attorney General or by any district
attorney, any county counsel authorized by agreement
with the district attorney in actions involving violation
of a county ordinance, or any city attorney in any court
of competent jurisdiction within his or her jurisdiction
without regard to the county from which the original
injunction was issued. An action brought pursuant to this
section to recover civil penalties shall take precedence
over all civil matters on the calendar of the court except
those matters to which equal precedence on the calendar
is granted by law.

158a
Appendix E
(c) If such an action is brought by the Attorney General,
one-half of the penalty collected pursuant to this section
shall be paid to the treasurer of the county in which
the judgment was entered, and one-half to the State
Treasurer. If brought by a district attorney or county
counsel the entire amount of the penalty collected shall be
paid to the treasurer of the county in which the judgment
is entered. If brought by a city attorney or city prosecutor,
one-half of the penalty shall be paid to the treasurer of
the county in which the judgment was entered and onehalf to the city, except that if the action was brought by
a city attorney of a city and county the entire amount of
the penalty collected shall be paid to the treasurer of the
city and county in which the judgment is entered.
(d) If the action is brought at the request of a board within
the Department of Consumer Affairs or a local consumer
affairs agency, the court shall determine the reasonable
expenses incurred by the board or local agency in the
investigation and prosecution of the action.
Before any penalty collected is paid out pursuant to
subdivision (c), the amount of the reasonable expenses
incurred by the board shall be paid to the State Treasurer
for deposit in the special fund of the board described in
Section 205. If the board has no such special fund, the
moneys shall be paid to the State Treasurer. The amount
of the reasonable expenses incurred by a local consumer
affairs agency shall be paid to the general fund of the
municipality or county which funds the local agency.

159a
Appendix E
Cal. Bus. & Prof. Code § 17208
Any action to enforce any cause of action pursuant to this
chapter shall be commenced within four years after the
cause of action accrued. No cause of action barred under
existing law on the effective date of this section shall be
revived by its enactment.

160a
Appendix E
Cal. Bus. & Prof. Code § 17209
If a violation of this chapter is alleged or the application or
construction of this chapter is in issue in any proceeding
in the Supreme Court of California, a state court of
appeal, or the appellate division of a superior court, each
person filing any brief or petition with the court in that
proceeding shall serve, within three days of filing with
the court, a copy of that brief or petition on the Attorney
General, directed to the attention of the Consumer Law
Section at a service address designated on the Attorney
General’s official Web site for service of papers under
this section or, if no service address is designated, at the
Attorney General’s office in San Francisco, California, and
on the district attorney of the county in which the lower
court action or proceeding was originally filed. Upon the
Attorney General’s or district attorney’s request, each
person who has filed any other document, including all
or a portion of the appellate record, with the court in
addition to a brief or petition shall provide a copy of that
document without charge to the Attorney General or
the district attorney within five days of the request. The
time for service may be extended by the Chief Justice
or presiding justice or judge for good cause shown. No
judgment or relief, temporary or permanent, shall be
granted or opinion issued until proof of service of the brief
or petition on the Attorney General and district attorney
is filed with the court.

161a
Appendix E
Cal. Bus. & Prof. Code § 17210
(a) For purposes of this section, “hotel” means any
hotel, motel, bed and breakfast inn, or other similar
transient lodging establishment, but it does not include
any residential hotel as defined in Section 50519 of the
Health and Safety Code. “Innkeeper” means the owner
or operator of a hotel, or the duly authorized agent or
employee of the owner or operator.
(b) For purposes of this section, “handbill” means, and is
specifically limited to, any tangible commercial solicitation
to guests of the hotel urging that they patronize any
commercial enterprise.
(c) Every person (hereinafter “distributor”) engages
in unfair competition for purposes of this chapter who
deposits, places, throws, scatters, casts, or otherwise
distributes any handbill to any individual guest rooms in
any hotel, including, but not limited to, placing, throwing,
leaving, or attaching any handbill adjacent to, upon, or
underneath any guest room door, doorknob, or guest
room entryway, where either the innkeeper has expressed
objection to handbill distribution, either orally to the
distributor or by the posting of a sign or other notice in a
conspicuous place within the lobby area and at all points
of access from the exterior of the premises to guest room
areas indicating that handbill distribution is prohibited,
or the distributor has received written notice pursuant to
subdivision (e) that the innkeeper has expressed objection
to the distribution of handbills to guest rooms in the hotel.

162a
Appendix E
(d) Every person (hereinafter “contractor”) engages in
unfair competition for purposes of this chapter who causes
or directs any other person, firm, business, or entity
to distribute, or cause the distribution of, any handbill
to any individual guest rooms in any hotel in violation
of subdivision (c) of this section, if the contractor has
received written notice from the innkeeper objecting to
the distribution of handbills to individual guest rooms in
the hotel.
(e) Every contractor who causes or directs any distributor
to distribute, or cause the distribution of, any handbills to
any individual guest rooms in any hotel, if the contractor
has received written notice from the innkeeper or from
any other contractor or intermediary pursuant to this
subdivision, objecting to the distribution of handbills to
individual guest rooms in the hotel has failed to provide
a written copy of that notice to each distributor prior to
the commencement of distribution of handbills by the
distributor or by any person hired or retained by the
distributor for that purpose, or, within 24 hours following
the receipt of the notice by the contractor if received
after the commencement of distribution, and has failed
to instruct and demand any distributor to not distribute,
or to cease the distribution of, the handbills to individual
guest rooms in any hotel for which such a notice has been
received is in violation of this section.
(f) Any written notice given, or caused to be given, by the
innkeeper pursuant to or required by any provision of this
section shall be deemed to be in full force and effect until
such time as the notice is revoked in writing.

163a
Appendix E
(g) Nothing in this section shall be deemed to prohibit
the distribution of a handbill to guest rooms in any hotel
where the distribution has been requested or approved in
writing by the innkeeper, or to any individual guest room
when the occupant thereof has affirmatively requested
or approved the distribution of the handbill during the
duration of the guest’s occupancy.

164a
Appendix
F
Appendix F — NLRB
Notice
of Approval
of Settlement Agreement
UNITED STATES GOVERNMENT
NATIONAL LABOR RELATIONS BOARD
REGION 32
1301 Clay St Ste 300N
Oakland, CA 94612-5224
Agency Website:
www.nlrb.gov
Telephone: (510)637-3300
Fax: (510)637-3315
September 9, 2019
Chris Baker, Esq.
Baker Curtis & Schwartz P.C.
1 California St Ste 1250
San Francisco, CA 94111
Re: GOOGLE, INC. AND NEST
LABS, INC., A SINGLE
EMPLOYER
Case 32-CA-176462
Dear Mr. Baker:
We have carefully investigated and considered your
charge that Google (Employer) has violated the National
Labor Relations Act.

165a
Appendix F
Decision to Approve Settlement Agreement: You
have submitted two written objections to the attached
Settlement Agreement which has been executed by the
Employer in this matter. You contend that the Region
is required to seek a formal settlement agreement in
this matter and that the Agreement is unenforceable
because it purports to remedy matters beyond the Board’s
jurisdiction to enforce the National Labor Relations Act
(Act). I am unpersuaded by either of these objections.
First, resolving this case through an informal settlement
agreement is appropriate. Formal settlements are
discretionary and there is no basis to require a formal
settlement of the type of allegations raised in this case,
particularly in the absence of a significant history of
unfair labor practices by the Employer. With regard to
the Board’s jurisdiction, as set forth in the Scope of the
Agreement provision, the Settlement Agreement covers
only the alleged violations of the Act and does not seek to
remedy or cover any other matters not before the Board.
The use of the term “you” in the Notice language does not
serve to extend the Board’s jurisdiction to any matters
not covered by Act. Accordingly, in view of the terms
the Employer has agreed to in the attached Settlement
Agreement, I have determined that it would not effectuate
the purposes of the National Labor Relations Act to
institute further proceedings at this time. I am, therefore,
approving the Settlement Agreement and refusing to
reissue a complaint in this matter.
Your Right to Appeal: You may appeal my decision
to the General Counsel of the National Labor Relations
Board, through the Office of Appeals.

166a
Appendix F
Means of Filing: An appeal may be filed electronically,
by mail, by delivery service, or hand-delivered. To file
electronically using the Agency’s e-filing system, go to
our website at www.nlrb.gov and:
1) Click on E-File Documents;
2) Enter the NLRB Case Number; and,
3) Follow the detailed instructions.
Electronic filing is preferred, but you also may use
the enclosed Appeal Form, which is also available at www.
nlrb.gov. You are encouraged to also submit a complete
statement of the facts and reasons why you believe my
decision was incorrect. To file an appeal by mail or delivery
service, address the appeal to the General Counsel at
the National Labor Relations Board, Attn: Office of
Appeals, 1015 Half Street SE, Washington, DC 205700001. Unless filed electronically, a copy of the appeal
should also be sent to me.
The appeal MAY NOT be filed by fax or email. The
Office of Appeals will not process faxed or emailed appeals.
Appeal Due Date: The appeal is due on September 23,
2019. If the appeal is filed electronically, the transmission
of the entire document through the Agency’s website must
be completed no later than 11:59 p.m. Eastern Time on
the due date. If filing by mail or by delivery service an
appeal will be found to be timely filed if it is postmarked
or given to a delivery service no later than September 22,

167a
Appendix F
2019. If an appeal is postmarked or given to a delivery
service on the due date, it will be rejected as untimely. If
hand delivered, an appeal must be received by the General
Counsel in Washington D.C. by 5:00p.m. Eastern Time
on the appeal due date. If an appeal is not submitted in
accordance with this paragraph, it will be rejected.
Extension of Time to File Appeal: The General
Counsel may allow additional time to file the appeal if
the Charging Party provides a good reason for doing so
and the request for an extension oftime is received on
or before September 23, 2019. The request may be filed
electronically through the E-File Documents link on
our website www.nlrb.gov, by fax to (202)273-4283, by
mail, or by delivery service. The General Counsel will
not consider any request for an extension oftime to file
an appeal received after September 23, 2019, even if it
is postmarked or given to the delivery service before
the due date. Unless filed electronically, a copy of the
extension of time should also be sent to me.
Confidentiality: We will not honor any claim of
confidentiality or privilege or any limitations on our use
of appeal statements or supporting evidence beyond those
prescribed by the Federal Records Act and the Freedom of
Information Act (FOIA). Thus, we may disclose an appeal
statement to a party upon request during the processing
of the appeal. If the appeal is successful, any statement or
material submitted with the appeal may be introduced as
evidence at a hearing before an administrative law judge.
Because the Federal Records Act requires us to keep
copies of case handling documents for some years after a

168a
Appendix F
case closes, we may be required by the FOIA to disclose
those documents absent an applicable exemption such
as those that protect confidential sources, commercial/
financial information, or personal privacy interests.
Very truly yours,
s/				
Valerie Hardy-Mahoney­
Regional Director
Enclosure
cc: Michael Pfyl, Senior Counsel
Google
1600 Amphitheatre Pkwy
Mountain View, CA 94043-1351
Blake Bertagna, Attorney
Paul Hastings LLP
695 Town Center Drive
17th Floor
Costa Mesa, CA 92626
Cameron W. Fox, Attorney
Paul Hastings, LLP
515 South Flower Street
25th Floor
Los Angeles, CA 90071-2228

169a
Appendix F
J. Al Latham, Attorney At Law
Paul Hastings, LLP
515 South Flower Street, 25th Floor
Los Angeles, CA 90071-2201
Ankush Dhupar, Attorney
Paul Hasting LLP
515 South Flower Street, 25th Floor
Los Angeles, CA 90071-2228
Scott Ruffner
c/o Chris Baker Baker & Schwartz, P.C.
44 Montgomery Street, Suite 3520
San Francisco, CA 94104

170a
Appendix F
UNITED STATES OF AMERICA
NATIONAL LABOR RELATIONS BOARD
APPEAL FORM
To: General Counsel
Attn: Office of Appeals
National Labor Relations Board
1015 Half Street SE
Washington, DC 20570-0001

Date:

Please be advised that an appeal is hereby taken to the
General Counsel of the National Labor Relations Board
from the action of the Regional Director in approving the
settlement agreement in
								
Case Name(s).
								
Case No(s). (If more than one case number, include all
case numbers in which appeal is taken.)
				
(Signature)

171a
Appendix F
UNITED STATES GOVERNMENT
NATIONAL LABOR RELATIONS BOARD
SETTLEMENT AGREEMENT
IN THE MATTER OF
GOOGLE, INC. AND NEST LABS, INC.,
A SINGLE EMPLOYER
Case 32-CA-176462
Subject to the approval of the Regional Director for the
National Labor Relations Board, the Charged Party and
the Charging Party HEREBY AGREE TO SETTLE
THE ABOVE MATTER AS FOLLOWS:
POSTING OF NOTICE — After the Regional Director
has approved this Agreement, the Regional Office will
send copies of the approved Notice to the Charged Party
in English and in additional languages if the Regional
Director decides that it is appropriate to do so. A
responsible official of the Charged Party will then sign and
date those Notices and immediately post them in a place
customarily used by the Charged Party for posting notices
to employees at its corporate headquarters located at 1600
Amphitheater Parkway in Mountain View, California and
the Nest Labs, Inc. headquarters located at 3400 Hillview
Avenue in Palo Alto, California, within the United States
of America. The Charged Party will keep all Notices
posted for 60 consecutive days after the initial posting.
INTRANET POSTING - The Charged Party will also post
a copy of the Notice in English and in additional languages

172a
Appendix F
if the Regional Director decides that it is appropriate to
do so, on its intranet (“MOMA”) home screen and keep it
continuously posted there for 60 consecutive days from
the date it was originally posted. The Charged Party will
submit a paper copy of the intranet or website posting
to the Region’s Compliance Officer when it submits the
Certification of Posting and provide a screenshot of the
home screen in the event it is necessary to check the
electronic posting.
COMPLIANCE WITH NOTICE — The Charged Party
will comply with all the terms and provisions of said
Notice.
NON-ADMISSION CLAUSE – By entering into this
Settlement Agreement, the Charged Party does not admit
that it has violated the National Labor Relations Act or
any other law.
SCOPE OF THE AGREEMENT — This Agreement
settles only the allegations in the above-captioned case(s),
and does not settle any other case(s) or matters. It does
not prevent persons from filing charges, the General
Counsel from prosecuting complaints, or the Board and
the courts from finding violations with respect to matters
that happened before this Agreement was approved
regardless of whether General Counsel knew of those
matters or could have easily found them out. The General
Counsel reserves the right to use the evidence obtained in
the investigation and prosecution of the above-captioned
case(s) for any relevant purpose in the litigation of this or
any other case(s), and a judge, the Board and the courts

173a
Appendix F
may make findings of fact and/or conclusions of law with
respect to that evidence. By approving this Agreement
the Regional Director withdraws any Complaint(s) and
Notice(s) of Hearing previously issued in the above case(s),
and the Charged Party withdraws any answer(s) filed in
response.
PARTIES TO THE AGREEMENT — If the Charging
Party fails or refuses to become a party to this Agreement
and the Regional Director determines that it will promote
the policies of the National Labor Relations Act, the
Regional Director may approve the settlement agreement
and decline to issue or reissue a Complaint in this matter.
If that occurs, this Agreement shall be between the
Charged Party and the undersigned Regional Director.
In that case, a Charging Party may request review of the
decision to approve the Agreement. If the General Counsel
does not sustain the Regional Director’s approval, this
Agreement shall be null and void.
AUTHORIZATION TO PROVIDE COMPLIANCE
INFORMATION AND NOTICES DIRECTLY TO
CHARGED PARTY — Counsel for the Charged Party
authorizes the Regional Office to forward the cover letter
describing the general expectations and instructions to
achieve compliance, a conformed settlement, original
notices and a certification of posting directly to the
Charged Party. If such authorization is granted, Counsel
will be simultaneously served with a courtesy copy of
these documents.
Yes

J.A.L.
Initials

No

Initials

174a
Appendix F
PERFORMANCE — Performance by the Charged
Party with the terms and provisions of this Agreement
shall commence immediately after the Agreement is
approved by the Regional Director, or if the Charging
Party does not enter into this Agreement, performance
shall commence immediately upon receipt by the Charged
Party of notice that no review has been requested or that
the General Counsel has sustained the Regional Director.
The Charged Party agrees that in case of non-compliance
with any of the terms of this Settlement Agreement by the
Charged Party, and after 14 days’ notice from the Regional
Director of the National Labor Relations Board of such
non-compliance without remedy by the Charged Party, the
Regional Director will reissue the Amended Consolidated
Complaint that previously issued on November 18, 2018.
NOTIFICATION OF COMPLIANCE — Each party
to this Agreement will notify the Regional Director in
writing what steps the Charged Party has taken to comply
with the Agreement. This notification shall be given within
5 days, and again after 60 days, from the date of the
approval of this Agreement. If the Charging Party does
not enter into this Agreement, initial notice shall be given
within 5 days after notification from the Regional Director
that the Charging Party did not request review or that
the General Counsel sustained the Regional Director’s
approval of this agreement. No further action shall be
taken in the above captioned case(s) provided that the
Charged Party complies with the terms and conditions
of this Settlement Agreement and Notice.

notices and a certification of posting directly to the Charged Party. If such authorization is granted, Counsel will
be simultaneously served with a courtesy copy of these documents.
Yes ____J.A.L.______ No __________
Initials
Initials
PERFORMANCE — Performance by the Charged Party with the terms and provisions of this Agreement shall
commence immediately after the Agreement is approved by the Regional Director, or if the Charging Party does
not enter into this Agreement, performance shall commence immediately upon receipt by the Charged Party of
notice that no review has been requested or that the General Counsel has sustained the Regional Director.
The Charged Party agrees that in case of non-compliance with any of the terms of this Settlement Agreement by
the Charged Party, and after 14 days’ notice from the Regional Director of the National Labor Relations Board
of such non-compliance without remedy by the Charged Party, the Regional Director will reissue the Amended
Consolidated Complaint that previously issued on November 18, 2018.
NOTIFICATION OF COMPLIANCE — Each party to this Agreement will notify the Regional Director in
writing what steps the Charged Party has taken to comply with the Agreement. This notification shall be given
within 5 days, and again after 60 days, from the date of the approval of this Agreement. If the Charging Party
does not enter into this Agreement, initial notice shall be given within 5 days after notification from the
Regional Director that the Charging Party did not request review or that the General Counsel sustained the
Regional Director’s approval of this agreement. No further action shall be taken in the above captioned case(s)
provided that the Charged Party complies with the terms and conditions of this Settlement Agreement and
Notice.

175a

Appendix F

Charged Party
Google, Inc., and Nest Labs, Inc.
By:
Name and Title

/s/ J. Al Latham Jr.
Print Name and Title below

Date

Charging Party
Scott Ruffner
By:
Name and Title

Date

8/26/19
Print Name and Title below

J. Al Latham Jr.
Attorney for Google + Nest Labs
Recommended By:

Date

Approved By:

Date

/s/ D. Criss Parker
D. Criss Parker
Field Attorney

9/09/19

/s/ Valerie Hardy-Mahoney
VALERIE HARDY-MAHONEY
Regional Director, Region 32

9/9/19

(To be printed and posted on official
Board notice form)
FEDERAL LAW GIVES YOU THE RIGHT TO:
• Form, join, or assist a union;
• Choose a representative to bargain with us on your
behalf;
• Act together with other employees for your benefit
and protection;
• Choose not to engage in any of these protected
activities.
WE WILL NOT do anything to prevent you from
exercising the above rights.
YOU HAVE THE RIGHT to discuss wages, hours, and
working conditions with other employees, the press/media,

176a
Appendix F
and other third parties, and WE WILL NOT do anything
to interfere with your exercise of those rights.
YOU HAVE THE RIGHT to freely bring workplace
diversity issues and requests to clarify permissible
workplace behavior to us on behalf of yourself and other
employees and WE WILL NOT do anything to interfere
with your exercise of that right.
WE WILL NOT threaten employees because they
presented workplace diversity issues to us and requested
clarifications of permissible workplace behavior.
WE WILL NOT reprimand, discipline, or issue a final
written warning to you because you exercise your right
to bring to us, on behalf of yourself and other employees,
issues and complaints regarding your wages, hours, and
other terms and conditions of employment.
WE WILL NOT make it appear to you that we are
watching out for your protected concerted activities or
ask that you report other employees who are engaging
in protected concerted activity regarding their wages,
hours, and working conditions.
WE WILL NOT threaten you with the loss of your job
or other retaliation if you engage in protected activity
with other employees regarding your wages, hours, and
working conditions.
WE WILL NOT prohibit you from discussing or sharing
information relating to your performance, salaries,

177a
Appendix F
benefits, discipline, training, or any other terms and
conditions of your employment and WE HAVE rescinded
any such rules from our Data Classification Guidelines and
related Data Security Policy effective November 2016.
WE WILL NOT maintain rules that define “confidential
information” to include employee information about wages
and terms and conditions of employment and WE HAVE
rescinded sections of our Data Security Policy and our
Data Classification Guidelines that arguably used such a
definition of “confidential information” effective November
2016.
WE WILL NOT prohibit you from talking to the press/
media about your terms and conditions of employment
or require you to obtain prior approval before speaking
with the press/media and WE HAVE rescinded any
such rules in our Appropriate Conduct Policy, the
“Interacting with the Press” provision in the Employee
Communications Policy, and the “Outside Communication
and Research” provision in the Google Code of Conduct
effective September 2016, December 2016, and April 2017,
respectively.
WE WILL remove from our files all references to the final
written warning issued to the Charging Party on August
19, 2015, and WE WILL notify him in writing that this
has been done and that the final written warning will not
be used against him in any way.
WE HAVE notified you that we have rescinded the rules
described above.

178a
Appendix F
WE WILL NOT in any like or related manner interfere
with your rights under Section 7 of the Act.
Google, Inc.			
(Employer)
Dated:

By:					
(Representative)
(Title)
								
The National Labor Relations Board is an independent
Federal agency created in 1935 to enforce the National
Labor Relations Act. We conduct secret-ballot elections to
determine whether employees want union representation
and we investigate and remedy unfair labor practices
by employers and unions. To find out more about your
rights under the Act and how to file a charge or election
petition, you may speak confidentially to any agent
with the Board’s Regional Office set forth below or you
may call the Board’s toll-free number 1-866-667-NLRB
(1-866-667-6572). Hearing impaired persons may contact
the Agency’s TTY service at 1-866-315-NLRB. You may
also obtain information from the Board’s website:
www.nlrb.gov.
Telephone: (510)637-3300
Hours of Operation:
8:30 a.m. to 5 p.m.
								
THIS IS AN OFFICIAL NOTICE AND MUST NOT BE
DEFACED BY ANYONE This notice must remain posted
for 60 consecutive days from the date of posting and must
not be altered, defaced or covered by any other material.
1301 Clay St Ste 300N
Oakland, CA 94612-5224

179a
Appendix F
Any questions concerning this notice or compliance with
its provisions may be directed to the above Regional
Office’s Compliance Officer.
Google, Inc. and Nest Labs, Inc.
(Employer)
Dated:

By:					
(Representative)
(Title)
								
The National Labor Relations Board is an independent
Federal agency created in 1935 to enforce the National
Labor Relations Act. We conduct secret-ballot elections to
determine whether employees want union representation
and we investigate and remedy unfair labor practices
by employers and unions. To find out more about your
rights under the Act and how to file a charge or election
petition, you may speak confidentially to any agent
with the Board’s Regional Office set forth below or you
may call the Board’s toll-free number 1-866-667-NLRB
(1-866-667-6572). Hearing impaired persons may contact
the Agency’s TTY service at 1-866-315-NLRB. You may
also obtain information from the Board’s website:
www.nlrb.gov.
Telephone: (510)637-3300
Hours of Operation:
8:30 a.m. to 5 p.m.
								
THIS IS AN OFFICIAL NOTICE AND MUST NOT BE
DEFACED BY ANYONE This notice must remain posted
for 60 consecutive days from the date of posting and must
1301 Clay St Ste 300N
Oakland, CA 94612-5224

180a
Appendix F
not be altered, defaced or covered by any other material.
Any questions concerning this notice or compliance with
its provisions may be directed to the above Regional
Office’s Compliance Officer.

